<html>
<title> - WHAT IS SPACE WEATHER AND WHO SHOULD FORECAST IT?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                       WHAT IS SPACE WEATHER AND
                        WHO SHOULD FORECAST IT?

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY,
                             AND STANDARDS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 30, 2003

                               __________

                           Serial No. 108-31

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science



                                 ______

90-161              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
                                 ------                                

         Subcommittee on Environment, Technology, and Standards

                  VERNON J. EHLERS, Michigan, Chairman
NICK SMITH, Michigan                 MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         JIM MATHESON, Utah
MICHAEL C. BURGESS, Texas            ZOE LOFGREN, California
VACANCY                              RALPH M. HALL, Texas
SHERWOOD L. BOEHLERT, New York
                ERIC WEBSTER Subcommittee Staff Director
            MIKE QUEAR Democratic Professional Staff Member
            JEAN FRUCI Democratic Professional Staff Member
                 OLWEN HUXLEY Professional Staff Member
                MARTY SPITZER Professional Staff Member
               SUSANNAH FOSTER Professional Staff Member
       AMY CARROLL Professional Staff Member/Chairman's Designee
                ADAM SHAMPAINE Majority Staff Assistant
                MARTY RALSTON Democratic Staff Assistant


                            C O N T E N T S

                            October 30, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............     8
    Written Statement............................................     9

Statement by Representative Mark Udall, Minority Ranking Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    10
    Written Statement............................................    11

Statement by Representative Gil Gutknecht, Member, Subcommittee 
  on Environment, Technology, and Standards, Committee on 
  Science, U.S. House of Representatives.........................    12

                                 Panel:

Dr. Ernest Hildner, Director, Space Environment Center, National 
  Oceanic and Atmospheric Administration
    Oral Statement...............................................    13
    Written Statement............................................    15

Colonel Charles L. Benson, Jr., Commander, Air Force Weather 
  Agency
    Oral Statement...............................................    24
    Written Statement............................................    26

Dr. John M. Grunsfeld, Chief Scientist, National Aeronautics and 
  Space Administration
    Oral Statement...............................................    28
    Written Statement............................................    30

Mr. John G. Kappenman, Manager, Applied Power Systems, Metatech 
  Corporation
    Oral Statement...............................................    32
    Written Statement............................................    34

Captain Henry P. (Hank) Krakowski, Vice President of Corporate 
  Safety, Quality Assurance, and Security, United Airlines
    Oral Statement...............................................    50
    Written Statement............................................    53

Dr. Robert A. Hedinger, Executive Vice President, Loral Skynet, 
  Loral Space and Communications Ltd.
    Oral Statement...............................................    55
    Written Statement............................................    57

Discussion
  Space Environment Center (SEC) Funding.........................    71
  The Appropriate Organization for Forecasting Space Weather.....    71
  SEC Budget Compared to Other Federally Funded Programs.........    73
  Private Sector Interaction With the SEC........................    74
  SEC Improvements Within the Current Budget.....................    75
  Sensors Aboard the Aging Advanced Composition Explorer (ACE) 
    Spacecraft...................................................    76
  Vulnerability to Industry From Space Weather Events............    77
  Vulnerability to Federal Agencies From Space Weather Events....    78
  Relationship With the International Community..................    79
  The Vital Role and Responsibilities of the SEC.................    79

  Appendix 1: Biographies, Financial Disclosures, and Answers to Post-
                           Hearing Questions

Dr. Ernest Hildner, Director, Space Environment Center, National 
  Oceanic and Atmospheric Administration
    Biography....................................................    82
    Response to Post-Hearing Questions...........................    83

Colonel Charles L. Benson, Jr., Commander, Air Force Weather 
  Agency
    Biography....................................................    84
    Response to Post-Hearing Questions...........................    86

Dr. John M. Grunsfeld, Chief Scientist, National Aeronautics and 
  Space Administration
    Biography....................................................    87
    Response to Post-Hearing Questions...........................    89

Mr. John G. Kappenman, Manager, Applied Power Systems, Metatech 
  Corporation
    Biography....................................................    91
    Financial Disclosure.........................................    95

Captain Henry P. (Hank) Krakowski, Vice President of Corporate 
  Safety, Quality Assurance, and Security, United Airlines
    Biography....................................................    96
    Financial Disclosure.........................................    97

Dr. Robert A. Hedinger, Executive Vice President, Loral Skynet, 
  Loral Space and Communications Ltd.
    Biography....................................................    98
    Financial Disclosure.........................................    99

             Appendix 2: Additional Material for the Record

Article for the Record Submitted by Mr. Ehlers, ``Two Geomagnetic 
  Storms Hitting the Planet,'' The Washington Post, October 25, 
  2003...........................................................   102

Article for the Record Submitted by Mr. Ehlers, ``Cloud of Solar 
  Gas Strikes Our Planet,'' The Washington Post, October 25, 2003   104

Submitted Testimony of U.S. Commercial Satellite Imaging Industry   106

Submitted Testimony of the American Meteorological Society.......   107

Submitted Testimony of the Satellite Industry Associations.......   109

Submitted Testimony of Lockheed Martin...........................   111

Submitted Testimony of SES Americom..............................   114

Submitted Testimony of Space Environment Technologies............   116

Submitted Testimony of the Electric Power Research Institute.....   118

Submitted Testimony of the National Center for Atmospheric 
  Research.......................................................   121

Submitted Testimony of the Metatech Corporation..................   125

Submitted Testimony of the University of Michigan, College of 
  Engineering....................................................   127

Submitted Testimony of the Aerospace Industries Association......   128

Submitted Testimony of Ball Aerospace & Technologies Corp........   132

Submitted Testimony of Tom Anderson, Colleyville, TX.............   135

Submitted Testimony of Daniel N. Baker, Director, Laboratory for 
  Atmospheric and Space Physics, University of Colorado, Boulder.   136

Submitted Testimony of Murray Dryer, Space Physics Consultant, 
  Greenwood Village, CO..........................................   137

Submitted Testimony of Dr. Craig D. ``Ghee'' Fry, Vice President, 
  Exploration Physics International, Inc. (EXPI).................   139

Submitted Testimony of Captain Bryn Jones, A340 Captain and 
  Cosmic Radiation Program Manager, Virgin Atlantic Airways 
  Limited........................................................   141

Submitted Testimony of J. Michael Thurman, Lamar, AR.............   142

Submitted Testimony of Ramon E. Lopez, C. Sharp Cook 
  Distinguished Professor, Department of Physics, University of 
  Texas, El Paso.................................................   144

Submitted Testimony of Robert Sobkoviak, Plainfield, IL..........   146

Submitted Testimony of David F. Webb, ISR; Boston College........   147

 
           WHAT IS SPACE WEATHER AND WHO SHOULD FORECAST IT?

                              ----------                              


                       THURSDAY, OCTOBER 30, 2003

                  House of Representatives,
      Subcommittee on Environment, Technology, and 
                                         Standards,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Vernon J. 
Ehlers [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

         SUBCOMMITTEE ON ENVIRONMENT, TECHNOLOGY, AND STANDARDS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       What Is Space Weather and

                        Who Should Forecast It?

                       thursday, october 30, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On October 30, 2003 at 10:00 a.m., the House Science Committee's 
Subcommittee on Environment, Technology and Standards will hold a 
hearing to examine the space weather activities at the National Oceanic 
and Atmospheric Administration's (NOAA) Space Environment Center. The 
Space Environment Center (SEC) provides real-time monitoring and 
forecasting of solar and geophysical events. These events can: cause 
damage to communication satellites, electric transmission lines and 
electric transformers; interfere in ground-based communications with 
airline pilots; be fatal to astronauts on space flights and in the 
International Space Station; and potentially harm airplane passengers 
flying polar routes. SEC forecasts are used by the U.S. military, the 
National Aeronautics and Space Administration (NASA), NOAA itself, and 
by the industries mentioned above. For example, just last Wednesday 
(October 22), the SEC released two-day advanced warnings about an 
unusually large solar storm, which allowed electrical utilities, 
airlines, and spacecraft managers to take preventive action to minimize 
disruption of service due to the storm. (See attachment.)
    The Air Force Weather Agency works closely with NOAA's SEC on the 
collection of space weather data through satellite and ground-based 
sensors and provides warnings tailored for specific military needs. The 
Air Force relies on the SEC for data analysis and overall forecasting. 
The Air Force and NOAA each contribute to the cost of sensors to 
monitor space weather, and NASA provides many of the satellites on 
which the sensors are carried.
    In the House Fiscal Year (FY) 2004 Commerce, Justice and State 
(CJS) appropriations bill, SEC funding levels are below the 
Administration's request. The Senate CJS Appropriations Committee 
report includes the suggestion that the Air Force or NASA should take 
on the duties of predicting space weather and contains no funding for 
SEC. Thus, budget constraints could force the closure or reduction of 
these vital and unique services provided by NOAA's SEC. The 
Subcommittee wants to better understand the potential impact of the 
loss of SEC services.
    The Subcommittee plans to explore several overarching questions, 
including:

        1. LWhy do we need to understand and forecast space weather 
        events?

        2. LWhat unique capabilities and expertise does NOAA's SEC 
        provide? To what extent could the Air Force or NASA perform 
        these duties?

        3. LWhat are the implications of closure or reduced activities 
        of NOAA's SEC to the government and private sector?

Witnesses:

Dr. Ernest Hildner, Director, Space Environment Center, National 
Oceanic and Atmospheric Administration (NOAA), Boulder, Colorado. Dr. 
Hildner will provide an overview of the SEC, the services it provides 
and its collaborations with other federal agencies.

Col. Charles L. Benson, Jr., Commander, Air Force Weather Agency, 
Offutt Air Force Base, Nebraska. Colonel Benson will explain the 
mission of Air Force Space Weather Operations Center and the way the 
Air Force and NOAA work together on space weather prediction.

Dr. John M. Grunsfeld, Chief Scientist, National Aeronautics and Space 
Administration (NASA). Dr. Grunsfeld will discuss the effects of space 
weather on NASA operations.

Mr. John Kappenman, Manager, Applied Power Systems, Metatech 
Corporation, Duluth, Minnesota. Mr. Kappenman will discuss the effects 
of space weather events on electric power grid systems and how the loss 
of NOAA's SEC would affect this industry. Mr. Kappenman was formerly 
with Minnesota Power.

Captain Hank Krakowski, Vice President of Corporate Safety, Quality 
Assurance, and Security, United Airlines, Chicago, Illinois. Captain 
Krakowski will discuss how space weather events affect the airline 
industry, including air traffic control communications and human health 
concerns. He also will discuss how the loss of NOAA's SEC would affect 
United Airlines operations.

Dr. Robert Hedinger, Executive Vice President, Loral Skynet, 
Bedminster, New Jersey. Dr. Hedinger will explain the implications of 
space weather events for communications satellites and how the loss of 
NOAA's SEC would affect the commercial satellite sector.

Background

What Is Space Weather?
    Space weather refers to conditions on the sun and in the solar 
wind, which can cause disturbances in the outer layers of the Earth's 
atmosphere. Highly energized particles from the sun disrupt the upper 
layers of the Earth's atmosphere, causing geomagnetic storms that 
result in increased radiation and rapid changes in the direction and 
intensity of the Earth's magnetic field. These conditions can influence 
the performance and reliability of space-borne and ground-based 
technological systems and can endanger human life or health. Government 
and private sector organizations concerned with communications, 
satellite operations, electric power grids, human space flight, and 
navigation use space weather information.

History of NOAA's Space Environment Center
    NOAA's Space Environment Center (SEC), located in Boulder, 
Colorado, began in the 1940's as a program to study short-wave radio 
propagation at the National Bureau of Standards (now known as the 
National Institute of Standards and Technology, or NIST). As the SEC 
expanded its scope to study the effects of solar weather on the Earth's 
atmosphere, the center moved into the Office of Oceanic and Atmospheric 
Research in NOAA, where it is currently located. The SEC consists of 
three divisions: research and development, space weather operations, 
and systems. The SEC has 54 NOAA staff and two Air Force liaisons in 
its Boulder office. In a 2002 report, the National Academy Sciences, 
called the work of the SEC ``crucial.''
    NOAA's SEC collects, provides, and archives space environment data 
from its polar-orbiting and geostationary satellites, from other 
federal agencies, and through international data exchange. Forecasters 
at SEC provide space weather forecasts and warnings to users in 
government and industry and to the general public, while the Air Force 
and private sector users take these forecasts and tailor them for their 
organizations' specific needs. SEC's space weather operations division 
is the national and international warning center for disturbances in 
the space environment that can affect people and equipment. The effects 
of these disturbances are described in more detail below. The research 
and development division is home to the leading experts in space 
weather. They conduct research in solar-terrestrial physics, develop 
techniques for forecasting solar and geophysical disturbances, provide 
real-time monitoring and forecasting of solar and geophysical events, 
and prepare data to be archived by NOAA's National Geophysical Data 
Center.

Air Force Space Forecast Center
    NOAA's SEC works closely with the U.S. Air Force's Space Forecast 
Center at Offutt Air Force Base in Nebraska, which provides space 
weather forecast services to U.S. military customers. The total budget 
for Air Force space weather efforts was $15.3 million in FY 2003. The 
Air Force provides two personnel who work at the SEC to ensure that 
this vital space weather information is fed smoothly to the Air Force, 
which then tailors it for military purposes. For example, NOAA's SEC 
may issue a warning that a geomagnetic storm will occur in the Earth's 
atmosphere at a certain time. The Air Force will use this information 
to make recommendations about military satellites that should be turned 
or powered down, or military operations that should be suspended until 
the storm passes.

NASA Operations
    NASA requires information about space weather to make decisions 
regarding the space shuttle and International Space Station (ISS) 
operations. For example, astronauts conducting space walks could be 
killed if they were exposed to high levels of radiation. Additionally, 
astronauts inside the ISS may have to take special precautions during a 
solar storm. In fulfilling its research mission, NASA flies many of the 
sensors used to collect space weather data on its research satellites.
National Space Weather Program (NSWP)
    Previous reviews of the space weather program have concluded that 
NOAA should continue to run the civilian space weather forecasting 
operation.
    For example, in 1997, an interagency working group developed ``The 
National Space Weather Program Implementation Plan,'' under which NOAA 
was to continue to run civilian space weather programs and the Air 
Force was to continue to run such programs for the military. The 
interagency group included NOAA, the National Science Foundation, the 
Department of Defense, NASA, the Department of Energy, the Department 
of the Interior, and the Department of Transportation.
    Similarly, in its 2002 report, ``The Sun to the Earth--and Beyond: 
A Decadal Research Strategy in Solar and Space Physics,'' the National 
Academy of Sciences recommended that NOAA not only continue to forecast 
space weather but that NOAA should do more to coordinate the 
development of the sensors that are used to make its forecasts. 
Specifically, the Academy recommended that NOAA and NASA initiate a 
plan to transition solar monitoring sensors from their current location 
primarily on research satellites to operational satellite programs.

The SEC Budget Situation
    The Space Environment Center is funded through NOAA's Office of 
Oceanic and Atmospheric Research (OAR). In FY 2003, the SEC received 
$5.2 million (a reduction of $2 million below FY 2002 levels). For FY 
2004, the Administration requested $8 million for NOAA's SEC. At this 
time, the FY 2004 appropriations process is ongoing in Congress. The 
House Commerce, Justice, State (CJS) bill, passed in July, provides 
$5.2 million for the SEC (same level as FY 2003). The Senate CJS bill, 
reported out by the full committee, recommends no funding for SEC and 
suggests that the Air Force or NASA should assume the responsibility of 
forecasting space weather. Funding for some of the sensors and 
satellites that provide data to the SEC is already provided by other 
agencies, such as NASA and the Air Force, but NOAA's SEC is the 
national center for data collection and forecasting of space weather 
events.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Why Do We Need Space Weather Forecasts From NOAA's SEC?
            Electric Power Grids
    The first recorded evidence of space weather effects on technology 
was in 1859, when a major failure of telegraph systems in New England 
and Europe coincided with a large solar flare. More recently, on March 
13, 1989, geomagnetically induced currents in Canadian transmission 
lines set off a cascade of broken circuits, causing loss of power for 
the entire Hydro-Quebec power grid. The blackout affected six million 
customers and cost Hydro-Quebec more than $10 million.
    In 1998, a similar geomagnetic storm was headed for Earth. This 
time, thanks to data from new sensors and improved forecast models, 
NOAA's SEC forecasters were able to alert electric power customers 40 
minutes before the storm hit the Earth. In response, electric power 
utilities diverted power and increased safety margins on certain parts 
of the grid to avoid stress on the power system.

            Satellite Operations
    In addition to electric power grid operations, human activities 
dependent on satellites are affected by space weather. This includes 
everything from communications to satellite-television. Research done 
at NOAA's SEC has helped provide the government and other satellite 
operators with data on storms to help understand whether a failed 
satellite was due to mechanical problems or space weather. 
Additionally, the satellite industry uses space weather forecasts to 
determine the timing of rocket launches to avoid sending a multi-
million dollar satellite into orbit at the peak of a solar storm.

            Communications Satellites
    Solar storms cause disturbances in the Earth's ionosphere that can 
affect the orbital path of low-orbit spacecraft, creating operational 
and tracking problems and sometimes shortening the useful life of a 
satellite. For example, in May 1998 loss of telephone pager service to 
45 million customers was caused by a solar storm. During the Gulf War 
in 1991 military forces reported high frequency radio communications 
interruptions due to ionization storms, and in January 1994 an extended 
period of high electron levels caused failure of two Canadian 
communications satellites, which interrupted telephone, television, and 
radio service for several hours.

            Airline Industry
    Airlines are concerned about space weather because it can disrupt 
satellite and ground-based communication systems, which allow air 
traffic controllers to talk directly to pilots. Federal regulations 
require airlines to maintain communication capability with their 
aircraft at all times. Additionally, navigation systems can be affected 
by space weather events. Finally, because of the curvature of the 
Earth, planes flying from North America to Asia generally make flights 
over the North Pole, where passengers can be susceptible to higher 
doses of solar radiation than traditional non-polar flights. United 
Airlines reports that for the 21-month period from January 2002 through 
September 2003 there were approximately 140 flights that were or could 
have been affected by space weather events.

Questions for Witnesses

    Dr. Ernest Hildner, Director, Space Environment Center, National 
Oceanic and Atmospheric Administration (NOAA)

        1. Please provide an overview of NOAA's Space Environment 
        Center (SEC). What research programs are performed at the 
        center? What operational services are provided by the center?

        2. Please describe the different types of solar weather events 
        and specifically explain the time it takes for them to travel 
        to the Earth. What is the lead-time we currently have for 
        reacting to or mitigating the effects of solar weather? Please 
        provide historical examples of when space weather events have 
        affected human activities.

        3. Who are the users of SEC products and information?

        4. Please describe the relationship between the SEC, NASA, and 
        the Air Force Weather Agency, including a specific explanation 
        of the role of each agency in understanding and predicting 
        space weather.

        5. If the FY04 final appropriation for the SEC was the $5.2 
        million recommended in the House bill, what would be the impact 
        on SEC services?

    Col. Charles L. Benson, Jr., Commander, Air Force Weather Agency

        1. Please provide an overview of the Air Force Space Weather 
        Services provided through the Air Force Weather Agency.

        2. Please describe the relationship between NOAA's Space 
        Environment Center (SEC), NASA, and the Air Force Weather 
        Agency, including a specific explanation of the role of each 
        agency in understanding and predicting space weather.

        3. Who are the users of Air Force space weather products and 
        information?

        4. Are there any technical barriers to the Air Force Weather 
        Agency taking on the duties of the SEC if it were no longer 
        funded through NOAA? Given that the Air Force's capabilities 
        are designed for military purposes, how would you have to adapt 
        your practices to provide SEC-like services to the civilian 
        sector?

        5. What would be the impacts on the Air Force and overall 
        military operations if SEC no longer existed? Please provide 
        specific examples when possible.

    Dr. John M. Grunsfeld, Chief Scientist, National Aeronautics and 
Space Administration (NASA)

        1. Please provide an overview of how space weather can affect 
        NASA operations, including examples of historical events that 
        have caused problems.

        2. How does NASA use data and products from NOAA's Space 
        Environment Center (SEC)? In general, how much lead time do you 
        need to make decisions for mitigating the effects of space 
        weather?

        3. How would you compare our knowledge today of the impacts of 
        space weather on NASA operations to what we knew five years 
        ago, and to what we expect to know five years from now?

        4. What would be the impact to NASA if SEC were no longer able 
        to provide its space weather forecasts to you? Please provide 
        specific examples when possible.

        5. Are there any technical barriers to NASA taking on the 
        duties of the SEC if it were no longer funded through NOAA? 
        Given that NASA's mission is research oriented, how would you 
        have to adapt your practices to provide SEC operational 
        services?

    Mr. John Kappenman, Manager, Applied Power Systems, Metatech 
Corporation

        1. Please provide an overview of how space weather can affect 
        electric power grid systems, including examples of historical 
        events that have caused problems.

        2. How does your organization use data and products from 
        NOAA's Space Environment Center (SEC)? In general, how much 
        lead time do you need to make decisions for mitigating the 
        effects of space weather?

        3. How would you compare our knowledge today of the impacts of 
        space weather on electric power grid systems to what we knew 
        five years ago, and to what we expect to know five years from 
        now?

        4. What would be the impact to your organization and the 
        electric power grid industry if SEC were no longer able to 
        provide its space weather forecasts to you? Please provide 
        specific examples when possible.

    Captain Hank Krakowski, Vice President of Corporate Safety, Quality 
Assurance and Security, United Airlines

        1. Please provide an overview of how space weather can affect 
        airline operations, including examples of historical events 
        that have caused problems.

        2. How does your organization use data and products from 
        NOAA's Space Environment Center (SEC)? In general, how much 
        lead time do you need to make decisions for mitigating the 
        effects of space weather?

        3. How would you compare our knowledge today of the impacts of 
        space weather on airline operations to what we knew five years 
        ago, and to what we expect to know five years from now?

        4. What would be the impact to your organization if SEC were 
        no longer able to provide its space weather forecasts? Please 
        provide specific examples when possible.

    Dr. Robert Hedinger, Executive Vice President, Loral Skynet

        1. Please provide an overview of how space weather can affect 
        satellite operations, including examples of historical events 
        that have caused problems.

        2. How does your organization use data and products from 
        NOAA's Space Environment Center (SEC)? In general, how much 
        lead time do you need to make decisions for mitigating the 
        effects of space weather?

        3. How would you compare our knowledge today of the impacts of 
        space weather on satellite operations to what we knew five 
        years ago, and to what we expect to know five years from now?

        4. What would be the impact to your organization if SEC were 
        no longer able to provide its space weather forecasts? Please 
        provide specific examples when possible.

    Chairman Ehlers. This hearing will come to order. Good 
morning. Welcome to the oversight hearing entitled: ``What Is 
Space Weather and Who Should Forecast It?'' And if you don't 
know what it is, you can go out and look outside and you will 
get some idea of what space weather is. Well, I wanted to make 
it clear, since I have been asked this, that the solar storm 
that is currently underway did not start the fires in 
California.
    As a physicist, I must admit that when we began to plan for 
this hearing last month, I did not think it would conjure much 
attention outside of the scientific community. However, thanks 
to Divine Intervention, we now have major solar storm activity 
to coincide with the hearing. We certainly hope that the lights 
will stay on and our webcast capabilities will not be 
diminished during the course of this hearing.
    The purpose of the hearing is to examine the National 
Oceanic and Atmospheric Administration's, better known as NOAA, 
Space Environment Center. This center, abbreviated SEC, but not 
to be confused with buying and selling stocks, provides real-
time monitoring and forecasting of solar storms. The SEC is 
located with other NOAA labs in Boulder, Colorado in the 
District of Mr. Udall, the Subcommittee Ranking Member sitting 
directly to my right.
    Many of us may think of solar eruptions as a curiosity or 
as the source of the beautiful Aurora Borealis often observed 
by residents in the northern U.S. However, as highlighted by 
recent media attention, these solar events can have serious 
repercussions for Earth-based technological systems. They cause 
geomagnetic storms in the Earth's atmosphere that can disrupt 
communication systems, cause surges on electric power grids, 
and be harmful to airline passengers and astronauts. NOAA's SEC 
provides vital space weather forecasts for civilian industries 
concerned with these effects. Additionally, SEC forecasts are 
used by the Air Force to provide tailored recommendations for 
military users concerned with space weather. For example, I 
believe the current space storm was predicted a good two days 
before it began.
    Despite its important role in protecting the Nation's 
technological systems from geomagnetic storms, some here in 
Congress have proposed to reduce or eliminate funding for 
NOAA's SEC. In the House fiscal year 2004 appropriations bill 
for NOAA, SEC funding levels are 35 percent below the 
Administration's request of $8 million. Of even greater 
concern, the Senate Appropriations Committee bill contains no 
funding for SEC and includes the suggestion, without any 
justification, that the Air Force or the National Aeronautics 
and Space Administration, better known as NASA, should take on 
the duties of predicting space weather.
    Today, we will hear from representatives of NOAA, the Air 
Force, and NASA about the roles of each agency in monitoring 
and forecasting space weather. Then we will hear from 
representatives of three industries that rely on SEC forecasts: 
the electric power grid industry, the airline industry, and the 
communications satellite industry. These experts will help us 
to better understand the impact of space weather on the Earth 
and its surroundings and to examine the question of who should 
be responsible for forecasting it.
    Before we hear from our Ranking Member and our witnesses, I 
wanted to show a short movie clip of the most recent solar 
flare to set the mood for today's hearing. So we will now show 
that. I am not quite sure how that is going to show up in the 
transcript of the hearing, but we will take a quick look.
    [Video]
    Chairman Ehlers. Thank you very much. If I might mention 
yesterday, just out of curiosity, I went to the site, the solar 
site, and looked at one of the images. I took my little ruler 
and measured the diameter of the sun and the size of the flare 
compared to the sun. Then did a quick mental calculation. I 
can't guarantee this is accurate, and I probably shouldn't even 
say it, but my quick mental calculation indicated that the size 
of the flare, as apparent from that particular picture, was 
approximately 60 Earth diameters. That gives some startling 
idea of the scale of this. If the Earth had been there, it 
would have been an insignificant dot compared to the size of 
the flare. And that indicates the strength of the storms that 
we deal with.
    Before I will recognize my Ranking Member, I also want to 
mention that we are going to have problems with the House 
schedule today. I understand that we are likely to have a vote 
in approximately 20 minutes, and unfortunately, we are very 
Pavlovian here; when the bells ring, we go vote. We will simply 
have to suspend the hearing while we go vote. We may well be 
interrupted by other votes later, but we will try to proceed as 
expeditiously as we can.
    The Chair now recognizes Mark Udall, the Ranking Minority 
Member on the Environment, Technology, and Standards 
Subcommittee for his opening statement.
    [The prepared statement of Chairman Ehlers follows:]

            Prepared Statement of Chairman Vernon J. Ehlers

    Good morning! Welcome to this oversight hearing entitled, ``What Is 
Space Weather and Who Should Forecast It?'' As a physicist, I must 
admit that, when we began to plan for this hearing last month, I did 
not think it would garner much attention outside the scientific 
community. However, thanks to divine intervention, we now have major 
solar storm activity to coincide with the hearing. We hope the lights 
will stay on, and our webcast capabilities will not be impacted.
    The purpose of the hearing is to examine the National Oceanic and 
Atmospheric Administration's (better known as NOAA) Space Environment 
Center. This center, abbreviated SEC, provides real-time monitoring and 
forecasting of solar storms. The SEC is located with other NOAA labs in 
Boulder, Colorado, in the district of Mr. Udall, the Subcommittee 
Ranking Member.
    Many of us may think of solar eruptions as a curiosity, or as the 
source of the beautiful Aurora Borealis often observed by residents in 
the northern U.S. However, as highlighted by recent media attention, 
these solar events can have serious repercussions for Earth-based 
technological systems. They cause geomagnetic storms in the Earth's 
atmosphere that can disrupt communication systems, cause surges on 
electric power grids, and be harmful to airline passengers and 
astronauts. NOAA's SEC provides vital space weather forecasts for 
civilian industries concerned with these effects. Additionally, SEC 
forecasts are used by the Air Force to provide tailored recommendations 
for military users concerned with space weather.
    Despite its important role in protecting the Nation's technological 
systems from geomagnetic storms, some here in Congress have proposed to 
reduce or eliminate funding for NOAA's SEC. In the House Fiscal Year 
2004 appropriations bill for NOAA, SEC funding levels are 35 percent 
below the Administration's request of eight million dollars. Of even 
greater concern, the Senate Appropriations Committee bill contains no 
funding for SEC and includes the suggestion, without any justification, 
that the Air Force or NASA should take on the duties of predicting 
space weather.
    Today we will hear from representatives of NOAA, the Air Force and 
NASA about the roles of each agency in monitoring and forecasting space 
weather. Then we will hear from representatives of three industries 
that rely on SEC forecasts--the electric power grid industry, the 
airline industry, and the communications satellite industry. These 
experts will help us to better understand the impact of space weather 
on the Earth and to examine the question of who should be responsible 
for forecasting it.

    Mr. Udall. Thank you, Mr. Chairman. Good morning to the 
panel and all of you who have assembled here to attend this 
important hearing. I want to begin by thanking the Chairman for 
holding this hearing. And of course, I have to thank him, also, 
for his impeccable timing. He managed to arrange for the sun 
spot activity last week to occur and then the solar flare this 
week has really given us a firsthand understanding of the 
importance of space weather and the need for the space weather 
forecasting services provided by NOAA's Space Environment 
Center, the SEC. And I would think, Mr. Chairman, this SEC is 
at least as important as the other SEC, particularly over the 
long-term as we have learned more about space weather.
    Sunspots, geomagnetic storms, and solar flares, the 
phenomena of space weather, used to be a topic solely in the 
province of space scientists. While we have experienced the 
effects of these phenomena in the past, we had no ability to 
monitor or forecast these storms or to anticipate their likely 
effects. Some of you here know about the large solar flare that 
was generated in 1859, September of 1859, which shorted out 
telegraph wires in the U.S. and in Europe. And caused numerous 
fires.
    Today, because of the importance of communications, 
electricity, and transportation to our daily lives, a similar 
storm would have devastating impacts in the absence of space 
weather forecasting. Satellites, transformers and transmission 
lines, and the billion dollar infrastructure that supports 
these essential services, are all vulnerable to space weather 
events. The SEC's forecasts enable government and private 
sector operators to take actions to minimize disruptions in 
service and damage to critical infrastructure.
    The SEC's annual budget, really of a mere $8 million, seems 
modest when we evaluate it in the context of the Nation's 
investment in space weather monitoring and research and in 
comparison to the billions of dollars of infrastructure and 
services that are vulnerable to space weather events.
    After investing millions of dollars and many years of 
research on space weather, we are now able to monitor solar 
storms and forecast their nature and intensity. Eliminating the 
SEC or drastically cutting its budget does not save money; it 
actually wastes taxpayer investments in research by cutting off 
the service that is currently delivering real benefits. Cutting 
the SEC's budget reverses, in my opinion, and I believe the 
opinion of many people here and people around the country, our 
progress in space weather forecasting, putting billions of 
dollars of infrastructure and services at risk.
    This committee, in my opinion, should endorse the 
Administration's fiscal year 2004 budget request 
enthusiastically for those reasons. We should also continue to 
support research to improve space weather forecasting and to 
expand our knowledge of space weather and its potential 
impacts.
    While the space weather forecasting discipline is still in 
its infancy, we still--it is no less essential than terrestrial 
weather forecasting. If we do not continue to invest in space 
weather forecasting, we will not only enjoy gazing at the 
Northern Lights, but we will risk experiencing widespread 
blackouts. Let us keep the lights on, the planes flying, and 
the communications flowing by fully investing in the Space 
Environment Center and its vital research and forecasting 
activities.
    Mr. Chairman, I am also aware of a number of people with 
interests in space weather who wish to contribute to the record 
for this hearing. Therefore, I would ask unanimous consent that 
the record for this hearing be open--held open for 10 days to 
enable trade groups, private citizens, academics, and industry 
representatives to submit material to the record.
    Chairman Ehlers. So ordered.
    Mr. Udall. Thank you, Mr. Chairman.
    In conclusion, the witnesses we have here today will help 
us to better understand the phenomena and potential impacts of 
space weather events on our government activities and on our 
economy. We have an excellent panel of witnesses for our 
hearing today. I want to thank you all for taking your time to 
appear before the Subcommittee this morning, and I do look 
forward to your testimony.
    With that, Mr. Chairman, I would yield back any time I have 
remaining.
    [The prepared statement of Mr. Udall follows:]

            Prepared Statement of Representative Mark Udall

    Good morning.
    First, I would like to express my thanks to the Chairman for 
holding this hearing and to congratulate him on his timing. I don't 
know how you managed to arrange for the sun spot activity last week, 
Mr. Chairman, but the solar flare that reached Earth this past week 
illustrates the importance of space weather and the need for the space 
weather forecasting services provided by NOAA's Space Environment 
Center (SEC).
    Sun spots, geomagnetic storms, and solar flares--the phenomena of 
space weather--used to be a topic solely in the province of space 
scientists. While we have experienced the effects of these phenomena in 
the past, we had no ability to monitor or forecast these storms or to 
anticipate their likely effects. For example, a large solar flare 
generated in September of 1859 shorted out telegraph wires in the U.S. 
and in Europe causing numerous fires.
    Today, because of the importance of communications, electricity, 
and transportation to our daily lives, a similar storm would have 
devastating impacts in the absence of space weather forecasting. 
Satellites, transformers, and transmission lines--and the billion 
dollar infrastructure that supports these essential services are all 
vulnerable to space weather events. The SEC's forecasts enable 
government and private sector operators to take actions to minimize 
disruptions in service and damage to critical infrastructure.
    The SEC's annual budget of $8 million seems modest when we evaluate 
it in the context of the Nation's investment in space weather 
monitoring and research and in comparison to the billions of dollars of 
infrastructure and services that are vulnerable to space weather 
events.
    After investing millions of dollars and many years of research on 
space weather, we are now able to monitor solar storms and forecast 
their nature and intensity. Eliminating the SEC or drastically cutting 
its budget does not save money. It wastes taxpayer investments in 
research by cutting off the service that is currently delivering real 
benefits. Cutting the SEC's budget reverses our progress in space 
weather forecasting, putting billions of dollars of infrastructure and 
services at risk.
    This Committee should endorse the Administration's FY04 budget 
request, enthusiastically. We should continue to support research to 
improve space weather forecasting and to expand our knowledge of space 
weather and its potential impacts.
    While space weather forecasting is still in its infancy, it is no 
less essential than terrestrial weather forecasting. If we do not 
continue to invest in space weather forecasting, we will not only enjoy 
gazing at the Northern lights, but we will also risk experiencing 
widespread blackouts. Let's keep the lights on, the planes flying and 
communications flowing by fully funding the Space Environment Center 
and its vital research and forecasting activities.
    Mr. Chairman, I am also aware of a number of people with interests 
in space weather who wish to contribute to the record for this hearing. 
Therefore, I ask unanimous consent that the record for this hearing be 
held open for ten days to enable trade groups, private citizens, 
academics and industry representatives to submit material to the 
record.
    The witnesses we have here today will help us to better understand 
the phenomena and potential impacts of space weather events on our 
governmental activities and on our economy. We have an excellent panel 
of witnesses for our hearing today. I thank you all for appearing 
before the Subcommittee this morning and I look forward to your 
testimony.

    Chairman Ehlers. All right. If there is no objection, all 
additional opening statements submitted by the Subcommittee 
Members will be added to the record. Without objection, so 
ordered.
    At this time, I would like to introduce our witnesses. We 
will begin with a special introduction by our Ranking Member, 
Mr. Udall.
    Mr. Udall. Thank you, Mr. Chairman.
    I want to take this time to acknowledge Dr. Hildner, who is 
here from my hometown of Boulder. Dr. Hildner is the Director 
of NOAA's Space Environment Center, the SEC, we have been 
mentioning. It is located in Boulder, as I mentioned. Dr. 
Hildner is a solar physicist who has worked for the High 
Altitude Observatory at NCAR, which is also based in Colorado, 
and at NASA's Marshall Space Flight Center in Alabama where he 
was the head of its Solar Physics Branch. He was an 
experimental scientist for Skylab and the Solar Maximum Mission 
during the 1970's. Dr. Hildner's scientific specialty is 
coronal and interplanetary physics about which he has published 
dozens of papers. Last year, the National Academy of Sciences 
called the work of the SEC ``crucial.'' Under Dr. Hildner's 
steady watch, the Center continues to do its crucial work very 
well, though recent budget cuts have made his job, and the jobs 
of NOAA's SEC staff more difficult.
    I look forward to hearing from Dr. Hildner today as he 
helps us understand the importance of the Space Environment 
Center.
    Welcome, Dr. Hildner.
    Chairman Ehlers. And with that background, he can tell me 
later whether my mental calculation was correct.
    Next, it is my pleasure to introduce Colonel Charles L. 
Benson, Junior. He is the Commander of the Air Force Weather 
Agency at Offutt Air Force Base in Nebraska. Following him is 
Dr. John M. Grunsfeld, Chief Scientist of the National 
Aeronautics and Space Administration, better known, of course, 
by its acronym, NASA. The next witness to be introduced by the 
honorable gentleman from Minnesota, Mr. Gutknecht.
    Mr. Gutknecht. Well, thank you, Chairman Ehlers.
    And I just want to welcome the panel. And Chairman Ehlers 
and I have had the opportunity to go out and visit the NOAA 
center out in Boulder, and we were duly impressed with the work 
that is done.
    But it is my honor today to introduce John Kappenman from 
Metatech Corporation in Duluth, Minnesota. For those of you who 
have never had the chance to go to Duluth, Minnesota, it is one 
of the most beautiful cities, not only in Minnesota, but, I 
think, in the country. And if you don't get a chance to go to 
Duluth and visit the city, or go fishing in the beautiful 
waters of Lake Superior, at least you can go to my website and 
you can see a very large lake trout, which I caught there about 
two months ago. And I am very proud of that picture. And it is 
on the front page of my website.
    For the past 27 years, Mr. Kappenman has researched 
electronic power system impacts caused by widespread 
geomagnetic field disturbances due to space weather. Since 
1997, he has been employed with Metatech Corporation where he 
has advised folks worldwide on how to protect technology and 
power grid systems.
    We all look forward to your testimony, and we welcome you 
here to Washington.
    Chairman Ehlers. Thank you, Mr. Gutknecht.
    I now understand the reason for the low lake levels in the 
Great Lake system: you are taking all of the fish out of them.
    Next, it is my pleasure to introduce Captain Hank 
Krakowski. He is the Vice President of Corporate Safety, 
Quality Assurance, and Security for United Airlines located in 
Chicago, Illinois. And our final witness is Dr. Robert 
Hedinger. He is the Executive Vice President of Loral Skynet 
out of Bedminster, New Jersey.
    As our witnesses should know, I presume you have been 
briefed, testimony is limited to five minutes each, 
particularly with a large panel like this, so we ask that you 
honor that request. And the little device here will show green 
for the first four minutes, yellow for the next minute, and 
then it turns red and all sorts of bad things happen. So we 
request that you try to keep it to five minutes each.
    We will start with Dr. Hildner.

 STATEMENT OF DR. ERNEST HILDNER, DIRECTOR, SPACE ENVIRONMENT 
    CENTER, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Hildner. Good morning, Chairman Ehlers and Members of 
the Subcommittee. And thank you, Mr. Udall, for your kind 
introduction. As Director of the National Oceanic and 
Atmospheric Administration Space Environment Center, I am 
pleased to join these other witnesses and you today for the 
hearing on SEC's role in providing operational space weather 
information to the United States. We believe that NOAA is the 
proper home for the Nation's space weather service.
    The extensive media coverage of recent radiation and 
geomagnetic storms clearly illustrates the Nation's need for 
accurate, reliable, and timely space weather forecasting. The 
effects of space weather, as you have already indicated, are 
far ranging. We know that airlines, the International Space 
Station, nuclear power plants, and at least one satellite were 
affected by the recent solar and space weather events. NOAA's 
SEC is the central focus of information for these kinds of 
events.
    [Slide]
    The next figure shows that--sorry. I am in control here, I 
think.
    The next figure in the upper left shows the number of web 
accesses to our site. And that spike, over the last several 
days, reaches almost ten million hits on our website per day. 
Even before the recent activity and the media attention, 
customers hit our website over 500,000 times a day, and that is 
that lower part on the left. This figure also shows several of 
the NOAA products used by radio communicators, by airlines, by 
satellite operators, and the various alerts and warning 
products issued by SEC in the last week in the upper right. 
That figure, which is too small to see, actually tells you how 
many times we sent out alerts and warnings to our customers for 
our various products.
    The recent media coverage of effects show there is a direct 
correlation between space weather and the U.S. economy. The 
direct global economic impact of space weather has been 
estimated very conservatively at $200 million per year. It is 
clear that the adverse conditions in the space environment can 
disrupt communications, navigation, air travel, national 
electric power distribution grids, and satellite operations. 
Improved space weather information will assure safety, 
reliability, and national security, as my colleagues today will 
discuss the benefits of space weather forecasting for their 
work.
    However, I would like to highlight some important points 
about SEC, and one of those is the funding issue that has 
already been eluded to. I would be remiss if I didn't ask for 
your assistance. As you stated, the President's budget 
recommends $8.3 million for SEC in fiscal year 2004. The House 
Appropriations Committee has recommended $5.3 million, fully $3 
million below the President's request, and the Senate 
Appropriations Committee has zeroed out funding entirely.
    If either level below the President's request is enacted, 
there will be dramatic consequences for SEC and for the vital 
services that it provides. In response to the necessary staff 
reductions, NOAA will be faced with the choice of eliminating 
SEC's research and development activities or its services. If 
the R&D is cut, NOAA will not be able to improve products, 
models, and data streams needed by our customers. On the other 
hand, cutting services means that our customers will only 
receive data: no value added forecasts, no warnings, no alerts. 
Either choice means our effectiveness as a partner to other 
government agencies, such as NASA and the Air Force, will drop.
    I need to emphasize that zeroing out SEC's budget will 
eliminate the one source of official U.S. space weather alerts, 
warnings, and forecasts. Space weather is defined by the 
National Space Weather Program as: ``Conditions on the sun and 
in the solar wind, magnetosphere, ionosphere, and thermosphere 
that can influence the performance and reliability of space-
borne and ground-based technological systems and can endanger 
human life or health.''
    SEC monitors, predicts, and forecasts conditions in the 
space environment and provides critical data, space weather 
data, to a variety of government and commercial customers. SEC 
also conducts research into phenomena affecting the space 
environment.
    [Slide]
    As the next figure indicates, space weather begins to--
space weather begins at the sun, and this animation shows the 
brightening of the sun, if you can run the movie, please----
    [Video]
    At the time of a flare, the spray of swift energetic 
particles and a cloud of solar atmosphere depart the sun. When 
it arrives at Earth, it causes a geomagnetic storm, much as 
what happened on Wednesday morning this week.
    SEC provides services, conducts research and development, 
and builds and maintains the computer systems, which support 
the Center's work. SEC's efforts are focused on areas where 
advanced applications can be brought to bear. We continually 
monitor. We continually monitor Earth's space environment with 
displays and software driven by the approximately 1,400 data 
sets that we receive everyday. The forecasters synthesize 
current data, climatological statistics, and relevant research 
results to formulate our daily predictions of solar and 
geophysical activity.
    The future of SEC's vital role in conducting and 
coordinating research in its applications was discussed, as 
mentioned earlier, in a recent National Research Council 
report, a Decadal Research Strategy in Solar and Space Physics. 
In this report, the NRC recommended that NOAA assume full 
responsibility for space-based solar wind measurements and it 
should expand its facilities for integrating data into space 
weather models.
    It looks like my time is up, so let me, in conclusion, say 
that the Space Environment Center is the Nation's unique 
civilian provider of critical, real-time information and 
forecasts on space weather that affect the United States' 
economic, national, and homeland security. We want to remain in 
that role.
    Thank you, Mr. Chairman and Members of the Subcommittee, 
for this opportunity to testify on this extremely important 
matter to NOAA and the Nation. And I would be happy to answer 
any questions.
    [The prepared statement of Dr. Hildner follows:]

                  Prepared Statement of Ernest Hildner

    Thank you, Mr. Chairman and Members of the Subcommittee, for the 
opportunity to testify before you regarding the National Oceanic and 
Atmospheric Administration's (NOAA) activities at the Space Environment 
Center (SEC). I am Ernest Hildner, Director of the SEC and responsible 
for day-to-day management and long-term planning of the Center. Space, 
from the Sun to Earth's upper atmosphere, is a strategic and economic 
frontier. This unique environment influences a multitude of human 
activities, and its understanding presents numerous scientific 
challenges. NOAA's SEC has a central role in conducting and 
coordinating research to understand the space environment to improve 
space weather services, and in providing critical operational space 
weather services for NOAA and the Nation. SEC strives to understand and 
predict the state of the space environment by accumulating data, 
running models, applying forecaster insight, conducting applied 
research, and utilizing research and data obtained externally to make 
operational forecasts of the space environment. Today I will provide an 
overview of space weather, of SEC and the services it provides, the 
budgetary and science challenges facing SEC, how SEC collaborates with 
other agencies, and the value of space weather forecasting and 
research. I am pleased to have the chance to discuss these topics 
today.

SPACE WEATHER

        ``Space weather'' refers to conditions on the sun and in the 
        solar wind, magnetosphere, ionosphere, and thermosphere that 
        can influence the performance and reliability of space-borne 
        and ground-based technological systems and can endanger human 
        life or health. Adverse conditions in the space environment can 
        cause disruption of satellite operations, communications, 
        navigation, and electric power distribution grids, leading to a 
        variety of socio-economic losses. National Space Weather 
        Program Strategic Plan, FCM-P30-1995.

    The Earth lies 150 million kilometers, or 93 million miles, from 
the Sun, but it is immersed in the extended solar atmosphere. Our 
magnetic field resists the continual outflow of ionized gas from the 
Sun, protecting us here at the surface. However, the Earth and its 
field represent an obstacle to the solar outflow. As a result, the 
geomagnetic field is compressed on the sunward side of Earth and drawn 
out away from the Sun to make a comet-shaped cavity. As shown in the 
artist's sketch below, the size of the boundary between Earth's 
dominion and the Sun's varies with the pressure exerted by the Sun's 
outflow.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Space weather storms are spawned by a variety of changes in solar 
outputs. First, the light from the Sun, at wavelengths both longer and 
shorter than the visible, can brighten abruptly. This light travels to 
Earth and affects the near-Earth environment just as we discern that a 
solar event has occurred. The photons from a solar flare produce a 
radio blackout, at some frequencies, by changing the character of the 
dayside ionosphere and upsetting the delicate balance between the Sun's 
otherwise nearly constant output and Earth's ability to receive and 
ingest it.
    Solar energetic particles comprise a second type of solar emission. 
These particles, predominantly protons, the nuclei of hydrogen atoms, 
are accelerated in coronal mass ejections and solar flares. They travel 
from the Sun slower than the speed of light, arriving near Earth as 
soon as tens of minutes after the solar eruption, the more energetic 
particles usually arriving first. The transit from sun to Earth may be 
slowed if the intervening magnetic fields do not provide easy Sun-to-
Earth connection; then the particles' arrival may be delayed many tens 
of hours. A major rise in energetic particle flux is commonly referred 
to as a radiation storm.
    A third type of solar emission that has strong space weather 
impacts is magnetized plasma. When the continually evolving solar 
magnetic fields abruptly restructure themselves over a broad area, a 
portion of the outer solar atmosphere, the corona, can be ejected 
violently into space. These coronal mass ejections, clouds of ionized 
gas (solar plasma) and their embedded magnetic fields, fly away from 
the Sun at 400-1000 kilometers/second (1-2 million miles per hour). If 
Earth happens to be in the way, when the cloud strikes Earth's magnetic 
field 2 to 4 days later, then our geomagnetic field is compressed and 
may be eroded, resulting in a geomagnetic storm.
    The following diagram depicts the times scales associated with 
these three types of space weather events.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The diagram illustrates the lead time between the occurrence of the 
parent event at the Sun and the terrestrial response; as well as the 
watches, warnings, and alerts issued by SEC. Thus, space weather has 
several kinds of storms much as meteorological weather has storms as 
different as tornadoes, blizzards, and hurricanes. A particular type of 
space weather storm has significant impacts on particular technologies 
so some customers are impacted by one type of space weather storm but 
not by another.
    For example, strong x-ray bursts have a serious impact on high 
frequency (HF) communications on the dayside of Earth. ARINC, a 
provider of air traffic communications capabilities to commercial 
airline flights over the North Atlantic, ensures the safety of the 
movements of airplanes in flight with communications to the cockpit. 
They need to know when the HF communications are being affected due to 
natural conditions (space weather) or due to some equipment failure, 
and advise aircraft of appropriate frequencies to use. The United 
States Coast Guard is alerted by SEC staff during these same types of 
episodes as its LORAN navigation system will be unable to provide the 
required accuracy to its users during solar flare events. LORAN is 
intentionally made unavailable during these disturbed space weather 
conditions.
    During bursts of solar energetic particles, the second type of 
space weather storm, the potential for biological damage due to 
elevated solar radiation increases. The NASA Space Radiation Analysis 
Group is responsible for assuring that humans in space not receive 
anything beyond the lowest reasonable radiation dose. They will advise 
the Flight Surgeon at NASA's Johnson Space Center to alter the activity 
plan for the crew if those activities involve leaving the space craft 
(for an extra-vehicular activity, or EVA), or suggest moving the crew 
to the most highly protected area of the Space Shuttle or International 
Space Station during the space weather radiation storm. NASA requires 
forecasts and specifications of radiation that affects both humans and 
equipment in space.
    Another witness will discuss the effects of radiation storms and 
communications degradation on the airline industry.
    Satellites in orbit and during the launch are at risk from 
radiation storms, and I am pleased to see that you have a witness to 
discuss those effects of space weather as well.
    The third type of space weather storm, caused by the interaction 
between the onrushing magnetized plasma from the Sun and Earth's own 
magnetic field, is particularly menacing. This geomagnetic storm can be 
thought of as the space weather version of a strong hurricane, as it 
has very widespread impacts across a large number of systems and users. 
Somewhat like hurricane clouds are monitored from satellites, this 
plasma cloud can be seen as it leaves the Sun and it is probed 
internally as it is about to make ``Earthfall.''
    When a coronal mass ejection occurs, forecasters at SEC analyze the 
direction of the ejectum to determine whether it is Earth-bound and 
estimate the kinetic energy associated with the event. As it takes a 
few days for the cloud to reach Earth, there is time for users to take 
preventive or mitigating action. One of today's witnesses will discuss 
the effects of geomagnetic storms on the electric power grid.
    SEC has been called upon to help investigate possible environmental 
causes for disasters. The recently active Shuttle Columbia Accident 
Investigation Board asked for testimony to rule out the possibility 
that a radiation storm could have affected the Shuttle's computers 
during reentry. More recently, there were inquiries whether the 
electrical blackout of the Northeast on August 14, 2003, was caused by 
a space weather geomagnetic storm. SEC saw no evidence that it was. 
Ironically, however, as the grid was being brought back up to capacity, 
on August 18 there was a strong geomagnetic storm that hampered the 
ability of the operators to return to normalcy.
    Another system impacted during geomagnetic storms is the Wide Area 
Augmentation System (WAAS) of the Federal Aviation Administration, 
designed for aircraft navigation en route. The WAAS technology relies 
on the use of the Global Positioning System (GPS), and GPS accuracy is 
adversely affected during geomagnetic storms. In the current solar 
cycle, the space weather storm of July 14-15, 2000, was by many 
measures the most serious. During this storm, the ``Test-bed'' WAAS was 
unable to determine the position of a receiver on an airplane to the 
accuracy required; as a result of the storm, slight changes were made 
to the WAAS model based on data received during that solar activity.
    The Space Weather Operations group at SEC issues alerts, warnings, 
and watches of space weather storms, on a 24/7 basis. Warnings of all 
three types of space weather storms are issued when there is high 
probability of occurrence. Warnings for radiation and magnetic storms 
are aided by the ability to detect the incoming solar wind from a 
satellite one million miles upstream, the Advanced Composition Explorer 
(ACE). This sentinel allows for a few minutes advance notice of 
radiation storms, and up to one hour lead time for magnetic storms. 
However, it does not offer any benefit for radio blackouts.
    Space weather events such as radio blackouts, radiation storms, and 
geomagnetic have affected various technologies and systems in sometimes 
spectacular ways. During the last solar cycle, a geomagnetic storm 
caused the Hydro-Quebec power grid to black out on March 13, 1989, 
leaving six million without electricity for nine hours. The big storms 
of March 1989 and July 2000 sent engineers back to their drawing boards 
hoping to design better systems to lessen the damage. A space weather 
radiation storm in August 1972 could have been even more damaging, 
possibly lethal. This event occurred between the lunar flights of 
Apollo 16 (April 16, 1972) and Apollo 17 (December 16, 1972). 
Biologists have calculated that the radiation received by astronauts, 
had they been on the moon at the time of the storm, would have caused a 
quick death. Good luck averted a disaster.
    The frequency of occurrence of space weather storms, and the 
possible consequences of the storms, are indicated in the NOAA Space 
Weather Scales document attached to this testimony and available on 
SEC's website at http://www.sec.noaa.gov.

SEC OVERVIEW

    What we now call ``space weather'' began to affect widely used 
technology during World War II, disrupting the newly developed 
communication and radar systems. After the War, the Central Radio 
Propagation Laboratory was set up in the National Bureau of Standards 
in Boulder, Colorado, coalescing federal activities dealing with space 
weather. A portion of this unit, by then named the Environmental and 
Solar Data Service, was folded into the Environmental Science Services 
Agency (ESSA) when it was formed in the 1960s. Daily forecasting of the 
space environment for the public commenced in 1965. ESSA was rolled 
into NOAA when NOAA was formed in 1970, and the SEC is the result.
    NOAA's mission ``To understand and predict changes in the Earth's 
environment. . .to meet our nation's economic, social, and 
environmental needs'' includes space weather. Just as NOAA's 
tropospheric weather service does for its customers, NOAA's space 
weather service monitors and predicts conditions in the space 
environment for its customers. SEC carries out its role as the Nation's 
official source of space weather alerts and warnings under various 
legislative mandates, statutory authorities, and Department of Commerce 
Reorganization Plans that gave the authority to monitor and predict the 
space environment to NOAA. Currently, SEC is both a research laboratory 
in NOAA's Office of Oceanic and Atmospheric Research (OAR) and one of 
the National Weather Service's (NWS) National Centers for Environmental 
Prediction. SEC's products are distributed via e-mail, its Web site, 
the NWS Family of Services, time and frequency standards radio stations 
WWV and WWVH, and the NOAA Weather Wire; pager service to notify 
customers when SEC issues an alert is available from a commercial 
provider.
    SEC is also a member of the International Space Environment Service 
(ISES), which has 12 Regional Warning Centers around the world to take 
observations and provide services of regional interest. Daily, the 
regional centers share their data and tentative predictions with SEC, 
which synthesizes the information and, as the World Warning Agency, 
issues the global forecast of space weather conditions. ISES traces its 
parentage to the International Council of Scientific Unions; its 
Regional Warning Centers are funded by their host countries.
    NOAA's space weather service is analogous to its tropospheric 
weather service, and both antedate the formation of NOAA itself. Both 
serve civilian government, public, and industrial users, and both have 
links to military and academic partners. For both services, NOAA was 
deemed to be the proper home. Using NOAA's and others' sensors, the SEC 
continually monitors and daily forecasts Earth's space environment and 
provides accurate, reliable, and useful solar-terrestrial information 
to their customers. SEC acquires, interprets, synthesizes, and 
disseminates monitoring information to serve the Nation's need to 
reduce adverse effects of solar-terrestrial disturbances on human 
activities. It prepares and disseminates forecasts and alerts of 
conditions in the space environment. SEC conducts research into 
phenomena affecting the Sun-Earth environment including the emission of 
electromagnetic radiation and particles from the Sun, the transmission 
of solar energy to Earth via solar wind, and the interactions between 
the solar wind and Earth's magnetic field, ionosphere, and atmosphere. 
It conducts research and development in solar-terrestrial physics and 
in techniques to improve monitoring and forecasting, prepares high-
quality data for national archives, and uses its expertise to advise 
and educate those affected by variations in the space environment. When 
events warrant, watches, warnings, and alerts are issued for the use of 
operators whose systems may be adversely affected by space weather 
storms. These user groups are private, commercial, government, and 
military operators, concerned with electric power distribution, high-
frequency radio communications, satellite operations, astronaut 
protection, radio navigation, and national security.
    The SEC, however, faces a number of challenges to meeting the needs 
of the user groups mentioned above. These challenges include budgetary 
challenges, particularly the potential of cuts in the President's 
budget request for SEC in the FY 2004 appropriations bills; and, 
scientific challenges.
    The President requested $8.291 million total for the SEC in FY 
2004. However, the House Appropriations Committee has recommended FY04 
funding of $5.298 million for SEC, while the Senate Appropriations 
Committee zeroed out funding for SEC. If the House Committee level of 
$5.298 is enacted, there will be dramatic consequences for SEC and the 
vital services that it provides. The House mark of $5.298 million would 
support staffing of only about 25 FTEs, down from the 53 FTEs requested 
in the President's budget. In the short-term, most non-labor SEC costs 
are fixed.
    Downsizing to the House Appropriation's Committee's recommended 
level, NOAA and SEC would attempt to preserve, as much as possible, the 
Nation's investment in the current space weather monitoring network by 
continuing to acquire, ingest, process, disseminate, and provide to 
archives the copious data with breaking the continuity of 30 years 
worth of measurements. This activity currently consumes about half of 
SEC's budget. Therefore, the shortfall created by an appropriation of 
$5.3 million would be borne either by research and development or by 
operations. NOAA and SEC will be forced to choose between the least 
undesirable of two options described below. In either case, SEC's data 
handling capability for ingest, processing, and archive would degrade. 
Eighty percent of Air Force alerts are driven by data provided only by 
SEC. The space weather data ingest and distribution network, identified 
by Homeland Security as a part of the Nation's Critical Infrastructure, 
would face imminent failure. For example, under each option, 
irreplaceable coverage gaps in real-time Solar Wind data would result, 
as satellite tracking shrinks, reducing alerts of geomagnetic storms 
affecting communications and GPS accuracy.
    In the first reduction option, NOAA would eliminate SEC's research 
and development while continuing operational services with no 
improvement. Verification of and technique development to use Solar X-
ray Imager (SXI) data would cease. When operational, the SXI takes 
images of the sun once a minute, providing additional data needed to 
more accurately forecast and alert users to space weather events. The 
Global Assimilation of Ionospheric Measurements (GAIM) model currently 
being developed would not become available to civilian users. This 
model will provide global specification and forecasts of the ionosphere 
in 3-dimensions, where presently only in-situ measurements and 
climatological models are available. NOAA participation in the National 
Space Weather Program will cease. SEC will not be able to provide 
improvements to products and models supporting airlines, power 
companies, navigation, and other critical services. NOAA will be unable 
to transition into operations the physics based models developed at 
national centers and universities by NSF, NASA, and DOD-supported 
scientists. In addition, SEC's website, the primary customer interface 
for the distribution of space weather data and information will not be 
improved and recovery from failure will be difficult.
    In the second option, NOAA would eliminate SEC's operational space 
weather services while continuing research and development against the 
day that (improved) services can resume. NOAA would cease to issue 
official U.S. space weather alerts, warnings, and forecasts, 
information that is currently not provided by any other source. 
Unfortunately, reducing the current suite of products one-by-one saves 
very little until the last product is terminated. The infrastructure to 
support one product supports all, so there is little savings in 
reducing the number of products. Joint operations with the U.S. Air 
Force would stop, including providing back-up to the U.S. Air Force's 
classified space weather support to our armed services. Products 
supporting airlines, power companies, navigation, and other services 
and industries would not be prepared, issued, and updated. As noted for 
research and development, the SEC website would degrade and be prone to 
complete failure. Real-time operational data systems would be 
decommissioned.
    SEC has several scientific challenges before it. An exciting effort 
is its work with academic and DOD partners to assimilate data into 
numerical models, similar to the significant assimilation challenge 
faced by the meteorological modeling community. The challenge combines 
computational science and physical understanding of the space 
environment and will lead to improvements in both. With successful ``4-
D data assimilation,'' the model outputs (space weather maps) will be 
more accurate and more skillful, therefore more useful to users of the 
services. SEC is working to ensure that space environment monitors 
designed for GOES and POES satellites provide useful and reliable data 
on every satellite. Researchers at SEC consult on and write 
requirements for space weather sensors and, when appropriate, on 
requirements for the satellites.
    SEC has three Divisions; one for services; a second for research 
and development; and, a third to develop and maintain the computer 
systems which support the Center's work. The Research and Development 
Division derives its goals and targets from the needs of the Space 
Weather Operations Division. In turn, the space weather services 
products improve from the application of R&D. Having R&D and 
operational services in one Center encourages more frequent and more 
effective interaction and collaboration among the scientists, 
forecasters, and specialists at SEC. While forecasts, alerts, and 
warnings are routine for quiet and mildly unsettled solar conditions, 
when activity becomes intense, forecasters consult with the Center's 
research Ph.D.s about the forecast. This is because there are not yet 
good ``rules of thumb'' for how to deal with these situations, and the 
best expertise must be brought to bear on aspects of the problem. In 
addition, the pace of innovation and change is still very rapid in 
space weather, with researchers at SEC and elsewhere playing a major 
role in developing models that, if they could be transitioned swiftly 
into operations, would bring us progressively closer to the goal of 
physics-based, numerical space weather predictions.
    The Research and Development Division is grounded in understanding 
the fundamental physical processes governing the regime from the solar 
surface, through the interplanetary medium, into the magnetospheric-
ionospheric regions, and ending in Earth's upper atmosphere. These 
processes determine the climatology and nature of disturbances in the 
solar atmosphere, in Earth's magnetic field, in the ionosphere, in the 
charged particle populations at satellite orbits, and in the 
atmospheric density at high altitudes (including low-Earth orbit). 
SEC's research, technique development and new sensor implementation are 
focused on areas where advanced applications can be brought to bear to 
improve space weather services. The staff has expertise spanning from 
solar physics to Earth's upper atmosphere and maintains close 
collaborations throughout the larger research community. They publish 
regularly in scientific journals, and work directly with the SEC Space 
Weather Operations and the Systems Division to develop state-of-the-art 
capabilities for the SEC forecast center. The group develops analysis 
tools for working with data from a variety of spacecraft, including the 
NOAA geosynchronous and polar orbiters, and spacecraft in the solar 
wind. Data access is provided through customized data-analysis routines 
and individualized displays. In addition to enhancing the utility and 
value of the primary data through research and analysis, the group 
explores sources of new data and improved monitoring to support Space 
Weather Operations. The group leads in the development of techniques to 
process and interpret both ground-based and space-based solar imagery, 
and has special expertise in solar X-ray imaging.
    The Space Weather Operations Division is the Nation's official 
source of space weather alerts and warnings. The services center is 
staffed 24/7 with an operations specialist and, for ten hours a day, a 
forecaster They continually monitor Earth's space environment with 
displays and software driven by the approximately 1400 data streams 
received each day. Forecasters synthesize current data, climatological 
statistics, and relevant research results to formulate their daily 
predictions of solar and geophysical activity. Operations specialists 
ensure data integrity and timeliness; verify event validity and issue 
Alerts, Watches, and Warnings; and update announcements on the 
Geophysical Alert Broadcasts over radio station WWV and WWVH.
    The Systems Division is responsible for: IT system architecture; 
computer security; developing or acquiring, and maintaining, the 
computer hardware and software to routinely ingest data; populating the 
data bases; the hardware and software for disseminating data and 
products to customers and to the archive; and providing computer 
configuration control and redundancy for operational reliability. In 
addition, Systems Division personnel provide system administration and 
support to internal users, while responding to IT directives from the 
NOAA and OAR Chief Information Officers, and working with 
administrators of the several local Internet services. The Division 
operates the receiving antennas at the prime and back-up Boulder sites, 
and has personnel on-call at all times to attend to hardware and 
software failures which affect the functions of the forecast center.
    SEC performs a vital role for the Nation in conducting and 
coordinating research and its application. The recent National Research 
Council report--A Decadal Research Strategy in Solar and Space Physics 
(2003), recommended that NOAA should assume full responsibility for 
space-based solar wind measurements, expand its facilities for 
integrating data into space weather models, and, with NASA, should plan 
to transition research instrumentation into operations. As discussed in 
the National Space Weather Program Implementation Plan (2000), 
interagency programs cannot succeed in meeting the Nation's needs 
without NOAA SEC observations, research, model development, and 
transition to operations. And, as emphasized in the Department of 
Defense's (DOD) National Security Space Architect Study (2000), NOAA's 
current and planned activities are essential to meet DOD's space 
weather needs.
    In addition to the SEC's activities, it should be noted that three 
line organizations play roles in the NOAA Space Weather Program: 
National Environmental Satellite, Data, and Information Service 
(NESDIS), National Weather Service (NWS), and Office of Oceanic and 
Atmospheric Research (OAR), with some interest and support from the 
National Ocean Service. They cover the gamut of space weather 
activities from setting requirements for future space environment 
monitoring sensors and spacecraft, to monitoring the development of the 
sensors for flight on the Geostationary Operational Environmental 
Satellites (GOES) or Polar Operational Environmental Satellites (POES), 
to tracking and downloading data from NOAA and non-NOAA satellites, to 
processing and distributing the data, and finally to archiving the 
data. Many of these activities are contained within and are an integral 
part of NOAA's major programs, such as the GOES and POES programs, so 
that only the Space Environment Center (OAR) and part of the National 
Geophysical Data Center (NGDC) in NESDIS are clearly identified budget 
structures tied directly to NOAA's space weather program. The 
requirements process also identifies observations needed in addition to 
the GOES and POES programs and programmatic plans are made for these 
platforms as well. NGDC is the sole archive of routine monitoring data 
of the space environment recorded on GOES, on POES, and on DOD's 
Defense Meteorological Satellite Program satellites. It is also the 
sole archive of space environment monitoring data recorded at DOD 
ground-based solar and ionospheric stations. As noted below, NOAA also 
works closely with other federal agencies and nations to obtain 
available real-time space weather data enabling more accurate and 
timely space weather services for the Nation.

COLLABORATION WITH PARTNERS

    SEC works with a variety of partners to accomplish its mission. 
Internally, cooperative ventures abound as graduate students, post-
doctoral students, visiting scientists, Cooperative Institute fellows 
from the University of Colorado, and contractors all contribute to the 
effort at the Center. Additionally, SEC works with the Cooperative 
Institute for Research in Environmental Sciences, a NOAA Joint 
Institute.
    SEC works closely with colleagues across government agencies and 
academia, in the U.S. and internationally, to understand the space 
environment and apply research results. Collaboration requires a great 
deal of coordination within the U.S. and internationally. Within the 
U.S. Government, the Office of the Federal Coordinator for Meteorology 
provides a mechanism for space weather coordination, including 
development and implementation of the National Space Weather Program 
(NWSP). The National Aeronautics and Space Administration (NASA), the 
National Science Foundation (NSF), and the Departments of Defense 
(DOD), Interior (DOI), Energy (DOE), Commerce (DOC), and Transportation 
(DOT) are participants in the NWSP, which recognizes common interests 
in space weather observing and forecasting. Aware of the need for 
prudent employment of available resources and the avoidance of 
duplication in providing these services and support for agency mission 
responsibilities, the cooperating departments have sought to satisfy 
the need for a common service and research program under the NWSP. The 
NWSP's Implementation Plan sets out the expected data, research, and 
services contribution from each participating agency.
    To provide its specification and forecast services, SEC works most 
closely with the U.S. Air Force Weather Agency's forecast center in 
Omaha, which provides services to U.S. military customers. NOAA 
civilians and uniformed NOAA Corps and U.S. Air Force personnel 
together staff the joint services center in Boulder. NOAA and USAF 
share their data without charge to each other, and confer every day 
before the daily forecasts are issued by the two agencies to their 
respective clients. The SEC provides centralized space weather support 
to non-DOD government users, such as NASA, and to the general public, 
such as the commercial airline industry. SEC operates and maintains a 
national real-time space weather database to accept and integrate 
observational data, to provide operational support and services in the 
space and geophysical environment, to provide services to public users 
in support of the national economy, and to serve as the U.S. Government 
focal point for international data exchange programs. The USAF provides 
unique and classified support to all DOD users. The Space Weather 
Operations Center (SPACEWOC) at the Air Force Weather Agency (AFWA) 
serves as the DOD focal point for space weather forecasting support and 
services. The USAF maintains a worldwide network of both ground-based 
and space-based observing networks to provide accurate, reliable, and 
timely support to military communications, surveillance, and warning 
systems. To avoid duplication, the two agencies share responsibilities 
to produce certain space weather databases, warning, and forecast 
products of mutual interest and benefit to each other. AFWA and SEC 
provide cooperative support and backup for each other in accordance 
with existing agreements.
    NOAA procures, operates, and maintains the Space Environment 
Laboratory Data Acquisition System (SELDADS) as the national system for 
collection, integration, and distribution of solar-geophysical data 
received in real-time from ground-based observatories and satellite 
sensors. Collection, processing, monitoring, and storage of the data 
occurs continuously around the clock. Displays and interactive analyses 
of the data are used by SEC to provide alerts, forecasts, and data 
summaries to a user community consisting of industrial and research 
organizations and Government agencies in the United States and abroad.
    The collaboration among space weather service providers and those 
who fund their research is closely coordinated and mutually beneficial. 
NASA and DOD conduct critical research and development activities that 
NOAA assesses and incorporates, as needed, onto its civil operations 
spacecraft. NASA's upcoming Living with a Star set of missions and 
their accompanying data and research are oriented toward improving 
space weather monitoring and improving techniques for understanding 
space weather effects and the inference of the physical processes that 
shape the space weather environment. These are important because they 
enable the production of new physical models for improved 
predictability of the space weather environment and its evolution. The 
space industry also provides expertise to assist in various projects. 
Increasingly, collaborations with the private sector and foreign remote 
sensing operators provide data and information that NOAA and other 
government agencies such as the USDA, DOE, and DOI use to implement 
their respective missions.
    SEC also works actively with partners in industry and other users 
on specific projects to identify research and forecast needs. For 
example, SEC has one active Cooperative Research and Development 
Agreement with Federal Data Corporation (FDC) to develop a model of the 
wavelength-dependent changing solar brightness for customers interested 
in ionospheric changes and heating of the terrestrial atmosphere. 
NASA's Marshall Space Flight Center (MSFC) and SEC scientists, with 
others, issue and update the world consensus forecasts of the 11-year 
cycle of solar activity for the benefit of NOAA, NASA, DOD, and others; 
this is the forecast used by NOAA, NASA, DOD, and the international 
community for mission planning. Spaceweather.com, a website fostered 
and supported by MSFC, makes heavy use of SEC's data and products. The 
website exhibits data gathered from SEC. SEC is first in the site's 
list of ``essential'' links.
    SEC also co-sponsors Space Weather Week annually with other 
government agencies such as the Air Force Research Laboratory, NSF 
Division of Atmospheric Science, and NASA Sun-Earth Connection Program. 
This event brings hundreds of users, researchers, vendors, government 
agencies, and industry representatives together in a lively dialog 
about space weather. Discussion focuses on recent solar and geomagnetic 
activity, specific space weather impacts, and our scientific 
understanding of this activity. The conference program highlights space 
weather impacts in several areas of the environment including 
ionospheric disturbances, satellite drag, auroral currents, geomagnetic 
storms and their solar drivers, radiation belts, and solar energetic 
particles. The conference registration fee covers almost the entire 
cost of the conference. The rest of the conference expenses are covered 
by NSF, specifically some costs for invited speakers, students, special 
guests and support for international partners to attend. SEC, the DOD 
Air Force Research Lab and NASA all assist with the planning of Space 
Weather Week, and representatives from industries impacted by space 
weather including those from electric power, commercial airlines, 
satellite operations, and navigation/communications are among frequent 
participants and contributors. The attached spreadsheet highlights 
comments SEC has received from users about impacts of space weather on 
their efforts.

VALUE OF SPACE WEATHER FORECASTING AND RESEARCH

    In the last few years, there has been a large increase in society's 
need for space weather information, as geomagnetic storms and solar 
disturbances can impact a wide array of sectors and industries ranging 
from transportation to electricity generation. SEC's website receives 
on average more than 500,000 hits per day from commercial and public 
users. This number can triple during severe space weather events. SEC 
forecasts and research helps support a wide array of needs including 
the U.S. power grid infrastructure, commercial airline industry, Global 
Positioning System or GPS, NASA human space flight activities, 
satellite launch and operations, and U.S. Air Force operational 
activities.
    The direct global economic impact of space weather has been 
estimated at about $200 million per year. A one percent gain in 
continuity and availability of GPS information, which can be disrupted 
by space weather events, would be worth $180 million per year. DOD 
alone spends $500 million each year to mitigate space weather effects. 
In 1989, a space weather storm caused such significant orbital decays 
that the Air Force Space Command lost track of 1,300 of the 8,000 
objects orbiting in space that it was tracking. In addition to the 
potential harm radiation from a space weather event can cause 
astronauts and sensitive electrical equipment in space, these rapid 
changes in flight paths of space debris could be potentially harmful 
should they intersect with the paths of astronauts or satellites in 
space. In March 1989, seven geostationary satellites had to make 177 
orbital adjustments in two days, more than normally made in a year. 
Such wear reduces the satellites' useful lifespan. Destruction of 
AT&T's Telestar satellite by a severe weather event in 1997 disrupted 
TV networks and part of the U.S. earthquake monitoring network, and 
forced renegotiation of the sale of Telestar, resulting in a drop of 
$234 million in value. Submarine, continental cables, and parts of 
fiber optic cable systems have all been known to fail or be overloaded 
as a result of space weather.
    Geomagnetically-induced currents can disrupt or wipe out electrical 
systems through power surges that cause network supply disruptions, 
transformer damage, and wear-and-tear on other components. As we 
apparently witnessed this summer during the blackout in the north, a 
single failure in the power grid can escalate into cascading damages 
and outages. Oak Ridge National Laboratory estimates that a blackout in 
the Northeast caused by geomagnetic storms could result in a $3-6 
billion loss in Gross Domestic Product (GDP). A geomagnetic storm in 
1989 caused $13.2 million in damage to power systems operators in 
Quebec, and another $27 million to power operators in New Jersey. In 
addition, the disruption creates additional impacts for power customers 
who lose electricity. After 1989, Hydro-Quebec spent $1.2 billion on 
capacitors to prevent potential space weather disruptions. A current, 
induced by severe space weather, in a liquefied gas pipeline that 
ignited when two trains passed over it is the suspected cause of an 
accident that killed over 500. Preventative measures, based on early 
forecasts from the SEC and its partners, can help mitigate the need for 
such costly alternatives as shielding power lines. One recent estimate 
suggested that the use of good forecasts by the power industry could 
save the U.S. $365 million per year, averaged over the solar cycle.
    Not only do we depend more heavily on systems that can be adversely 
impacted by space weather, new systems and new modes of operation using 
old systems vulnerable to space weather have proliferated. Satellites 
are becoming smaller and cheaper because of reduced component size and 
increased computer speeds. Economic competition drives the need to 
reduce shielding and redundancy, but these changes leave satellites 
more vulnerable to space weather disturbances. U.S. airlines are 
offering passengers the convenience of non-stop flights over the North 
Pole to Asian destinations; these flights (and research flights in 
Antarctica) sometimes experience air traffic control difficulties due 
to space weather. During a March 2001 space weather storm, 25 flights 
were rerouted to avoid the Poles because of the increased radiation 
risk.
    National policy and defense planning have resulted in increased 
reliance on the use of commercial systems to gather information and 
move it between the United States and troops and ships in hot spots 
around the world. However, experiences during severe conditions of the 
last solar cycle indicates that some users may experience performance 
failures and degraded results during times of high solar and 
ionospheric activity. The nation is also placing large numbers of 
astronauts into radiation-vulnerable orbits for unprecedented periods 
of time during the assembly and operation of the International Space 
Station. Our increased need for improved space weather information to 
insure safety, reliability, and defense are inevitable outcomes of our 
growing use of space-weather-sensitive systems.
    SEC has been keeping up with the changes, responding to new 
customer needs, research breakthroughs, and the changing face of space 
weather services. Among several successes, it has transitioned physics-
based numerical models into the operational space weather service. It 
was possible to use the first of these university-developed models only 
when real-time solar wind data from upstream of Earth became available 
to drive them. Now forecasters get numerical guidance, much as 
meteorological forecasters do. Model output can be disseminated to 
provide customers with the space weather analogs of meteorological 
weather maps, showing event locations and intensities of computed 
fronts and boundaries. SEC has designed website to make it user-
friendly for a range of audiences, from electricity producers to 
teachers and the media.
    A solar x-ray imager on GOES-12 was made operational in 2003, 
funded as a USAF-NASA-NOAA partnership, and has provided images of the 
solar corona at a rate of once per minute. Images are able to show 
visible coronal changes that signal events on the Sun which will later 
cause space weather storms. This imager is the first of its kind, and 
it shows more capability in imaging the Sun for forecasting purposes 
than any solar imager to date. Automating the extraction of information 
from these images and incorporating the information into specification 
and forecast algorithms is already shedding light into the causes of 
solar wind and eruption events hazarding Earth. However, on the morning 
of September 2, 2003, the GOES-12 SXI instrument automatically 
transferred into an instrument safe (non-operational) mode. Two 
attempts were made to raise instrument voltages to their normal 
operating levels, but both attempts failed. Development of plans to 
return the SXI to limited operations is underway.
    SEC is also active in developing products and services for the next 
generation air transport system. Working with both the commercial 
airlines and the FAA, SEC is formulating new products to serve airline 
operations of the future. That future is certain to include higher 
flying and trans-polar air routes as each allows for a faster more 
profitable trip. Particular issues that are impacted by space weather 
are navigation, radio communication, and radiation to the passengers 
and crew. Recent work with the FAA's User Needs Analysis Team (UNAT) 
has led to the implementation of SEC alerts and warnings into the 
operational planning for commercial airlines on trans-polar routes. 
Specifically, communications from air to ground, and the management of 
the radiation environment are points of concerns for the FAA. SEC has 
worked to supply the appropriate real-time information to be used by 
aircraft dispatchers.

CONCLUSION

    In conclusion, Mr. Chairman and Members of the Subcommittee, NOAA 
is pleased to have had the opportunity to provide you an overview of 
space weather and SEC, our collaborative activities with our partners, 
and the value of space weather forecasting and research. We look 
forward to continuing our efforts to provide a critical service for our 
nation by providing cutting-edge research and forecasts in the space 
weather arena. I would be happy to answer any questions you may have.

    Chairman Ehlers. Colonel Benson.

 STATEMENT OF COLONEL CHARLES L. BENSON, COMMANDER, AIR FORCE 
                         WEATHER AGENCY

    Colonel Benson. Good morning. I am honored to appear before 
you today to address this committee on a matter critical to our 
nation: space weather. I am also pleased to be joined by this 
distinguished panel of witnesses, including my partner to my 
right in operational space weather services, Dr. Hildner, 
Director of the Space Environment Center, otherwise known as 
SEC, National Oceanic and Atmospheric Administration.
    The Air Force Weather Agency, known as AFWA, and SEC 
operate complementary space weather forecast centers. Over the 
last several decades in which the Air Force and NOAA have 
analyzed and forecast space weather for operational users, we 
have learned a valuable lesson: space weather is complex and 
costly. Our solution has been to leverage each other's 
resources, capabilities, and expertise, achieving efficiency by 
concentrating on those things we each do best. In simplest 
terms, AFWA is responsible for military and national 
intelligence support. SEC supports civilian and commercial 
users.
    At AFWA, our focus has been on providing military war 
fighters and DOD decision-makers with mission-tailored space 
weather impact products. AFWA is the sole operational space 
weather support organization in the Department of Defense. To 
maintain our close working relationship, AFWA has staffed a 
small contingent of Air Force weather personnel at SEC in 
Boulder, Colorado since 1972. This operating location acts as a 
liaison to coordinate data sharing, forecast collaboration, and 
to develop new forecast techniques. Daily coordination is also 
accomplished through multiple teleconferences, which assures 
agreement on joint space weather forecast products.
    Another great advantage of our close working relationship 
with SEC is cost sharing opportunities. For example, the Air 
Force funded $18 million to develop the Solar X-ray Imager 
Sensor, now operational on a NOAA satellite. This new sensor 
now provides critical data to both forecast centers.
    Lastly, AFWA relies on real-time data relay and processing, 
partial backup, and expertise and experience from SEC to 
provide DOD operators with high quality space weather analysis, 
forecasts, and warnings.
    AFWA aggressively reviewed the space weather operations 
performed at SEC to determine if AFWA could assume their 
support responsibilities if the proposed funding cuts are 
realized. Our initial evaluation shows that there would be many 
significant challenges transitioning the data ingest, space 
weather models, applications, and computer and communication 
infrastructures. Meeting these challenges would be both time-
consuming and very costly. In particular, the space weather 
research and technology transition expertise at SEC would take 
years to rebuild at AFWA. Furthermore, there are security, 
policy, and resource issues of great concern, approval to 
operate and connect to military networks, Armed Forces Title 10 
responsibilities providing services to commercial interests, 
and both manpower and operating fund limitations.
    Our Nation is becoming increasingly dependent on space 
technology. Although the science of space weather is still in 
its infancy, it has been compared to the meteorological 
capability of this country in the 1950's, we are on the verge 
of improved capabilities from new models and data sources, 
which will provide more accurate space weather services. SEC is 
at the forefront of this movement. The Nation's investment in 
space weather capabilities will yield great future dividends, 
just as the investment in terrestrial weather 50 years ago is 
paying off today in the Nation's ability to anticipate extreme 
weather and then mitigate its effects.
    The synergy of the two complementary space weather forecast 
centers at SEC and AFWA have proven to be a national asset to 
the security and prosperity of the United States. We urge this 
committee to advocate for a healthy and stable SEC so this 
critical capability for military and civilian users will 
continue into the future.
    I look forward to addressing all of your questions later.
    [The prepared statement of Colonel Benson follows:]
          Prepared Statement of Colonel Charles L. Benson, Jr.

Introduction

    I am honored to appear before you today to address this committee 
on a matter critical to our nation: space weather. I am also pleased to 
be joined today by one of my partners in operational space weather 
services, Dr. Ernest Hildner, Director of the Space Environment Center 
(SEC), National Oceanic and Atmospheric Administration (NOAA).

Overview of Air Force Space Weather Services

    The Air Force Weather Agency (AFWA) has the sole responsibility to 
provide military space weather services to all Department of Defense 
(DOD) agencies and units, as well as to the National Intelligence 
Community. Our mission is two-fold: to collect space weather data from 
DOD ground- and space-based sensors; and to provide environmental 
battlespace awareness through mission-tailored analyses, forecasts, and 
warnings of mission-impacting space weather to operators, warfighters, 
planners and decision-makers from command level down to individual 
units. To accomplish our mission, AFWA operates the Space Weather 
Operations Center, or Space WOC, the Nation's only military space 
weather analysis and forecast center, located at Offutt Air Force Base, 
Nebraska. We also operate a global network of optical and radio solar 
observatories, and maintain an intercontinental network of space 
weather sensors feeding data to the Space WOC. AFWA employs sixty-four 
(64) military and contractor personnel at the Space WOC and other 
locations, including thirty (30) personnel stationed at the solar 
observatories around the world. In addition to the personnel costs, 
AFWA committed $10.9 million dollars in Fiscal Year 2003 to operate, 
upgrade and improve the Space WOC and solar observatories, and to 
collect data from DOD ground- and space-based sensor networks. AFWA is 
dedicated to providing warfighters a complete situational awareness of 
the battlespace in which they operate. This enables the warfighters to 
maximize their effectiveness while minimizing the risk to life, 
resources and mission impacts introduced by the natural space 
environment.

Users of Air Force Space Weather Products and Information

    Users of AFWA's space weather services include every branch of 
service--Army, Air Force, Navy, Marine Corps and Coast Guard--and the 
National Intelligence Community, from leadership and senior decision 
makers to specific individual units. Success in every modern military 
operation depends upon at least one of the following space weather-
impacted capabilities: long-distance radio or satellite communications 
for command and control, precision navigation and timing from Global 
Positioning System (GPS) signals, over-the-horizon or tactical radars, 
high-altitude manned aerial reconnaissance, orbiting spacecraft and 
sensors, and strategic space launch. AFWA provides analyses and 
forecasts of space weather impacts on these capabilities to DOD and 
National Intelligence Community leadership and operators. The National 
Oceanographic and Atmospheric Administration (NOAA) Space Environment 
Center (SEC) is a major user of Air Force space weather data. AFWA 
provides this data in accordance with collaborative partnering 
agreements to facilitate its space weather support to the commercial 
and civilian communities.

Relationship Between AFWA, SEC, and NASA

    AFWA and SEC are partners in providing space weather service to the 
Nation. Each has clearly defined roles and responsibilities, leveraging 
the capabilities of the other to realize significant cost and resource 
savings. In simplest terms, AFWA is responsible for military and 
national intelligence support--SEC supports civilian and commercial 
users. The Air Force divides space weather services into five basic 
steps: (1) observe, measure, and collect space weather data, (2) 
analyze the data, (3) specify and forecast the space environment, (4) 
tailor analyses and forecasts to meet individual user needs, and (5) 
integrate space weather information to users' decision and execution 
processes. AFWA's primary focus on information tailoring and 
integration are the two steps providing the greatest benefit and value 
to the warfighter. SEC emphasizes characterization and forecasting the 
natural space environment.
    AFWA relies on SEC in three crucial areas to accomplish our space 
weather mission: 1) unique data, analyses and forecasts provided by 
SEC; 2) partial backup capability; and 3) SEC's unique space weather 
experience and expertise. The Space WOC relies on ground- and space-
based magnetometer data provided through SEC to analyze, warn and 
forecast global geomagnetic activity important to the national 
intelligence agencies and to the North American Aerospace Defense 
Command (NORAD). AFWA also depends on alerts of geomagnetic activity 
from NOAA satellites and solar activity forecasts provided by SEC to 
warn and forecast impacts to specific military communications links. As 
identified in the National Space Weather Program Implementation Plan, 
the AFWA and SEC forecast centers provide limited back-up operations 
for each other in the event of computer equipment or communication 
outages. Current back-up consists of telephone notification of observed 
space weather events. Space WOC and SEC coordinate on forecasts and 
engage in multiple daily space weather teleconferences. These 
teleconferences inject valuable insight into the science and art of 
space weather forecasting and allow AFWA to leverage the vast knowledge 
and experience of SEC scientists.
    AFWA reciprocates in our partnership with SEC by sharing unique DOD 
space weather data and Air Force forecasts of geomagnetic activity. SEC 
utilizes solar images and radiographs from the solar observatories, 
particle data from sensors aboard military satellites, and ground-based 
DOD instruments in their operations. In addition, every six hours the 
Space WOC produces a forecast of geomagnetic activity from SEC supplied 
data. SEC in-turn uses these forecasts in the production of their 
products and services.
    To facilitate and promote our close working relationship, AFWA 
established Operating Location-P (OL-P) co-located with SEC at Boulder, 
Colorado. OL-P personnel act as liaisons between SEC and AFWA, 
coordinate back-up policy and procedures between the two organizations, 
augment SEC forecaster manning, interact with researchers, ensure 
smooth and continuous data flow between both forecast centers, assist 
SEC researchers in establishing new data sources and ground data 
systems, and take part in developing new space weather forecast 
techniques benefiting both organizations. The complementary nature of 
the two missions allows both NOAA and the Air Force to realize cost 
sharing advantages to acquire needed data. SEC provides the Advanced 
Composition Explorer real-time tracking data to AFWA. The Air Force 
paid $18 million to develop the Solar X-ray Imager now operational 
aboard one of the NOAA Geostationary Operational Environmental 
Satellites. Additionally, AFWA pays the National Aeronautics and Space 
Administration (NASA) Jet Propulsion Laboratory (JPL) for ground-based 
space weather data from a global network of GPS receivers.

AFWA taking on the duties of SEC

    Air Force Weather Agency aggressively reviewed the space weather 
operations performed at SEC to determine if AFWA could assume their 
support responsibilities if proposed funding cuts are realized. Our 
initial evaluation shows that there are many significant technical 
challenges transitioning the data ingest, space weather models and 
applications, and computer and communication infrastructures from SEC 
to the Space WOC. Meeting these challenges will be both time consuming 
and costly. Additionally, there are many critical issues and important 
policy considerations that would have to be addressed prior to assuming 
any commercial space weather services at AFWA. These include Armed 
Forces Title 10 responsibilities, security and accreditation affecting 
AFWA's approval to operate and connect to DOD communication networks, 
as well as significant manpower and funding resource issues. In 
particular, SEC's expertise and experience in satellite-based space 
weather measurements from NOAA spacecraft, and its one-of-a-kind space 
weather modeling applications, would be very difficult to reproduce at 
AFWA. The space weather research and technology transition expertise 
resident at SEC would take years to build at AFWA.

Impacts on Air Force and Military Ops

    There would be an immediate and severe impact on military 
operations if the Space Environment Center no longer existed. Air Force 
Weather Agency's ability to characterize and forecast the space 
environment would be dramatically reduced, impacting space situational 
awareness, satellite and radio communications, space control, precision 
navigation and strike, high-altitude flight and space operations. 
Additionally, the loss of a back-up capability for the Space WOC would 
have serious implication on the AFWA continuity of operations plan. The 
loss of SEC expertise and decades of experience would likely decrease 
AFWA's space weather characterization and forecast accuracies. The 
closure of SEC would also result in a decrease in the rapid transition 
of new techniques and data sources into space weather forecast 
operations.

Summary

    Over the last several decades in which the Air Force and NOAA have 
analyzed and forecasted the space environment for operational users, we 
have learned a valuable lesson: space weather is a complex and costly 
undertaking. Our solution has been to leverage each other's resources; 
achieving efficiency by concentrating on those things we each do best. 
Our nation is becoming increasingly dependent on space technology. 
Although the science of space weather is still in its infancy--which 
some have compared to the meteorological capability of this country in 
the 1950's--we are on the verge of improved capabilities from new 
models and data sources that will provide more accurate space weather 
services. SEC is at the forefront of this movement. The Nation's 
investment in space weather capabilities will yield great future 
dividends, just as the investment in terrestrial weather fifty years 
ago is paying off today. The synergy of the two complementary space 
weather forecast centers at SEC and AFWA has proven to be a national 
asset to the security and prosperity of the United States. One does not 
have to look very far to see that the United States is not the only 
``game in town'' when it comes to the exploitation of the space 
environment. We urge this committee to advocate for a healthy and 
stable SEC so that this critical capability for military and civilian 
users will continue into the future.

    Chairman Ehlers. Thank you.
    Dr. Grunsfeld.

 STATEMENT OF DR. JOHN M. GRUNSFELD, CHIEF SCIENTIST, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Grunsfeld. Thank you.
    Mr. Chairman, Members of the Subcommittee, thank you very 
much for the opportunity for NASA to testify before you today 
regarding the importance of space weather forecasting provided 
by the National Oceanic and Atmospheric Administration Space 
Environment Center and its impact on NASA programs.
    Providing space weather data is an important operational 
service and has a wide range of customers both within the 
United States Government and in the private sector. My 
testimony today will focus on how NASA uses these critical 
data. I will speak to you both from a position as NASA's Chief 
Scientist, but also as a member of the Astronaut Corps, the 
group of folks who are most directly exposed to the effects of 
space weather, and I should add, those few individuals who have 
ventured beyond 8,000 meters in altitude on Planet Earth.
    Solar wind conditions, solar flares, coronal mass 
ejections, and subsequent geomagnetic activity, commonly 
referred to as ``space weather,'' affect many more areas of 
NASA's activities than most people realize. Space weather can 
have significant adverse impacts on human health, spacecraft 
operations by increasing the intensity of the near-Earth 
radiation environment, the increased atmospheric drag on 
satellites, disrupting their orientation, reducing their 
lifetime, degrading UHF and high frequency communications, and 
the operation of the Global Positioning System signals that we 
use in our spacecraft. These effect the health of our 
astronauts in orbit, space engineering and research equipment, 
orbital altitude for spacecraft such as the Hubble Space 
Telescope, and ultimately, we use this information to design 
our spacecraft.
    NASA's space and earth science missions routinely employ 
real-time forecasts from the NOAA SEC to make decisions 
regarding data collection, spacecraft operation, and even 
rocket launches. We use this information in the case of 
anomalies in spacecraft to determine whether it was space 
weather related or an engineering cause, and this is an 
important part of our activities to make sure that we maximize 
the scientific output of our resources.
    The Chandra X-Ray Observatory and the recently launched 
Space Infrared Telescope Facility both use the SEC resources, 
observations of solar wind conditions and geomagnetic activity, 
as critical to their real-time input for spacecraft operations. 
In fact, in the recent solar activity, we have taken advantage 
of SEC observations to modify our planning for those scientific 
spacecraft.
    At the NASA Johnson Space Center, the Space Radiation 
Analysis Group uses data provided by the SEC to determine the 
radiation environment in which NASA's crewed spacecraft will 
operate. NOAA has supplied space weather monitoring and 
forecasting information to NASA for every human space flight 
mission since Apollo 8. This information affects operational 
decisions, when to launch a particular mission, and when we 
would do space walking activities or extra-vehicular 
activities. Because of this--the information that the SEC 
provides, we can plan our missions and activities in such a way 
to minimize the radiation exposure received by astronauts on 
our vehicles.
    Minimizing radiation exposure for Shuttle and International 
Space Station crews is imperative. NASA has sought the advice 
of the National Council on Radiation Protection and 
Measurements concerning radiation exposure limits for our 
astronauts and uses this advice in setting dosage limits. We 
are also guided by a principle that we call: ``As Low as 
Reasonably Achievable.'' Without the data provided by the SEC, 
NASA would have to reassess its operations to protect against 
exposure to radiation events occurring without warning. And I 
should add that during this recent solar activity, we have 
changed some of our operational procedures based on SEC data to 
ensure the safety of our astronauts and the International Space 
Station.
    Losing the SEC forecast that supports space flight missions 
would be like living along a coastal area without any hurricane 
forecasting capability. You would know the hurricane hit you, 
but you would have no advanced warning, no ability to take 
preventive actions, and no idea how strong it would be or how 
long it would last.
    NASA has a long history of cooperation with SEC and its 
predecessor organizations at NOAA. The partnership has enabled 
SEC to expand its capabilities to support human space flight 
missions. We have supported the expansion of SEC services and 
functionality, specifically in data processing, so that they 
continue to support our Shuttle and ISS missions.
    It is not within NASA's mandate as a research and 
development agency to provide the operational forecasting 
services currently provided by the SEC. In addition, the 
technical capacity, budget, and expertise required to perform 
this activity could not transition to NASA without impacting 
our ongoing space flight research and operations. The NOAA SEC 
has a unique complement of people, experience, and resources 
that allows it to provide a high level of service to the space 
weather customers. There are no other sources, either domestic 
or foreign, that can provide this type of support. The 
capability to monitor and forecast this environment should well 
remain with the agency that has the mission and the proven 
expertise to respond to all of these customers.
    Thank you.
    [The prepared statement of Dr. Grunsfeld follows:]

                Prepared Statement of John M. Grunsfeld

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify before you today regarding the importance of 
space weather forecasting provided by the National Oceanic and 
Atmospheric Administration (NOAA) Space Environment Center (SEC) and 
its impact on NASA's programs. Providing space weather data is an 
important operational service, and it has a wide range of customers, 
both within the United States Government and in the private sector. My 
testimony today will focus on how NASA uses these critical data. I will 
speak to you from my perspective both as NASA's Chief Scientist, and as 
a member of the astronaut corps--the group of people most directly 
exposed to the effects of space weather.
    Solar wind conditions, solar flares, coronal mass ejections (CMEs), 
solar extreme ultraviolet emissions, and subsequent geomagnetic 
activity, commonly referred to as ``space weather,'' affect many more 
areas of NASA operations and programs than most people realize. Space 
weather can have significant adverse effects on human health and 
spacecraft operations by increasing the intensity of the near-Earth 
radiation environment, increasing atmospheric drag, disrupting 
satellite orientation, and degrading UHF and HF communications and 
Global Positioning System (GPS) signals. These affect the health of our 
astronauts in orbit, space engineering and research equipment 
functionality, orbital attitude for spacecraft such as the Hubble Space 
Telescope, and ultimately, the way we design spacecraft.
    NASA's Space and Earth Science missions routinely employ real-time 
forecasts from the NOAA SEC to make decisions regarding data 
collection, spacecraft operations, and rocket launches. NASA engineers 
and researchers use near, real-time SEC forecasts to analyze instrument 
and spacecraft anomalies, and separate cause and effect in the highly 
modulated environment of space. During solar-induced changes to the 
near-Earth radiation environment, NASA's in-space research 
instrumentation can become saturated by solar energetic particles, 
which can lead to anomalies. This has happened numerous times during 
the recent maximum phase of the solar cycle. One example comes from the 
Earth Science Mission Operations (ESMO) Project. The ESMO uses data 
provided by the NOAA SEC to determine whether spacecraft anomalies are 
the result of system malfunctions or space weather events. Being able 
to determine quickly that an anomaly was caused by space weather allows 
ESMO to avoid lengthy equipment shutdowns while engineers search for a 
cause. NOAA SEC is the only operational source for accurate, real-time 
information on the near-Earth space radiation environment. NASA uses 
the lessons learned from these experiences and the database of 
radiation measurements gathered by SEC to design spacecraft with more 
robust systems that can withstand space weather events.
    The Chandra X-Ray Observatory and the recently launched Space 
Infrared Telescope Facility both use the SEC observations of solar wind 
conditions and geomagnetic activity as a critical input to their real-
time models of the Earth's radiation environment. These models allow us 
to adjust our operations to mitigate sensor degradation and data loss. 
The result is that NASA is able to ensure optimal scientific return 
from these two flagship missions. The SEC observations are also crucial 
to NASA-funded research exploring the Sun-Earth connection. The Sun 
affects the entire solar system, including all scientific data 
collection satellites.
    At the NASA Johnson Space Center, the Space Radiation Analysis 
Group (SRAG) uses data provided by the SEC to determine the radiation 
environment in which NASA's crewed spacecraft will operate. NOAA has 
supplied space weather monitoring and forecasting information to NASA 
for every human space flight mission since Apollo 8. This information 
affects operational decisions, such as when to launch a particular 
Shuttle mission and when extra-vehicular activities (EVAs) can be 
safely conducted. Because of the information that the SEC provides, we 
can plan missions and on-orbit activities in such a way as to minimize 
the radiation exposure received by our astronauts and our vehicles.
    Minimizing radiation exposure for Shuttle and International Space 
Station crews is imperative. NASA has sought the advice of the National 
Council on Radiation Protection and Measurements concerning radiation 
exposure limits for our astronauts, and uses this advice in setting 
radiation dosage limits. NASA's radiation protection efforts are 
further guided by the ALARA (As Low as Reasonably Achievable) 
principle. Without the data provided by SEC, NASA would have to 
reassess its operations to protect against exposure to radiation events 
occurring without warning.
    Losing the SEC forecast that support space flight missions would be 
like living along a coastal area without any hurricane forecasting 
capability. You would know when the hurricane hit you, but you would 
have no advanced warning, no ability to take preventive actions, and no 
idea how strong it would be or how long it would last.
    The risk that radiation poses to our spacecraft and astronauts is 
borne out by past examples. For instance, in 1989 significant solar 
events impacted both the Space Shuttle and the Mir space station, along 
with other uncrewed spacecraft. In the spring of 1989, a solar flare, 
solar particle event, and a geomagnetic storm doubled the daily 
radiation dose for the Mir crew for two days, with elevated levels 
lasting for two weeks. The solar events increased atmospheric drag 
during the first day of STS-29. NORAD lost track of several space 
objects for time periods varying from days to weeks. Several satellites 
lost attitude control, while others tumbled. These space weather events 
also brought the northeastern United States' power grid close to 
collapse. In the fall of 1989, a second series of solar particle events 
again raised the dose of the Mir crew and damaged satellite solar 
arrays.
    The information provided by SEC is critical to NASA today as we 
operate the ISS until the Space Shuttle returns to flight. NASA has 
some monitoring capability on the ISS that we rely upon to gauge the 
safety of the ISS environment for the crew. Although we have tools that 
allow us to measure the radiation exposure of the crew and vehicle on a 
periodic basis, we cannot monitor it constantly. This equipment was 
designed as a back-up to the radiation monitoring and forecasting data 
provided by SEC, which allow flight controllers to notify the crew of 
increased radiation exposure levels. The SEC provides NASA with 
critical real-time monitoring and forecasting of the radiation 
environment around the Earth. We use this information along with on 
board instrumentation to assess the ISS radiation environment. In the 
current solar event, SEC forecasts gave us sufficient warning of a 
proton flux event to allow the ISS crew to shelter in areas of the ISS 
which provide more shielding protection from radiation.
    NASA has a long history of cooperation with SEC and its predecessor 
organizations at NOAA. That partnership has enabled SEC to expand its 
capabilities to support human space flight missions. In the 1960s, NASA 
funded the development of the Solar Particle Alert Network (SPAN) to 
support the Apollo missions. NASA also supported the expansion of SEC 
services to support our Skylab missions. Most recently, we have helped 
SEC to modernize and add functionality to its data processing systems 
so that they can continue to support our Shuttle and ISS missions.
    Building on the information and analysis provided by SEC, we have 
expanded our understanding of the impact of space weather on NASA's 
operations, and our ability to predict and respond to significant 
events. It is only in the past decade that we have realized that 
geomagnetic activity can enhance the outer electron belt, and increase 
radiation exposure for astronauts performing EVAs. During the same 
period, we have learned the important of CMEs with regard to solar 
flares in producing large proton events that can pose health risks to 
astronauts on orbit. NASA' Solar and Heliospheric Observatory (SOHO) 
has revolutionized our understanding of CMEs, providing real-time 
images of CMEs coming toward Earth. Perhaps most significantly, in the 
last several years, we have discovered definitive evidence of the 
magnitude and frequency of very large solar particle events over the 
past 400 years. These events were significantly larger than anything we 
have witnessed since humans started flying in space. It is likely that 
we will see a recurrence of solar particle events of a similar 
magnitude.
    It is not within NASA's mandate as a research and development 
agency to provide the operational forecasting services currently 
provided by the SEC. In addition, the technical capacity, budget and 
expertise required to perform this activity could not transition to 
NASA without impacting our other ongoing space flight operations and 
research.
    The NOAA SEC has a unique complement of people, experience, and 
resources that allows it to provide a high level of service to its 
space weather customers. There are no other sources, either domestic or 
foreign, that can provide this type of support. As the United States 
continues to expand its reliance on space-based assets such as GPS, 
cellular communications, and digital satellite technology, the 
importance of understanding the space weather environment becomes even 
more critical. The capability to monitor and forecast this environment 
should remain with the agency that has the mission and the proven 
expertise to respond to all of these customers.
    I sincerely appreciate the forum that the Subcommittee provided 
today to highlight the importance of space weather forecasting, and I 
look forward to the opportunity to respond to your questions.

    Chairman Ehlers. And I thank you.
    And I apologize for the bells ringing. We have not one, not 
two, but three votes on the Floor. I would estimate it will 
take us approximately a half an hour total. So we will recess 
at this point at the call of the Chair and return as soon as 
possible after the third vote. And I apologize to you for the 
interruption. The Committee is in recess.
    [Recess.]
    Chairman Ehlers. The Committee will come to order. I 
apologize that it took longer. The--we are having some 
political problems, which I know is very hard for you to 
believe. But we are hoping to pass the supplemental 
appropriation today, and there are some very strong feelings on 
both sides, so we have had some delay motions and votes.
    We will proceed now with Mr. Kappenman.

  STATEMENT OF MR. JOHN G. KAPPENMAN, MANAGER, APPLIED POWER 
                 SYSTEMS, METATECH CORPORATION

    Mr. Kappenman. Thank you, Mr. Chairman and Committee 
Members.
    I am here to represent the viewpoint of the electric power 
industry and the important threat that geomagnetic storms pose 
to this critical national infrastructure and the importance of 
the Space Environment Center forecasting and forecasting 
services that are rendered to the power industry for this 
important threat.
    You have posed a number of very important questions. I will 
try and briefly cover the highlights of those, although I do 
provide more detail in the prepared testimony. The first 
question is the historic impacts of these large storms. And I 
will give you a very brief overview of a storm that occurred 
about 14 years ago, and in fact, was the last geomagnetic super 
storm that occurred and the nature of the impacts that were 
felt in North America on the power grid for that storm.
    If we can start an animation here.
    [Video]
    This is just showing you 20 minutes of what I would call 
very bad space weather that day. And the important feature of 
this type of weather is that it is unlike terrestrial weather. 
You are seeing sudden onsets, planetary, continental impacts 
and--of that moving at phenomenal rates of speed.
    Power systems are built to withstand certain types of 
weather, mostly terrestrial weather, but that is very 
regionally confined when it is severe. This sort of severe 
weather has, truly, a continental footprint, and that presents 
a very unique challenge to operations of power grids. In fact, 
the next slide here--I will start up an animation.
    [Video]
    These are the impacts that were observed by the U.S. power 
grid or North American power grid coincident with that previous 
20 minutes of bad space weather. And in the case of Quebec 
itself, the entire province experienced a blackout from this 
brief period of activity. And in fact, the power system 
operators that day--this was the worst day of your life if you 
are a power system operator, because things happen so quickly. 
You have very little time to intervene. In the case of Hydro 
Quebec, they went from normal operating conditions to complete 
province-wide blackout in 92 seconds: no time to even assess 
what was going on, let alone try and do any sort of meaningful 
human intervention. Later on that day, if we will start up this 
animation, the storm got even more intense.
    [Video]
    And as you can see, it was well down into and across the 
entire U.S. for this 40-minute duration shown here. This storm 
lasted in excess of a day. And I am just showing you a few of 
the highlights from this activity. If we can go for--here we 
go.
    [Video]
    If we start up this animation, for that previous storm 
activity, this is what was observed in the U.S. as far as 
important power system operating anomalies. We barely hung on 
to the system in retrospect, the postmortems. Everybody agrees. 
We came very, very close to experiencing a very--potentially 
very widespread power system collapse that could have occurred 
in the U.S. that day.
    The second question you posed, forecasts and how are they 
used. The short answer, power grids certainly do have 
operational procedures that they put in place in times of 
geomagnetic storms. They have both prepared actions that they 
do from advanced forecasts as well as actions that they do from 
nowcasts and updates on a continuous basis. These are provided, 
of course, from SEC or from commercial providers, like my 
company, that depend greatly on SEC data to provide even more 
detailed forecasts of what could occur.
    The nature of recent discoveries was also asked. We 
certainly have learned a lot about the threat that is posed to 
the U.S. power grid infrastructure by space weather over the 
past few years. We certainly, and I imagine your constituents 
know, that--post-August 14 of this year that there is an 
awareness that there has been a decline in power grid 
infrastructure and investment. And that has done nothing but 
increase our vulnerability to space weather since that March 
'89 storm.
    We know, also, that storms can be, perhaps, three to ten 
times larger in magnitude than what occurred in March '89 and 
that large U.S. blackouts are possible.
    [Slide]
    This is just one of many scenarios that we have studied for 
regions that could be blacked out. We are looking at the 
potential of blackouts that could exceed even that of the very 
large blackout that occurred just a few months ago. And there 
is no part of the U.S. power grid that is immune to this. It is 
just a matter of where does this intense phenomenon 
geographically lay down? How big is the footprint? And we know 
these footprints can be very, very large. And literally, we 
could impact over 100 million population in the worst case 
scenarios.
    If there is no Center, clearly this would degrade the 
ability to counter some of the important impacts.
    Thank you.
    [The prepared statement of Mr. Kappenman follows:]

                Prepared Statement of John G. Kappenman

The Vulnerability of the U.S. Electric Power Grid to Space Weather and 
                 the Role of Space Weather Forecasting

    I am grateful for the Committee's kind invitation to offer 
testimony today on ``What Is Space Weather and Who Should Forecast 
It?'' as the answer to this important question has many possible 
implications and places the Nation at an important crossroad. It is 
only fitting that we carefully consider the future path that is in the 
best interests of the Nation. And as I hope to emphasize in my 
testimony, these space weather concerns, especially in regards to 
impacts on electric power grids, may pose important homeland security 
and energy security concerns and should be considered in your 
deliberations.

BACKGROUND

    For the past 27 years, I have been an active researcher and 
observer of electric power system impacts caused by the widespread 
geomagnetic field disturbances due to Space Weather. For some 22 years, 
these activities occurred while I was employed in the electric power 
industry itself. I not only lead research investigations funded by my 
employer, but also efforts funded by the Electric Power Research 
Institute. My areas of responsibility involved the design and 
development of the high voltage transmission network and one of our 
pressing concerns was the unique problems posed by the natural 
phenomena of Space Weather. This was a problem that we recognized was 
of a growing and evolving nature as our industry continued to grow in 
size and technological sophistication. I particularly became engaged 
with the NOAA-SEC in the aftermath of the great geomagnetic storm of 
March 13-14, 1989, a storm which produced historic impacts to the 
operations of power grids in the U.S. and around the world. I was part 
of an electric power industry group that advocated the efforts such as 
the ACE satellite and resulting solar wind monitoring that have greatly 
improved the Nation's capability to provide accurate short-term 
forecasts of severe geomagnetic storm events.
    Since 1997, I have subsequently been employed with the Metatech 
Corporation and a part of what we now do is heavily involved with Space 
Weather and impacts on technology systems, particularly large power 
grids. Our company has, in fact, been involved in the vulnerability and 
risk assessment for the power grids in England and Wales, Norway, 
Sweden and portions of Japan. Metatech also provides continuous space 
weather forecasting services for the company that operates the electric 
power grid for England and Wales. Since May 2002, Metatech has been 
providing similar vulnerability and risk assessments for the U.S. 
electric power grid to the Commission to Assess the Threat to the 
United States from Electromagnetic Pulse (EMP Commission). The EMP 
Commission was established by Congress under the provisions of the 
Floyd D. Spence Defense Authorization Act of 2001, Public Law 106-398, 
Title XIV. The EMP Commission was chartered to conduct a study of the 
potential consequences of a high altitude nuclear detonation on the 
domestic and military infrastructure and to issue a report containing 
its findings and recommendations to the Congress, the Secretary of 
Defense, and the Director, FEMA. While the charter of this commission 
involved intentional electromagnetic attack on the U.S. infrastructures 
primarily from a high altitude nuclear burst, the MHD (or magneto hydro 
dynamic) portion of this electromagnetic attack can be remarkably 
similar to the electromagnetic disturbance caused by the natural 
phenomena of Space Weather. As a result the Commission wisely 
investigated the plausible impacts due to severe geomagnetic storms on 
the U.S. electric power infrastructure. The Commission has also closely 
coordinated with the NERC (North American Electric Reliability Council) 
and their Critical Infrastructure Protection Advisory Group (CIPAG). 
This group has been continuously and fully vetted on the findings of 
the Commission directed investigations. While the Commission is not 
scheduled to report their findings back to Congress until approximately 
March of 2004, they have encouraged Metatech to freely share with the 
scientific community the investigation results related to severe 
geomagnetic storm events. As a result, as part of my prepared 
testimony, I will also provide the significant portions of these 
findings. However, at this point, I should caution that these reports 
will only be the opinion of Metatech as the Commission has not 
completed deliberations and will not formally issue findings until 
early next year.
    In these diverse and various capacities, it has been my privilege 
to work with the NOAA-SEC for many years as an end-user of their 
forecast services, a bulk data user and, in some degrees, a competitor 
to the SEC. In all cases we have developed a close partnership with 
this agency and its staff, a relationship that has clearly allowed for 
key advances in improving the geomagnetic storm forecasting capability 
for the electric power industry.

Space Weather, Impacts to Electric Power Systems and the Importance of 
        Forecasting Services
    The Committee has posed four questions which are designed to probe 
the topic area of Space Weather Forecasting Services and their 
importance to the reliability of the Nation's electric power grid. I 
shall attempt to answer these through examples of historic events, 
examination of developing trends and operational procedures, and 
efforts that have been made to model and extrapolate implications for 
severe storm scenarios.

Question 1. Please provide an overview of how space weather can affect 
electric power grid systems, including examples of historical events 
that have caused problems.

    Space Weather is associated with ejection of charged particles from 
the Sun, which after colliding with the Earth's magnetosphere will 
produce significant disturbances in the normally quiescent geomagnetic 
field at the Earth's surface. These disturbances have caused 
catastrophic impacts to technology systems in the past (e.g., the power 
blackout in Quebec in March 1989). More importantly, as detailed 
examinations have been undertaken concerning the interaction of 
geomagnetic storm environments with power grids and similar 
infrastructures, the realization has developed that these 
infrastructures are becoming more vulnerable to disruption from 
electromagnetic interactions for a wide variety of reasons. This trend 
line suggests that even more severe impacts can occur in the future for 
reoccurrences of large storms.

An Overview of the U.S. Electric Power Grid
    While electricity customers receive power from the local 
distribution system (typical operating voltage of 15kV with step down 
to 120/240 volt), the backbone of the system is the high voltage 
transmission network. The primary AC transmission network voltages in 
the U.S. are at 230kV, 345kV, 500kV and 765kV. These transmission lines 
and their associated transformers serve as the long distance heavy 
hauling arteries of electricity production in the U.S. A single 765kV 
transmission line can carry over 2000 MW of power, nearly 200 times 
what a typical 15kV distribution line which is the overhead line 
commonly used for residential distribution. Space Weather or 
geomagnetic disturbances directly attack this same high voltage 
transmission circulatory system and because both have continental 
footprints, these disturbances can rapidly erode reliability of these 
infrastructures and can therefore threaten widespread blackout for 
extreme disturbance events. The U.S. electric power grid is the world's 
most extensive, Figure 1 provides a map of the approximate location of 
the nearly 80,000 miles of 345kV, 500kV and 765kV transmission lines in 
the contiguous U.S.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    These geographically wide spread assets are also fully exposed to 
the extremes of the terrestrial environments. Because these assets are 
the critical backbone of the system, utility company engineers have 
taken great care to engineer for robust capabilities of these assets to 
withstand most of the severe wind, lightning and ice loading exposures. 
For example, while many of the low voltage local distribution feeders 
can fail due to tree damage during hurricanes, these same hurricane 
events rarely threaten the integrity of the high voltage grid itself. 
While extensive attention has been paid to these assets for terrestrial 
weather exposures, a multitude of design decisions has inadvertently 
and significantly increased the power grid exposure and vulnerability 
to space weather environments, as will be discussed in later sections 
of this testimony. There are ``no shortages'' of challenges that these 
systems face. In addition to the terrestrial weather challenges, power 
company operators face even more ominous threats from the recent 
realization of physical and cyber terrorism. In spite of the best 
efforts, failures still can occur; for example, a lighting strike can 
still cause on occasion a high voltage transmission line to trip. Very 
high winds, for example, due to a tornado can cause the failure of a 
line or several lines on a common corridor. However, most of these 
events generally occur in isolation and power grids are operated at all 
times to withstand the largest creditable single contingency failure 
without causing a cascading collapse of the network itself. Space 
Weather differs from ordinary weather in that it has a big footprint 
and attacks the system across many points simultaneously, causing at 
times of severe events multi-point failures on the network that can 
threaten the integrity of the network. Therefore, geomagnetic storms 
may be one of the most important hazards and is certainly the least 
understood threat that could be posed to the reliable operation of 
these networks.
    The transmission lines and substations are all geographically 
remote and unstaffed facilities. They are difficult to fully monitor 
and cannot be continuously patrolled. The bulk of the protection of 
these facilities are done via autonomous relays that continuously sense 
for disturbance conditions and operate as quickly as 70 msec to trip 
off or isolate an asset that is sensed as an operating outside of 
acceptable parameters to protect the integrity of the network as a 
whole. Real-time data from a limited number of monitoring points is 
brought back to one of the more than 150 continuously-staffed control 
centers used to operate the transmission infrastructure in the U.S. 
There operators continually assess network conditions and make needed 
adjustments to keep all flows and voltages within prescribed boundaries 
and limits. Further they are responsible to dispatch generation (in 
many cases within a market-based supply system) to perfectly balance 
the production and demand for electric energy. The limited amount of 
real-time data makes it a challenge to fully assess the many possible 
threats that can occur to these remote assets. The remotely monitored 
data is not at all times unambiguous and can lead to differing 
interpretations. Therefore it is not easy to determine the nature of a 
threat from this alarm level information alone. In most control 
centers, the real-time data is typically augmented with continuous high 
quality terrestrial weather information, as regional storms and 
climatic events can be one of the most frequent sources of operational 
anomalies on the network. The power industry is just now getting to the 
point of being introduced to the same paradigm in regards to high 
quality space weather data and the benefits it could offer in improving 
situational assessments.

The Electric Power Infrastructure and Its Sensitivity to Disturbance 
        Levels
    While more details will be provided later, a brief overview of how 
these geomagnetic disturbance environments actually interact with large 
regional power grids indicates the complex nature of the threat. When 
these disturbances occur they result in slowly varying (1-1000 seconds) 
changes in the geomagnetic fields that can have very large geographic 
footprints. These magnetic field disturbances will induce electric 
fields in the Earth over these same large regions. Across the U.S., 
complex topologies of long distance transmission lines have been built. 
These grids include transformers at generating plants and substations 
that have grounded neutrals. These transformer neutrals provide a path 
from the network to ground for these slowly varying electric fields 
(less than 1 Hz) to induce a current flow through the network phase 
wires and transformers.
    These currents (known as geomagnetically-induced currents--GICs) 
are generally on the order of 10's to 100's of amperes during a 
geomagnetic storm. Though these quasi-DC currents are small compared to 
the normal AC current flows in the network, they have very large 
impacts upon the operation of transformers in the network. Under normal 
conditions, even the largest transformer requires only a few amperes of 
AC excitation current to energize its magnetic circuit, which provides 
the transformation from one operating voltage to another. GIC, when 
present, also acts as an excitation current for these magnetic 
circuits, therefore GIC levels of only 1 to 10 amperes can initiate 
magnetic core saturation in an exposed transformer. This transformer 
saturation from just a few amperes of GIC in modern transformers can 
cause increased and highly distorted AC current flows of as much as 
several hundred amperes leading to overloading and voltage regulation 
problems throughout the network.
    Power networks for decades have been operated using what is termed 
an ``N-1'' operation criteria. That is, the system must always be 
operated to withstand the next credible disturbance contingency without 
causing a cascading collapse of the system as a whole. Therefore, when 
a single-point failure occurs, the system may need to be rapidly 
adjusted to be positioned to survive the next possible contingency. 
Space Weather disturbances have already been shown to cause near 
simultaneous multi-point failures in power system infrastructures, 
allowing little or no time for meaningful human interventions. The 
onset of severe geomagnetic field disturbances can be both sudden and 
have continental footprints, placing stresses broadly across power grid 
infrastructures.
    When a transformer saturates, it can produce a number of 
simultaneous and undesired impacts to the grid. If the spatial coverage 
of the disturbance is large, many transformers (hundreds to thousands) 
will be simultaneously saturated. The principal concern to network 
reliability is due to increased reactive power demands from 
transformers that can cause voltage regulation problems, a situation 
that can rapidly escalate into a grid-wide voltage collapse. But a 
nearly equal concern arises from collateral impacts stemming from 
highly distorted waveforms (rich in harmonics) from saturated 
transformers that are injected into the network. As previously 
mentioned protective relays continuously sense these now distorted 
signals. These distortions can cause a mis-operation of an exposed 
relay causing it to operate to isolate a key element of the network. 
When these relay mis-operations occur in-mass because of the big 
footprint of a storm, the protection systems can rapidly destroy the 
integrity of the network that the relays were intended to protect. In 
addition, individual transformers may be damaged from overheating due 
to this unusual mode of operation, which can result in long-term 
outages to key transformers in the network.
    The threats to the infrastructure from geomagnetic storms include 
the possibility of widespread power blackouts, damage to expensive and 
difficult to replace transformers, and damage to equipment connected to 
the grid. As a result, an important aspect of concern is the time 
required to replace damaged transformers and to fully restore the 
operation of the power grid.

Historic Storm Events and Power System Impacts
    The rate of change of the magnetic field is a major factor in 
creating electric fields in the Earth and thereby inducing quasi-dc GIC 
current flow in the power transmission network. Therefore an important 
means of classifying the severity of a disturbance can be made by 
noting the dB/dt or rate-of-change of the geomagnetic field (usually 
measured in units of nanotesla per minute of nT/min). The larger this 
dB/dt environment becomes, the larger the resultant levels of GIC and 
levels of operational impact upon exposed power grids.
    Some of the first reports of operational impacts to power systems 
date back to the early 1940's and the level of impacts have been 
progressively become more frequent and significant as growth and 
development of technology has occurred in this infrastructure. In more 
contemporary times, major power system impacts in the U.S. have 
occurred in storms in 1957, 1958, 1968, 1970, 1972, 1974, 1979, 1982, 
1983, and 1989 and several times in 1991. Smaller scale impacts can and 
do occur even more frequently; these include anomalous operating events 
that may result in the unexpected tripping of a key element of the 
system or even permanent damage to apparatus such as large power 
transformers.
    In order to understand the far reaching impacts of large 
geomagnetic storms, the disturbance impacts in particular of the great 
storm of March 13-14, 1989 are reviewed in some detail. The most 
important of these impacts was the storm-caused chain of events 
resulted in the blackout of the Hydro-Quebec power system. At 2:42 am 
EST, all operations across Quebec, Canada were normal. At 2:43 am EST, 
a large impulse in the Earth's magnetic field erupted along the U.S./
Canadian border. GICs immediately started to flow in the southern 
portions of the Hydro-Quebec grid. In reaction to the GIC, voltage on 
the network began to sag as the storm increased in magnitude; automatic 
voltage compensating devices in the network rapidly turned ``on'' to 
correct this voltage imbalance. Unfortunately these compensators 
themselves were vulnerable to the harmonics generated in the network's 
transformers, and mis-operation of relays to protect these devices 
caused the entire fleet of 7 compensators on the network to shut down 
within 60 seconds of the beginning of the storm impulse. When the 
compensators shut down, the network collapse followed within a matter 
of seconds, putting over 6 million inhabitants of the province in the 
dark. Going from normal conditions to a complete province-wide blackout 
occurred in an elapsed time of just 90 seconds. The power system 
operators had no time to understand what was happening, let alone to 
take any meaningful human action to intervene and save the grid. In 
comparison, the August 14, 2003 blackout covering large portions of the 
U.S. and Canada evolved over a period of time in excess of 90 minutes. 
Figure 2 provides a four minute sequence of maps showing the onset of 
observed geomagnetic field disturbance conditions that caused the 
Hydro-Quebec blackout.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Over the next 24 hours, five additional magnetic disturbances 
propagated across the continent and nearly toppled power systems from 
the Midwest to the mid-Atlantic regions of the U.S. The North American 
Reliability Council (NERC), in their post analysis, attributed 200 
significant anomalies across the continent to this one storm. Figure 3 
illustrates the geographic breadth of power system problems during one 
of the five substorm time periods on March 13, 1989 across the North 
American grid. Figure 4 provides a depiction of the geographic extent 
of the geomagnetic field disturbance conditions across North America at 
time 22:00UT, that triggered the events shown in Figure 3. As 
illustrated, at this time intense geomagnetic field disturbances 
extended into mid-latitude portions of North America and essentially 
across the entire U.S.
    For further reference, a list of the NERC reported power system 
operating anomalies due to this storm is provided in Exhibit 1. The 
North American Electric Reliability Council, at that time, would 
annually review significant system disturbances and provided a report 
on the most important of these system disturbances, in order to share 
information and insights on the disturbances and what lessons may be 
gained from these experiences. The 1989 System Disturbances report 
included discussions on the San Francisco Bay Area Earthquake, the 
impacts of Hurricane Hugo, and several other disturbances, most of 
which were tied to extreme environment disturbances. This report also 
provided a detailed discussion of the March 13-14, 1989 Geomagnetic 
Superstorm, which entailed 50 percent of the entire 67 page NERC 
report. This Exhibit from that report provides an indication of the 
wide spread impacts that were observed across the continental power 
grid.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As previously mentioned, the best means of characterizing the 
geomagnetic field disturbance environment as it relates to GIC impacts 
on power grids is by the rate-of-change or dB/dt in nT/min. Figure 5 
provides a plot of the dB/dt (or RGI--Regional GIC Index) observed at 
the Ottawa observatory which would have broadly characterized the 
intensity of the disturbance over the general New York, New England 
regions and neighboring portions of southern Ontario and Quebec in 
Canada.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As shown, the disturbance intensity that triggered the Hydro-Quebec 
collapse at 2:45 EST was at an intensity of 480 nT/min. Over the time 
interval of power system events shown in Figure 3, the peak dB/dt 
disturbance intensities observed in various other locations across the 
U.S. are provided in Figure 6. As shown, many of these disturbances 
were initiated by disturbance intensities that generally ranged between 
300 and 600 nT/min.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    While power grid reliability concerns are of paramount importance, 
the long duration of the storm and associated GICs in transformers on 
the network caused internal transformer heating to the point of 
failure. There were several noteworthy cases of transformer internal 
heating associated with the March 13, 1989 storm in the U.S. mid-
Atlantic Region. In one case at the Salem Nuclear plant in southern New 
Jersey, the internal heating was so severe that complete failure of the 
transformer resulted. Figure 7 provides a few pictures of the 
transformer and internal winding damage (conductor melting and 
insulation burns) due to the GIC exposure. In this case the entire 
nuclear plant was unable to operate until the large 500kV 1200MVA 
transformer was replaced. Fortunately a spare from a canceled nuclear 
plant in Washington State was available and restoration of the plant 
occurred in 40 days. Transformers of this type are of custom design 
and in most cases new replacement transformers of this type generally 
take up to a year for delivery. Failures of key apparatus, such as 
this, raise concerns about the ability to rapidly restore power in a 
region once a blackout and failure has occurred.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Question 2. LHow does your organization use data and products from 
NOAA's Space Environment Center (SEC)? In general, how much lead time 
do, you need to make decisions for mitigating the effects of space 
weather?

    As I had previously discussed, I have had considerable experience 
both as an electric power industry user of data and products from the 
NOAA Space Environment Center as well as a provider of geomagnetic 
storm forecast services to electric power industry end-users. 
Therefore, if the Committee will allow me, I will attempt to answer 
this question from both points of perspective.
Electric Power Industry Application of Forecast Services
    Some of the formative research and investigation of problems due to 
GIC in the power industry was undertaken by my colleague and mentor 
Professor Vernon D. Albertson at the University of Minnesota starting 
in the late 1960's. As a result of this work, formal arrangements were 
made to disseminate geomagnetic storm information provided by the U.S. 
government (the SEC or forerunner in that era) through established 
communication means used to make coordinated adjustments in power grid 
frequency regulation for purposes of time error correction. AEP at that 
time acted as the official point of contact for these notifications 
from NOAA as noted in this circa 1987 NERC document provided in Exhibit 
2. The March 1989 storm was the first storm to precipitate a large-
scale blackout and very nearly threatened even wider scale problems 
across the U.S. This unprecedented level of impacts caused renewed 
emphasis on updating and revising operational procedures to better 
contend with the unknowns of the disturbance environments. In fact, 
several example procedures for power pools heavily impacted by the 
March 1989 storm were published by NERC in the 1989 Disturbances Report 
as shown in Exhibit 3. These procedures and the regions they encompass 
include the NPCC, PJM, WAPA, and the Allegheny Power Service 
Corporation.
    Overtime, these procedures have been continuously updated and 
current examples are provided for the PJM, NPCC, WSCC and even an 
updated reference document by the NERC as recent as July 17, 2003 and 
contemporaneous with the EMP Commission efforts to vet the NERC on U.S. 
Electric Power Grid vulnerabilities to large geomagnetic disturbances. 
These examples are provided as Exhibits 4 to 7. These procedures 
describe some of the actions that operators would undertake to better 
prepare the system to contend with the anticipated stress caused by a 
storm. Even in the immediate aftermath of the March 1989 storm, the 
power industry came to recognize the need for predictive forecast 
warnings of these important storm events. In July 1990 the NERC Board 
of Trustees issued a position statement advocating forecast 
technologies that could provide approximately an hour advance notice of 
the occurrence of important storm events (see Exhibit 8).

Metatech and Other Commercially-Provided Forecasting Services for the 
        Electric Power Industry
    Because the NOAA-SEC provides only a broad and generic level of 
service to end-users of space weather forecasts, these services are not 
well formatted to extrapolate the possible and plausible impacts that 
may result to complex technology systems such as electric power grids. 
As a result, a need has developed and is being successfully filled by 
the private sector to provide highly specialized forecast services to 
these complex end-users. At present this service sector is in a state 
of infancy, but is generally developing much along the model of the 
medical services community. In this case, the NOAA-SEC forecasts are 
the equivalent of the general practitioner, for those end-users who 
have good space weather health (or at least suffer no serious space 
weather problems); this service may be quite adequate. However for end-
users that have serious space weather health concerns, a more 
specialized care or level of service may be warranted and in most cases 
can be readily provided by firms such as ours that have specialized 
capabilities for these unique and complex problems. That being said, it 
should also be emphasized that end-user lack of awareness of potential 
space weather problems is a serious challenge that both the SEC and 
commercial providers must overcome. Exhibit 9 is a technical paper 
which provides some commentary and overview on the type of specialized 
services that our company can and does provide to the electric power 
industry. The relevant portions of this paper discussing these forecast 
services start on approximately page 23 of the Exhibit. Metatech 
provides notifications that range from several days in advance based 
upon solar observations to short-term forecasts that can be on average 
an hour in advance driven by solar wind observations. We also provide 
continuous real-time observations as well to verify impacts that are 
being caused by a storm occurrence. We work extensively and very 
closely with our clients on their complex needs. These efforts can 
entail hardening their system from a design perspective, to training of 
system operators to operationally prepare their system to better 
respond to anticipated and observed storm related stresses.
    Even with these commercial capabilities, the NOAA-SEC provides some 
of the key data sources that become the input data that are used to 
drive these sophisticated forecast systems and services. Of necessity, 
the relationship between NOAA-SEC and the Commercial Providers is one 
that is highly symbiotic; it that the Commercial Providers greatly 
depend on the SEC for high quality data and data interpretations, while 
the SEC looks to the commercial specialists to provide the more 
specialized services that heavily impacted users may need. Therefore, 
the loss of the NOAA-SEC would have the almost immediate impact of 
causing the crumbling of much of the forecasting services capability of 
the Nation.

Question 3. How would you compare our knowledge today of the impacts 
of space weather on electric power grid systems to what we knew five 
years ago, and to what we expect to know five years from now?

        New York ISO CEO William J. Museler in the aftermath of the 
        August 14, 2003 Blackout, ``the blackout could have damaged the 
        power plants or transmission lines,'' ``Had that kind of damage 
        occurred, it could have taken days, weeks, or even months to 
        restore.. . .This protection (meaning normal operation of 
        relays that shut down the components on the grid) shortened the 
        restoration process considerably.''
Advances in Understanding of Space Weather Impacts to Power Systems 
        Over the Past Five Years
    There have been significant new findings and ever evolving 
understanding of the many facets of the complex space weather 
environment dynamics and the manner in which this impacts the operation 
of electric power grids. Mitigation of the impacts of these storms will 
depend heavily on forecast assessments of the onset, severity and 
regional manifestations of these storms and it is fair to say that much 
has also been achieved in this regard. While we can be proud of our 
accomplishments, there remains many unresolved space weather paradoxes 
of storm evolution and the manner in which they can degrade operations 
of infrastructures. In particular to the electric power grids, the 
major achievements can be summarized as follows, with supporting 
exhibits that elaborate further on many of these main items.

        <bullet> Integrated and detailed modeling of both complex 
        geomagnetic disturbance environment and complex power grid 
        topologies. These advances have allowed for extensive forensic 
        analysis of historically important geomagnetic storms and their 
        impacts on power grids.

        <bullet> Improved understanding, as described above, has 
        allowed us to develop much more accurate and detailed 
        quantification of the areas of risk and vulnerability that 
        Space Weather may pose to the U.S. power grid infrastructure. 
        Surprisingly, we are now discovering that risks from storms are 
        not just limited to high latitude located power grids, 
        locations normally associated with auroral observations. New 
        understandings indicate that highly developed power grids at 
        all latitudes may be impacted by various space weather 
        disturbance processes in the U.S. and around the world that 
        were unknown to us just a few years ago.

        <bullet> These models and environment interaction 
        understandings have also allowed the power industry to 
        understand other aspects of evolving power grid vulnerability 
        to the space weather environment that were not fully understood 
        heretofore. The studies, which are part of the findings from 
        the EMP Commission investigations, indicate that over the past 
        several decades, various design decisions and growth of the 
        power grid infrastructure has caused growing vulnerability to 
        geomagnetic storms. In short, over the past 50 years, the size 
        of the power grid has grown by nearly tenfold, and has also 
        grown in sophistication such that it now presents a larger, 
        effective antenna to electromagnetically couple with 
        geomagnetic storm disturbances. This has the affect of 
        amplifying storm-caused disturbances in modern power systems. 
        This vulnerability increase is not just limited to improved 
        coupling due to larger grid size but also due to other related 
        infrastructure design decisions, as more fully described in a 
        recent article in Exhibit 9. The industry is also facing 
        growing vulnerability to space weather events due to 
        operational impacts that are occurring from deregulation and 
        transitioning to market-based operation of the power grid. The 
        recent blackout of August 14, 2003 highlighted many of the 
        infrastructure and power market operational concerns. These 
        concerns include continued large growth in electric power 
        demand in the face of diminishing growth in the transmission 
        network infrastructure needed for delivery of power. As a 
        result, power pools such as PJM report for example in year 
        2000, the pool experienced a total of 3830 hours transmission 
        network constraint operation.\1\ In other words, 44 percent of 
        the year power flows on the transmission system were at or very 
        near maximum levels. These congestion problems only worsened in 
        2001 as the hours of congestion of the real-time market 
        increased to 4823 hours (55 percent of the year).\2\ This 
        heavy loading is another way of saying that the system is 
        stressed to the safe operating limits and therefore unable to 
        readily counter or safely absorb added stress to these same 
        assets that could occur due to large geomagnetic storms. A 
        recent article, Exhibit 10, provides a more detailed commentary 
        on ``What's Wrong with the Electric Grid.'' While it does not 
        speak to the subject of space weather, it concisely describes 
        the added burdens on today's transmission network 
        infrastructure, the same portion of the infrastructure impacted 
        by space weather events.
---------------------------------------------------------------------------
    \1\ PJM Interconnection State of the Market Report 2000, June 2001
    \2\ PJM Interconnection State of the Market Report 2001, June 2002

        <bullet> The same efforts to evaluate impacts and risks of 
        today's infrastructures have also allowed us to examine the 
        plausible risks that could result from historically large 
        storms that have not yet been experienced by today's power grid 
        infrastructure. These studies were an especially important 
        focus of the EMP Commission investigations that have been 
        underway for the past 18 months. The results indicate that 
        major power grid operational impact threats loom due to these 
        low probability, but very large storm events. For instance, we 
        have examined in detail the specifics of the March 1989 super 
        storm and as previously discussed witnessed unprecedented power 
        system impacts for storm intensities that reached levels of 
        approximately 300 to 600 nT/min. However, the investigation of 
        very large storms have made us newly aware that storm 
        intensities over many of these same U.S. regions could be as 
        much as 4 to 10 times larger. This increase in storm intensity 
        causes a nearly proportional increase in resulting stress to 
        power grid operations. These storms also have a footprint that 
        can simultaneously threaten large geographic regions and can 
        therefore plausibly trigger even larger regions of grid 
        collapse than what occurred on August 14, 2003. Exhibit 12 is a 
        brief opinion article that discusses the context of the events 
        leading up to the August 14, 2003 blackout and how such a 
        scenario could in the future be triggered by a space weather 
        storm. Exhibit 13 provides a more detailed summary of 
        investigations undertaken on the U.S. power grid for impacts 
        caused by very large geomagnetic storm events. As shown in this 
        series of studies, disturbance impacts to power grid operations 
        could plausibly be 3 to 10 times larger in the U.S. than those 
        experienced in the March 1989 super storm. This paper shows one 
        of many possible scenarios for how a large storm could unfold. 
        As illustrated in Figure 8, a large region of power system 
        collapse is projected for severe geomagnetic disturbance 
        scenarios. Depending on the morphology of the geomagnetic 
        disturbance, it would be conceivable that a power blackout 
        could readily impact areas and populations larger than those of 
        the recent August 14,2003 blackout.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    While these complex models have been rigorously tested and 
validated, this is an exceedingly complex task with uncertainties that 
can easily be as much as a factor of two. However, just empirical 
evidence alone suggests that power grids in North America that were 
challenged to collapse for storms of 400 to 600 nT/min over a decade 
ago, are not likely to survive the plausible but rare disturbances of 
2000 to 5000 nT/min that long-term observational evidence indicates 
have occurred before and therefore may be likely to occur again.
    Because large power system catastrophes due to Space Weather are 
not a zero probability event and because of the large-scale 
consequences of a major power grid blackout, I am compelled to, add 
some commentary on the potential societal and economic impacts of such 
an event should it ever re-occur. The August 14, 2003 event provides a 
good case study; the utilities and various municipal organizations 
should be commended for the rapid and orderly restoration efforts that 
occurred. However, we should also acknowledge that in many respects 
this blackout occurred during highly optimal conditions that were 
somewhat taken for granted and should not be counted upon in future 
blackouts. For example, an outage on January 14 rather than August 14 
could have meant coincident cold weather conditions. Under these 
conditions, breakers and equipment at substations and power plants can 
be enormously more difficult to re-energize when they become cold. This 
can translate into the possibility of significantly delayed 
restorations. Geomagnetic storms as previously discussed can also 
permanently damage key transformers on the grid, which further burdens 
the restoration process. For that matter, these conditions could 
rapidly cause serious public health and safety concerns, in that people 
trapped in regions such as New York City would not have the option of a 
``Night in Central Park Experience'' and perhaps not be able to easily 
find adequate shelter from the elements. The time of day when the 
outage occurred was also a significant advantage, in that the bulk of 
the utility company day crews were still available and able to be 
readily dispatched to perform restoration functions. In major cities, 
the blackout essentially brought to a halt most transportation systems. 
All mass transit systems shutdown as they depend on electricity for 
many of their functions. Traffic signal systems on most major streets 
and highways stopped and as a result most major thoroughfares became 
the equivalent of 8 lane parking lots in the early hours of the 
blackout. Only a few major power facilities are continuously manned, 
and since blackouts are possible at any hour, the odds are that 75 
percent of the time the normal utility day crews are not on the job 
when these events occur. Attempting to recall workers that are trapped 
on the wrong side of these transportation snares is highly problematic.
    In many respects, the loss of power supply returns much of our 
society to a pre-industrial era, because the loss of power supply 
rapidly cascaded into many other infrastructures. For example, water 
and sewage plants and transportation systems generally shutdown across 
the affected regions, even some 911 emergency systems and communication 
systems were impacted. Power grids are arguably the most important of 
the critical infrastructures because most of the other critical 
infrastructures are so highly interdependent on reliable power supply 
from the grid. It is clearer now that the technology age has increased 
our reliance on electric power. Figure 9 shows a chart plotting the 
primary interdependency links that exist between electric power and 
other critical infrastructures and services such as water, 
transportation, telecommunications and fuel supplies. As this 
illustrates, electric power supply is central to the sustained 
operation of most of the Nation's other critical infrastructures.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Only a small portion of these infrastructure facilities have 
emergency on-site generation of sufficient capacity that allows them to 
continue operation in the face of a blackout event. Water treatment and 
pumping require enormous amounts of electric power and as result very 
few of these systems have redundant power supply options. Loss of 
pumping in time will lead to drop of city water pressure, as storage 
tanks and reservoirs cannot be recharged for residential distribution. 
In large high-rise buildings, city supply water pressure needs to be 
supplemented with electric pumps to lift water to upper floors for 
water distribution. Therefore within a matter of a few hours potable 
water distribution in many locations can become a serious concern. 
Perishable foods are generally at risk of complete loss within 12 hours 
or less. As previously discussed, transportation of all types was 
seriously impacted. Even automobiles and trucks could only operate 
within the range of the fuel in their tank at the time, because nearly 
all refueling operations from underground storage tanks require 
restoration of electric power supply.
    Most affected regions were restored within approximately 24-36 
hours after the blackout. As described in hearings on October 20 before 
the House Financial and Banking Infrastructure Committee, the major 
telecommunications (not counting wireless-cellular phone systems) and 
interdependent financial systems were able to maintain many functions. 
However, this was due to backup generation at a few critical hubs, 
which generally have around 72 hours of available fuel. Therefore power 
grid outages of longer durations would be highly problematic in that 
refueling may be logistically impossible in all situations. W.A. 
Abernathy, the Assistant Secretary for Financial Institutions, 
cautioned in his testimony that our financial institutions primarily 
operate on the principle of confidence, ``confidence that financial 
transactions will be carried out, that checks will clear, that bills 
will be paid, that investments will be made, that insurance promises 
will be kept. The confidence provided by financial institutions and 
their services play a big part in helping to cope with the trauma of 
disaster.'' An event which causes the eventual cessation of these 
functions, even for a short time, in key financial centers could have 
potential for wide spread consequences to the economy.
    Because of the possible large geographic laydown of a severe storm 
event and resulting power grid collapse, the ability to provide 
meaningful emergency aid and response to an impacted population that 
may be in excess of 100 million people will be a difficult challenge. 
Potable water and replenishment of foods may need to come from boundary 
regions that are unaffected and these unaffected regions could be very 
remote to portions of the impacted U.S. population centers. As 
previously suggested adverse terrestrial weather conditions could cause 
further complications in restoration and re-supply logistics.

Space Weather and Power System Understandings--The Future
    Given the surprising and potentially enormous implications of 
recent power system threats due to space weather, it is difficult to 
accurately predict what the future may bring. However, the future of 
space weather is being shaped, in fact, by activities that are underway 
today. Much good work is underway to continue efforts such as described 
here to further understand and evaluate the potential impacts of large 
storm events. While having the ability to accurately assess threats to 
these infrastructures is an important accomplishment, the real payoff 
of this capability is in the application of this knowledge towards 
engineering solutions that reduce the risks. In order to protect 
against the effects from severe geomagnetic storms, several approaches 
may need to be used. In terms of the entire grid itself, remedial 
measures to reduce GIC levels may be needed, such as installation of 
supplemental transformer neutral ground resistors to reduce GIC flows 
and undo this unintended geomagnetic antenna that has developed as the 
industry has built the present day high voltage transmission grid in 
the U.S. Grid operational measures can be better evaluated and tested 
for the multitude of scenarios and procedures enhanced to prevent 
severe voltage regulation problems in order to preserve the integrity 
of the network as a whole. This means that additional generation 
capacity and fast acting voltage compensating reserves should be 
available and/or loads should be rapidly removed from the system. This 
requires advanced information and contingency planning by the power 
utilities. With the aid of continuous solar wind monitoring, it is 
possible to reliably predict the onset of a storm 30 to 45 minutes in 
advance. This is due to the availability of real-time satellite data 
and modeling capabilities that are now within the state-of-the-art. 
These capabilities are reasonably expected to further improve within 
the next five years, but only as long as the Nation maintains a 
commitment to gather the observational data and disseminate it for the 
forecast models that can use it.

Question 4. What would be the impact to your organization and the 
electric power grid industry if the SEC were no longer able to provide 
its space weather forecasts to you? Please provide specific examples 
when possible.

    In response to this question, let me first speak to the impacts 
upon the power industry should the SEC or the Nation's space weather 
forecast capability cease to exist. As previously discussed, the power 
industry has been aware of the potential for some large impacts due to 
storms and as recent discoveries indicate, these threats have the 
potential to be even more ominous in their implications that previously 
understood. It is also clear that the vulnerability that presently 
exists has evolved due to long-term trends and that these trends 
because they involve embedded designs to billions of dollars in assets 
cannot be undone overnight. The most effective mitigation strategy in 
the short-term and perhaps in the long-term is improved situational 
awareness for operators of these systems from evolving space weather 
disturbances and then attempting to counter some of the impacts by 
providing more robust operational postures in anticipation of storm-
caused impacts.
    In the era prior to solar wind monitoring and the advances in 
improved solar activity monitoring, storm events would often blindside 
operators with sudden onsets. Unlike most terrestrial weather, these 
events develop suddenly once the threatening inputs from solar activity 
arrive at the Earth. The loss of these capabilities would return us to 
the 1980's, where all that existed in many respects was a monitoring 
service and storm information for the most part arrived after-the-fact 
and therefore could not be usefully utilized to avoid significant 
operational impacts, rather the information just confirmed for 
operators what caused any impacts and only marginally better prepared 
them for additional impacts from the same storm. Therefore, power grids 
would have to rely almost exclusively on their own power grid monitors 
for the first signs of possible storm impacts. However, these would be 
a poor substitute in most respects and would create a number of 
operator uncertainties and paradoxes. The operators would not be able 
to receive advance notice of severe impacts that appear with sudden 
onsets. For storm events that have slower evolution, it would take some 
time to determine if operating anomalies are due to a geomagnetic storm 
or some other event. Once they determine that it is a geomagnetic storm 
then it would be necessary to be overly cautious and restrictive for 
many additional hours of small storm activity because it would be 
difficult to know if a larger storm development is possible. In the 
aftermath of the Hydro-Quebec collapse, the operators of that system 
based operational procedures on observations of local activity. In 
1991, they spent nearly 10 percent of the year in geomagnetic storm 
operating posture and as a result reduced substantially their ability 
to transfer large blocks of power across their network and export it 
outside their system. In today's more volatile electric energy markets, 
such operating postures could produce substantial added hours of 
constricted operation of networks and have immediate cost impacts on 
real-time electric energy markets. An example of this type of energy 
market cost impact can be illustrated by a storm on July 15, 2000 and 
the response of the power, market when the PJM power pool declared a 
storm emergency. On July 15, 2000, the PJM declared an SMD emergency 
beginning at 15:30 and declared an end to the SMD emergency at time 
21:07, resulting in a period of 6 hours of emergency conditions in 
which PJM follows prescribed procedures for network conservative 
operation as described in Sections 3-1 to 3-5 of the PJM Operations 
Manual. During this 6 hour period, the real-time price increased 
approximately $40/MWH on average. Under conservative operation, the 
operation of the power network biases towards security and reliability 
of the network as a whole rather than just economic dispatch. As a 
result, transfers across the network can be significantly reduced, 
leading to re-dispatch of generation and cost increases in the real-
time market due to less optimal economics in the dispatch of generation 
in this security mode of operation. Even though this storm event 
occurred under light load and highly favorable market conditions, the 
cumulative real-time market cost increase totaled $900,000. Storm 
assessment uncertainties can extend longer than necessary operation of 
the network in these restricted market conditions and add even more to 
these cost impacts. During some periods of the day, energy cost 
increases can be much more severe and total costs could be even higher 
as a result. Of course, the economic and societal costs of large scale 
failures in the U.S. power grid overwhelm all other cost concerns and 
forecast efforts provided to prevent that scenario from being realized 
should be of paramount concern.
    Metatech is dependent for many of the forecast products we supply 
upon reliable, high-cadence and high quality data from the SEC as 
needed inputs into the models and forecast systems we operate. In 
response to cessation of the SEC functions, we would have to 
significantly alter and as a result diminish the quality of some of the 
services we could provide. In addition, I would suspect that some 
commercial providers may choose to simply exit the business in response 
and others that might have been willing to enter the business will 
instead decide not to do so. Further, it would be unlikely at this time 
that any commercial provider would decide to enter the market to 
shoulder the heavy burden of launching satellites and setting up and 
coordinating various world observatories needed to provide important 
data inputs. In short, the customers, no matter who the provider, would 
have fewer options available to them and would receive an overall lower 
quality of service. Lacking any official government agency responsible 
for space weather forecasting, a likely development at times will be 
the equivalent of a ``Tower of Babel,'' where information is widely 
scattered amongst a large number of government, military, and 
international observation sites and each speaking in a differing tongue 
as to their interpretation and not one of them having complete enough 
information to develop a useful ``Big Picture'' of the unfolding space 
weather events.
    Even the idea of a successor agency being handed the responsibility 
that currently resides with the SEC has a number of potential impact 
consequences. No matter how dedicated the new responsible agency, there 
will be unavoidable losses in the transition. Any new organization 
would need to successfully overcome the added start-up hurdles before 
even considering how best to meet the challenges of forecasting a 
difficult space weather environment. Since our company has commercial 
responsibilities similar to the associated activities that the SEC must 
perform to deliver their products, I can certainly state that an 
operation such as this has many high maintenance and expensive tasks. 
This includes such unglamorous but vital back office and field tasks 
such as data collection, quality control of the data and, finally, 
timely data dissemination. These all need the continuity of an 
experienced and capable staff of unsung heroes to assure the high level 
of reliability and availability that has been provided by the SEC. 
These systems, of course, need to work in harmony with the derived 
products and forecast services that are the more familiar face of the 
SEC. As I have emphasized previously in my testimony, the space weather 
disturbances we are attempting to forecast can have amazingly rapid 
onsets and can manifest as a diverse variety of consequences to large 
geographic regions. Therefore forecast staff needs to be highly trained 
and experienced so they can quickly assess and judge, as there is no 
time for hesitancy and uncertainty. Further all this needs to be done 
on a continuous 24 hour by 7-day per week basis, as the Sun never sets 
on the Nation's threats from Space Weather disturbances. As you can 
surmise, setting up a new function such as this is not a matter of 
buying a few servers, installing some shrink-wrap, and parking some 
people in front of a monitor. Nearly every function that is done 
involves much in the way of custom systems and a high degree of 
specialized human ``know how.'' Therefore the loss of the highly 
trained and experienced staff would be an unfortunate loss of 
investment by the Nation and setback our collective capabilities in 
space weather forecasting.
    In conclusion I would also like to offer a perspective on the long-
term needs that should further be considered by this committee in 
supporting our nation's efforts to better mitigate concerns arising 
from space weather events. For example, the degree of deterioration in 
the reliability of the electric power grid has been a topic of 
considerable discussion, post August 14, 2003. It is now evident that 
uncertainty in long-term restructuring, and lack of transmission 
infrastructure investment were significant factors contributing to the 
events of that day. Yet no matter how maligned, this infrastructure is 
still capable of operating through ``single-point'' failures. In 
contrast, our nation's most important space weather monitoring assets 
have no redundancy in case of failure. A loss, for example, of the 
NASA-ACE solar wind monitoring satellite (at the vital L1 position in 
space) would largely deprive the Nation of the ability to perform high 
quality short-term forecasting of geomagnetic storms. The end of 
lifetime for ACE is rapidly approaching and still no formal plans exist 
by any government agency in the world for a replacement satellite. 
Other examples also exist for various other observation assets that 
supply needed data inputs to our space weather forecast systems. Our 
grasp on the ability to perform these vital functions can be lost at 
any moment in time and we may not be able to recover for a number of 
years in some cases. Therefore I would also like to urge the Committee 
to consider these future ``heavy lifting'' responsibilities in 
sustaining and improving our nation's space weather infrastructure, 
once we get past this current SEC funding crisis.

    Chairman Ehlers. Thank you very much.
    Next, Captain Krakowski.

STATEMENT OF CAPTAIN HENRY P. (HANK) KRAKOWSKI, VICE PRESIDENT 
 OF CORPORATE SAFETY, QUALITY ASSURANCE, AND SECURITY, UNITED 
                            AIRLINES

    Captain Krakowski. Chairman Ehlers, Ranking Member Udall, 
and Members of the Committee, on behalf of United Airlines, we 
would like to thank you for the opportunity to submit testimony 
with the direct bearing on flight safety, public health, and 
commercial efficiency. In addition to my 25 years as a United 
Airlines pilot, I am also responsible for safety, security, and 
operational quality at our company.
    Mr. Chairman, if you flew from Grand Rapids, Michigan to 
Beijing or Hong Kong six years ago, it would have taken nearly 
a day, connecting over at least two cities. Today, through the 
pioneering efforts of United Airlines in cooperation with other 
agencies and countries, we can now fly from Grand Rapids to 
these and other Asian cities in just 16 hours with one flow 
through Chicago. This is possible because of our ability to fly 
over the North Pole, Russia, and China. In fact, State 
Department officials involved in recent talks in China enjoyed 
the convenience and efficiencies of these very flights.
    Safety is always our number one priority at United 
Airlines. Toward that end, while polar routing provides a 
tremendous advantage of time and convenience for our customers, 
everyone on these flights could be exposed to potential safety 
risks that did not exist when flying at the lower latitudes. 
Information we receive from the Space Environment Center 
operated by NOAA ensures that United Airlines can take timely 
action to mitigate the risks associated with an occasional 
solar activity, which can disrupt communication, navigation, 
and even impact crew member and customer health.
    During such a solar activity, our company policy dictates 
that United restricts flights from certain routes and 
altitudes. If we are made aware of a threatening activity prior 
to a flight, United will not hesitate to fly at lower altitudes 
or latitudes or even incur a costly fuel stop in Japan or 
China.
    United is one of the few airlines which maintains an in-
house meteorology department that works with our dispatchers 
and our flight crews to provide a safe, comfortable flight. We 
are proud of our excellent reputation in forecasting safety 
threats.
    The solar environment, however, is so unique that it 
requires specially trained forecasters and specific technology 
not available within the commercial sector. The SEC is our only 
link to that environment.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As this chart depicts, we blend the information from SEC 
right into our flight planning process on both a daily and 
hourly basis. The SEC provides United with daily forecasting, 
monitoring, and, most importantly, immediate alerts, some of 
which can affect flight operations in as short as 10 minutes. 
We can demonstrate that the current process works exceedingly 
well.
    In our five years of flying over the North Pole, United has 
found the need to alter flight plans on an average of two to 
three times per month. In some cases, when the event is severe, 
as we have recently experienced, we will alter flights 
sometimes already in the air.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The current chart depicts an event which occurred on 
October 24, our flight 895 between Chicago and Hong Kong, was 
planning to fly the polar route. We replanned the route away 
from the North Pole due to an R3 solar event. This routing took 
an additional 30 minutes of time. We had to burn 3,000 extra 
gallons of gas, and it cost United Airlines $10,000 to 
operate--more to operate that given flight. We do this 
regularly, if needed.
    Mr. Chairman, United works with numerous government 
agencies from the FAA to the TSA. NOAA and the SEC distinguish 
themselves, in our opinion, by being an exceptionally 
transparent and customer-oriented partner with the airlines. I 
have personally visited the SEC in Boulder and can attest to 
the talent and professionalism of their staff. We are concerned 
that a reduction in funding could damage this important source 
of real-time safety information for our company. We also are 
concerned that transferring the operation to another federal 
agency could cause a disruption, degradation, or even filtering 
of information.
    We urge you to support this program and seriously consider 
the ramifications associated with the change of oversight. We 
operate polar flights every day. A degradation of performance 
of this entity would cause us to become overly conservative in 
our flight planning, which would be costly. In our view, this 
is a program not in need of a fix. In our view, it is actually 
a program of American tax dollars at its best for the 
protection of United States citizens.
    Again, thank you for allowing me to testify, and I do look 
forward to any questions you may have.
    [The prepared statement of Captain Krakowski follows:]

        Prepared Statement of Captain Henry P. (Hank) Krakowski

    Chairman Ehlers, Ranking Member Udall and Members of the Committee, 
on behalf of United Airlines, thank you for the opportunity to submit 
testimony concerning a subject that has direct bearing on flight 
safety, public health and commercial efficiency. In addition to my 25 
years as a United pilot, I am also responsible for Safety, Security and 
Operational Quality at our company.
    Mr. Chairman, if you flew from a city such as Grand Rapids, 
Michigan to Hong Kong or Beijing six years ago, the journey would 
connect through at least two cities and take nearly a full day to 
complete. Today, through the pioneering efforts of United Airlines in 
cooperation with multiple countries and agencies, one can fly from 
Grand Rapids to these and other Asian cities in just 16 hours with only 
one connection over Chicago. This is possible by flying directly over 
the North Pole, Russia and China. In fact, State Department officials 
involved in recent talks with China enjoyed the convenience and 
efficiency of these very flights on United between Chicago and Beijing.
    Safety is always our number one priority at United Airlines. Toward 
that end, while polar routing provides a tremendous advantage of time 
and convenience to our customers, everyone on these flights could be 
exposed to potential safety risks that did not exist when flying at 
lower latitudes. Information we receive from the Space Environment 
Center (SEC), operated by the National Oceanic Atmospheric 
Administration (NOAA), ensures that United Airlines can take timely 
action to mitigate any risks associated with occasional solar storm 
activity that can disrupt communication, navigation and impact 
passenger and crew member health.
    During such solar activity, our company policy dictates that United 
restrict flights from certain routes and altitudes. If we are made 
aware of threatening activity prior to the flight, United will not 
hesitate to fly at lower altitudes and latitudes or incur a very costly 
fuel stop.
    United is one of the few airlines that maintain an in-house 
meteorology department that works with our dispatchers and crews to 
provide a safer and more comfortable flight. We are proud of our 
excellent reputation in forecasting flight safety threats.
    The solar environment, however, is so unique that it requires 
specially trained forecasters and specific technology not available 
within the commercial sector. The Space Environment Center the only 
link to this environment. We blend the information received from the 
SEC into the flight planning process daily and even hourly. The SEC 
provides United with daily forecasting, monitoring and, most important, 
immediate alerts some of which can affect flight operations in as 
little as 10 minutes. We can demonstrate that this process works 
exceedingly well.
    In our five years of polar flying experience, United has found the 
need to alter flight plans two or three times per month. In some cases, 
when an event is severe, we will alter flights already in the air.
    Please take a look at the chart that we have provided for the 
Committee's reference. As recently as last week, on October 24th, 
United flight 895 from Chicago to Hong Kong planned to fly a polar 
route. The flight was re-planned, however, on a more southerly route 
due to a R3 magnitude solar event. This routing took 30 extra minutes 
and used 3,000 gallons of extra fuel for a total added cost to the 
company of $10,000 for that flight.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Chairman, United works with numerous government agencies from 
the FAA to the TSA. NOAA and the Space Environment Center distinguish 
themselves by being an exceptionally transparent, customer-oriented 
partner with the airlines. I have personally visited the SEC in Boulder 
and can attest to the talent and professionalism of this organization 
and their people. We are concerned that a reduction in funding could 
damage this important source of real-time safety information for our 
airline. We are also concerned that transferring operation of the SEC 
to another federal agency could result in a disruption, degradation or 
filtering of critical information.
    We urge you to support this program and seriously consider the 
ramifications associated with a change in program oversight. We operate 
polar flights each and every day. A degradation of performance in this 
program would cause us to become overly conservative in our flight 
planning. In our view, this program is not an example of a government 
program that is broken and in search of a fix. Quite to the contrary, 
our work in cooperation with the SEC exemplifies the use of American 
tax dollars at its best for the protection of U.S. citizens.
    Again, thank you for allowing me to testify before the Committee. I 
look forward to any questions you may have.

    Chairman Ehlers. Well, as one would--might expect from a 
pilot, you are finished with two seconds to spare, so your ETA 
calculation was very good.
    Dr. Hedinger.

STATEMENT OF DR. ROBERT A. HEDINGER, EXECUTIVE VICE PRESIDENT, 
       LORAL SKYNET, LORAL SPACE AND COMMUNICATIONS LTD.

    Dr. Hedinger. Thank you, Mr. Chairman.
    My name is Robert Hedinger. I am an executive vice 
president with Loral Skynet, a communications satellite service 
provider, and also a division of Loral Space and 
Communications. I am pleased to appear before your Subcommittee 
to discuss the effects of space weather on communication 
satellites and the vital role played by NOAA's Space 
Environment Center.
    I would also like to mention that the Satellite Industry 
Association has also developed a record for this committee, 
which I would like to attach to our record, as well.
    Chairman Ehlers. Without objection, so ordered.
    Dr. Hedinger. Okay. Thank you.
    I would like to provide the Subcommittee with some 
background on the economic importance of the U.S. satellite 
industry and then address specific questions included in your 
letter of invitation. Additional supporting material has been 
provided in the attachments to my record.
    Let me begin by pointing out the significant commercial 
investment and critical telecommunication services that are at 
risk resulting from space weather effects. As the attached 
charts in the record will demonstrate, $49.8 billion of revenue 
was generated and $12.1 billion of investments were made in 
2002 in this industry. And these figures are expected to grow 
over the next 10 years. Critical commercial satellite 
applications that are provided on this infrastructure include: 
direct to home entertainment video and audio services, 
nationwide services; broadcast and cable television, all of the 
networks have satellite distribution networks; radio and audio 
distribution; satellite news gathering; the collection of 
critical news events from events that are occurring across the 
country; paging services; location and tracking services; rural 
and remote access services for telephony, data, and Internet; 
critical services for remote education and telemedicine; data 
communications to hundreds of thousands of locations used by 
the retail industry for such applications as point of sale 
terminals, credit card processing, and inventory tracking.
    I would now like to address, in more detail, the questions 
that you had addressed in your invitation.
    The first question: ``How does space weather affect 
satellite communications?'' Temporary and/or permanent damage 
to on-board equipment resulting from electrostatic discharges, 
the space--the surface of the spacecraft can be charged with 
the large amounts of charged particles in the environment and 
then discharged, causing an electrical spark, which can damage 
equipment. Performance degradations and service outages due to 
particle events, in particular, electrical sensors, which are 
used for maintaining pointing accuracy of the spacecraft, can 
be--can experience a similar effect to fog as a result of 
having high-energy particles around the sensors. Altitude 
control and pointing errors due to magnetic field variations. 
Certain spacecraft rely on a strong magnetic field to target 
the spacecraft to keep it aligned. When a geomagnetic storm 
occurs, the magnetic field fluctuates and sometimes can become 
quite weak and not be strong enough to drive the momentum of 
the spacecraft. So these are some of the major impacts that 
space weather has on the satellites.
    The next question is: ``How do satellite operators use the 
data that is provided by NOAA?'' I see I am running short on 
time. I would love to go through a long list. There is a lot of 
this information in the document, but to cut it short, we can 
prepare ourselves for a lot of events that could be detrimental 
to the spacecraft ahead of time. We take precautionary 
measures. We may set up a reconfiguration of the spacecraft 
that, instead of having automated commands, we send manual 
commands to the spacecraft. Because of the environmental 
changes that take place, they could mask some true events that 
are occurring and cause satellites to go into a mode which is 
undesirable.
    The third question you asked was: ``What has happened in 
the last five years? What do we expect in the next five 
years?'' Over the last five years, we have certainly gotten 
more data, but more importantly, we have had access to that 
data in a much more rapid and user-friendly environment as a 
result of the NOAA SEC approach to distributing this 
information to the commercial satellite industry. The next five 
years, we know that there is continuing research that needs to 
be done. In specific--specifically, we would love to have 
additional forecasts that can be specific about orbital 
locations and the impacts on very specific satellites.
    The fourth question: ``What would we do without it?'' We 
couldn't live without this data. We need this data. It is 
absolutely critical for our operations.
    In summary, Mr. Chairman, the functions that NOAA SEC 
performs to model, predict, and send out alerts on space 
weather has been, and continues to be, critical to commercial 
satellite operators. NOAA SEC has provided excellent service to 
communication satellite operators. It is critical to the 
commercial satellite industry that NOAA SEC continue providing 
these services without disruption.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Hedinger follows:]

                Prepared Statement of Robert A. Hedinger

    Mr. Chairman and Members of the Subcommittee, my name is Robert 
Hedinger, I am an Executive Vice President with Loral Skynet, a 
communications satellite service provider, and a division Loral Space 
and Communications Ltd. I am pleased to appear before your Subcommittee 
to discuss the effects of space weather on communications satellites 
and the vital role played by NOAA's Space Environment Center.
    I would like to provide the Subcommittee with some background on 
the economic importance of the U.S. satellite industry and then address 
the specific questions included in your letter of invitation. 
Additional supporting material has been provided in the three 
attachments.
    Let me begin by pointing out that significant commercial investment 
and critical telecommunications services are at risk resulting from 
space weather effects. As the attached charts in Appendix A 
demonstrate, $49.8 billion of revenue was generated and $12.1 billion 
of investments were made in 2002 in this industry and these figures are 
expected to grow in the next ten years.
    Critical Commercial Satellite Applications include;

        <bullet> Direct to Home Entertainment Video and Audio Services

        <bullet> Broadcast and Cable TV

        <bullet> Radio and Audio Distribution

        <bullet> Satellite News Gathering

        <bullet> Paging Services

        <bullet> Location and Tracking Services

        <bullet> Rural and Remote Access Service for Telephone, Data 
        and Internet

        <bullet> Critical Services for Remote Education and 
        Telemedicine

        <bullet> Data communications to hundreds of thousands of 
        locations used by the retail industry for such applications as 
        point of sale terminals (credit card processing) and inventory 
        tracking.

Answers to Questions Asked in the Letter of Invitation

    To address your first question, space weather can affect satellite 
operations in the following ways:

        <bullet> Temporary and/or permanent damage to on-board 
        equipment resulting from electrostatic discharges

        <bullet> Performance degradations and services outages due to 
        particle events

        <bullet> Attitude control and pointing errors due to magnetic 
        field variations

    Additional information and examples are provided in Appendix B.

    To address your second question, satellite operators use data and 
products from NOAA's Space Environment Center (SEC) in the following 
ways:

        <bullet> By being prepared, the Satellite Control Centers 
        (SCC) operated by Loral and other service providers can reduce 
        the amount of service outage time by focusing on the corrective 
        action more quickly (avoiding some of the initial 
        troubleshooting).

        <bullet> By communicating these events to our customers, Loral 
        can provide them the ability to plan around potential problems.

        <bullet> By activity scheduling, Satellite Control Centers can 
        avoid sensitive maneuvers and housekeeping functions during 
        peak storm activity.

        <bullet> In some instances, SEC data is used in real-time to 
        determine the cause of observed anomalies. Using the SEC data 
        the SCC is able to determine if a reconfiguration of the 
        spacecraft is warranted, or if the storm is small enough that 
        we can maintain the current configurations.

        <bullet> As part of the due diligence that is performed after 
        every spacecraft anomaly, the SEC data is also analyzed. This 
        is done to see if there is a link between the solar environment 
        and the anomalous condition.

        <bullet> Loral also uses the archive data from the SEC during 
        the spacecraft design and analysis activities.

    Additional information and examples are provided in the Appendix B.

    To address your third question, five years ago there was less 
information available and the data format was difficult to work with 
(fax, paper copies, etc). This has improved significantly over the last 
five years to allow better access to the available information. Data is 
now available online and viewable at an individual engineers terminal.
    In the next five years we expect to see a more reliable early 
warning system, a continuing improvement in the knowledge of the space 
environment through improved detectors and analysis tools for better 
spacecraft designs, and improvements in dynamic modeling for specific 
orbit locations.
    Additional information is provided in Appendix B

    To address your fourth question, the impacts to Loral and other 
commercial satellite operators of not being able to access the SEC 
services would be severe. Without the SEC information, satellite 
operators would not be able to cancel maneuvers based on solar 
environment levels and consequently we would not be able to avoid 
potential damage to the spacecraft. Service outages would also occur 
more often and be longer in duration. Spacecraft design quality would 
be compromised without access to current and accurate Space Weather 
Data.

In summary:

        <bullet> The functions that NOAA SEC performs to model, 
        predict, and send out alerts on space weather has been and 
        continues to be critical to Commercial Satellite Operators.

        <bullet> NOAA SEC has provided excellent services to 
        Commercial Satellite Operators.

        <bullet> It is critical to the Commercial Satellite Industry 
        for NOAA SEC to continue providing these services without 
        disruption.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
APPENDIX B

         Answers to Specific Questions Concerning Space Weather

Question 1

Please provide an overview of how space weather can affect satellite 
operations, including examples of historical events that have caused 
problems.

Charging Effects
    Space weather affects the way the spacecraft body (or internal 
components) is charged. The spacecraft can only hold so much charge 
before it reaches a threshold for discharge. During extreme charging 
environments, this discharge occurs spontaneously and it is called an 
Electro Static Discharge (ESD) event. As an ESD event potentially 
contains a large amount of energy, it can be very hazardous to the 
spacecraft.
    Spacecrafts have had major component failures that have been 
directly related to specific ESD events. On some spacecraft, several 
ESD events of the same type have occurred. These events have gradually 
weakened circuitry leading eventually to equipment failure. In 
addition, ESD events have lead to temporary upset of the spacecraft 
configuration. All of these events have led to customer outages until 
the operators have had time to reset the operational configuration 
using redundant equipment. Imagine if such an event happens during the 
Super Bowl or World Series. Until a switch over to a redundant 
transmission path happens, it can affect the TV Broadcasters by causing 
millions of dollars lost in advertising revenue and a set tens of 
millions of viewers.
    Loral has experienced ESD events on several of their own spacecraft 
as well as spacecraft supplied to customers. Critical pieces of 
equipment have been lost due directly to ESD events including momentum 
wheels, and heaters/thermisters. We have had power equipment, earth 
sensors, payload units and telemetry and command equipment change 
operational state. We have had an accumulation of ESD events causing 
failure of solar array circuits. All of these events have the potential 
of temporarily or permanently reducing commercial communication or 
weather service to customers.

Immediate Particle Events
    Sudden increase of protons and electrons caused by a storm can 
cause immediate problems that are not related to charging. The biggest 
concern here is in partially blinding sensor equipment. On most 
commercial spacecraft this problem is limited to the instrumentation 
responsible for determining pointing (earth sensors, star sensors, 
etc). During a big storm, these sensors do not operate to their full 
efficiency as they are partially blinded by much noise. Loral has seen 
attitude control system trips due to this type of particle induced 
noise. These trips normally result in loss of pointing control (or 
reduced pointing control) in at least one axis. If the error grows 
beyond our tolerance, service is affected.

Magnetic Events
    Some spacecraft use the Earth's magnetic field for control of 
pointing. These spacecraft have electro-magnets on board. These magnets 
interact with the Earth's magnetic field putting a torque on the 
spacecraft. The magnets on the spacecraft are activated as needed to 
control pointing. During solar storms that affect Earth's magnetic 
field, these spacecraft often have trouble maintaining pointing 
control. Without a strong magnetic field for the magnets to interact 
with, their efficiency is reduced greatly. During these times it is 
required to change the spacecraft's actuators from magnetics to 
thrusters in order to maintain service.

Question 2

How does your organization use data and products from NOAA's Space 
Environment Center (SEC)? In general, how much lead time do you need to 
make decisions for mitigating the effects of space weather?

Preparatory
    In a perfect world, one week lead time would be desirable. If we 
had forecast data for the next week, this could be worked into our 
weekly activity plan. As this is not currently available, we utilize 
the data as it is available. Some of the warnings for the smaller 
storms only provide a few hours of notice. These we use in a real time 
manner when executing activities. Warnings for potentially large storm 
normally give a day or two to prepare. As these are the potentially 
more devastating storms, Loral uses this information as described in 
the following three sections.

Internal Advisements
    Due to increased problems during solar storms as well as the 
potential necessity to run specialized procedures, Loral utilizes the 
SEC warnings to prepare. When a warning comes out that meets Loral's 
criteria for potential problems, internal advisements are issued. These 
advisements serve to prepare the Satellite Control Centers for any of 
these potential non-standard operations. By being prepared, the 
Satellite Control Centers can reduce the amount of service outage time 
by focusing on the corrective action more quickly (avoiding some of the 
initial troubleshooting).
    The SEC site is monitored in real time 247. As events such as 
earth sensor glitches or attitude error hold off are encountered, the 
controllers in Loral's Satellite Control Center perform analysis to 
determine the next step. This analysis utilizes both spacecraft 
telemetry as well as the real time data from the SEC site. It is 
important to understand the current state of the spacecraft as well as 
the expected growth (or diminish) of the storm's strength before taking 
action.

External Communications
    Loral performs external communications to its customers (called a 
code Orange) when space weather predicts reach predetermined values. 
This allows our customers to plan for potential spacecraft problems. By 
communicating these events to our customers, Loral provides them the 
ability to plan around potential problems. This provides them the 
ability to increase their service reliability.

Activity Scheduling
    On some spacecraft, we have found a susceptibility to particular 
failures if certain events are performed during elevated levels of 
solar activity. In these cases, we check the solar forecast prior to 
scheduling the events in order to determine the likeliness of being 
able to execute them. We also check the space weather again just prior 
to execution of these events before proceeding in order to avoid 
problems.
    An example of this is a spacecraft that has a change of state in 
the solar array drive electronics every time we perform a maneuver with 
elevated solar activity. As the problem involves an illegal state 
within the control electronics, we have been warned by the manufacturer 
to limit the number of times that this phenomenon occurs. The worry is 
that if we let it fail too often, we will weaken the path such that we 
will not be able to return the state back to normal. Without access to 
solar weather data, we would not be able to control this.
    Another example of this also involves maneuver execution. Prior to 
performing a maneuver, Loral uses the SEC site to determine whether 
there is an expected proton event pending. As these types of storms 
tend to cause problems for the Earth sensing equipment, it is important 
to keep the spacecraft's attitude quiet during one of these events. If 
a maneuver were performed during one of these events multiple problems 
could be encountered. These problems include difficulty in calibrating 
the attitude fine control sensors, excessive attitude control firings 
or even potential attitude safety system trips.

Real-Time
    In some instances, SEC data is used in real-time to determine the 
cause of issues. Examples of these are multiple earth sensor glitches 
or small attitude hold off. All of these have some affect on the 
pointing of the spacecraft. When these issues occur, the personnel in 
the SCC check the real-time data on the SEC site to see if there is a 
link. If the problems are a result of increased solar activity the 
information is escalated. We create an internal advisement and 
distribute them. If the activity is of sufficient level escalation will 
continue to our external customers.
    Using the SEC data the SCC is able to determine if a 
reconfiguration of the spacecraft is warranted, or if the storm is 
small enough that we can maintain the current configurations. Examples 
of this reconfiguration are:

    If a proton event of sufficient strength is on-going, and expected 
to continue for sometime, we would disable automatic on-board momentum 
unloads. As the wheels respond to the increased earth sensor noise, the 
spacecraft control algorithms mistake this for a buildup of momentum. 
The spacecraft will then fire thrusters to take care of this momentum. 
This firing of thrusters should not be occurring as them is no real 
build up of momentum.
    During a magnetic storm, it is very useful to know the expected 
strength and length of time. This is due to our choices for control 
methods. For a weaker storm, we could increase the on-board magnetic 
current to try to compensate. For stronger storms, the increase in on-
board magnetic current would not be enough to overcome the weakness in 
the Earth's magnetic field. In these cases, we need to go to a thruster 
control mode. These methods will allow for the continued control of 
roll. As both methods will cause problems with yaw control, it is 
important to know how long the storm will continue in order to correct 
the yaw error.

Post Processing
    As part of the due diligence that is performed after every 
spacecraft anomaly, the SEC data is also analyzed. This is done to see 
if there is a link between the Solar environment and the anomalous 
condition. On every fish bone analysis Loral has been a part of, the 
solar environment plays an important part. Often this information has 
been critical in identifying the space environment as being the cause. 
This has led to modification of the spacecraft design to improve its 
immunity to the spade environment and to eliminate the particular 
failure mode.
    Loral also uses the archive data from the SEC during the spacecraft 
deign and analysis activities.

Question 3

How would you compare our knowledge today of the impacts of space 
weather on satellite operations to what we knew five years ago, and to 
what we expect to know five years from now?

Last five years
    During the last five years, we have expanded our understanding of 
the solar environment greatly. However, the biggest change in the last 
five years goes beyond what we have learned. The biggest change is in 
how we utilize it. Five years ago there was less information available 
(as far as what is being monitored), and it was difficult to work with 
(fax, paper copies, etc.). This has improved over the last five years 
to allow better access to the information. Data is now available online 
and viewable at an individual engineers terminal.
    Having this data available has allowed a larger team across the 
industry to analyze the information to show relations to other events. 
One example is on one of our spacecraft. If we get a solar storm of 
sufficient magnitude late in an eclipse season, we often also get a 
transponder shut off coincident with it.
    Having the Solar Environment data available allows us to better 
understand patterns that might otherwise never be understood.
Next five years
    I think the industry push at this point is on two fronts:

        1) The need for a more reliable early warning system. There 
        has been much individual work on this from many sources. Though 
        the obstacles to overcome are daunting, this would be the 
        single biggest improvement for the next five years.

        2) The improvement in the knowledge of the space environment. 
        Although we have made great strides in understanding of the 
        space environment, there are still several holes in on 
        knowledge. Improved detectors and analysis tools are needed to 
        provide for better spacecraft designs. Another area of 
        improvement is modeling for specific orbit location. This is a 
        4D (3 axis with time) modeling to view how the local orbit 
        environment changes with time.

Question 4

What would be the impact to your organization if SEC were no longer 
able to provide its space weather forecasts? Please provide specific 
examples when possible.

Impact
    The impacts to Loral of not being able to access the SEC would be 
severe. Many of these have been mentioned in the answers to the 
previous questions.
    One spacecraft whose health would be most adversely affected would 
be the spacecraft that exhibits an anomaly with its solar array drive 
electronics. On this spacecraft, when a maneuver is performed during 
elevated solar activity, the solar array drive electronics switches 
into an illegal state (stopping the solar array). Each time this has 
happened, the solar array drive electronics have been commanded back 
into a normal state successfully. There is a concern that if this 
phenomenon were allowed to occur too often, we would be unable to 
command the solar array drive electronics back into a normal state. 
Without the SEC information, Loral would not be able to cancel 
maneuvers based on solar environment levels and consequently we would 
not be able to avoid this circumstance.
    Service outages would also be more often and longer in duration. By 
having space weather forecast available, Loral is able to prepare in 
advance for potential situations. For example if a major proton event 
is expected (or occurring), the spacecraft can be configured to better 
ignore earth sensor glitches. In addition, the Satellite Control Center 
(SCC) can be prepared for potential anomalous events associated with 
the storm. In the case of an earth sensor glitching problem growing to 
a more serious problem on the spacecraft, the SCC can often reconfigure 
before any problems affects service. In the case of a magnetics loss of 
control, the sooner the SCC configures the spacecraft for the solar 
storm, the lower the attitude error will be.
    Another way in which Loral would be affected is the overall 
spacecraft design quality. Spacecraft Manufacturers use information 
learned in anomaly investigations to improve their future designs. The 
better they are able to determine root causes to problems, the better 
they will be able to improve their designs. The best way to ensure the 
highest quality root cause analysis is to ensure access to the best 
data. This includes in-orbit telemetry data, design documents and space 
weather data. If information on the space environment were not 
available the spacecraft manufacturer would note able to consider this 
in the design and testing of his spacecraft or correlate design 
improvements on orbit.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Ehlers. And thank you. And thank you to all of the 
witnesses. Very good testimony.
    We will now proceed with questions. And the Chair will ask 
the first questions. We each have five minutes, and we will--
and that includes both the question and your answer, but we 
won't cut your answer off in mid-sentence, so don't worry about 
that.

                 Space Environment Center (SEC) Funding

    First, I have a question. I hate to ask yes or no 
questions, but this is a simple one, and I would like to ask 
each of you to respond with a yes or no answer. In your 
opinion, should the Federal Government reduce or eliminate 
funding for NOAA's Space Environment Center? Dr. Hildner.
    Dr. Hildner. My answer is that the funding should not be 
reduced or eliminated.
    Chairman Ehlers. Colonel Benson.
    Colonel Benson. No.
    Chairman Ehlers. Dr. Grunsfeld.
    Dr. Grunsfeld. No.
    Chairman Ehlers. Kappenman.
    Mr. Kappenman. No.
    Chairman Ehlers. Krakowski.
    Captain Krakowski. No, sir.
    Chairman Ehlers. Hedinger.
    Dr. Hedinger. No, sir.
    Chairman Ehlers. Thank you.

       The Appropriate Organization for Forecasting Space Weather

    Second is--I would like to ask another question. Is there a 
compelling reason why the functions of the SEC should be moved 
to another agency, without specifying the agency? For example, 
is NOAA not providing services to you at the expected level or 
in the useful manner, or do you think some other branch of 
government would be more effective? Again, we will go reverse 
this time. Dr. Hedinger.
    Dr. Hedinger. I believe the NOAA SEC is the most 
appropriate place to have this fall.
    Chairman Ehlers. Okay. Captain Krakowski.
    Captain Krakowski. Mr. Chairman, we believe that this is 
one of the finest examples of a well-running effort, and we 
don't see any reason at all to make a change.
    Chairman Ehlers. Mr. Kappenman.
    Mr. Kappenman. Since I wear both the power industry hat as 
well as a commercial provider that essentially competes with 
SEC in some aspects, I would like to answer that we think SEC 
is the most appropriate agency from both perspectives.
    Chairman Ehlers. That reminds me, incidentally, of someone 
I knew who once questioned the need for NOAA and the National 
Weather Service said, ``I get all of the weather I need from 
the TV programs.'' Since you--unfortunately, it was a 
Congressman, but he lost his next election. But at--from your 
position as both a user and competitor, that is a very 
meaningful answer.
    Dr. Grunsfeld.
    Dr. Grunsfeld. I think that the Space Environment Center 
and its relationship with NASA and I know for the United States 
Air Force and NOAA that this is a good example of how 
government agencies work well together, so I see no compelling 
reason why we would want to move it.
    Chairman Ehlers. Colonel Benson.
    Colonel Benson. I--sir, I would see no compelling reason to 
move the functions.
    Chairman Ehlers. And Dr. Hildner, I assume I know your 
answer, but go ahead.
    Dr. Hildner. I think you know NOAA's answer, but let me 
comment that our partnerships with the other agencies are 
already so good that I see no compelling reason to move space 
weather services out of NOAA.
    Chairman Ehlers. I--let me just add that--I believe it was 
Captain Krakowski mentioned another point and that is, although 
I am sure that one of the military arms of the government could 
easily do this, there is also the possibility of filtering 
during a time of national emergency that simply the information 
would not flow freely. And I think we want to avoid that as 
well, in spite of their ability to do this.
    Another follow-up question on that, and that is, would it 
make any sense for a non-governmental agency to do this either 
on a fee-for-service basis, excuse me, or under government 
contract? And we will go this way again. Dr. Hildner.
    Dr. Hildner. Thank you.
    We regard space weather as extremely analogous to the 
meteorological weather service. And so many of the arguments 
that we apply to the meteorological services and why those 
should be free to all users I believe apply equally to the 
space weather service. Let me comment with Mr. Kappenman 
sitting here that NOAA tends to predict and synthesize the 
space weather environment, and we leave it to commercial folks, 
for a fee, to tailor those products to specific systems that 
are affected by space weather events.
    Chairman Ehlers. Colonel Benson.
    Colonel Benson. No, sir, I wouldn't be in favor of changing 
who provides the data and how it is being procured.
    Chairman Ehlers. Dr. Grunsfeld.
    Dr. Grunsfeld. Well, at NASA, we are very protective of our 
national assets in space, as I am sure the Air Force is, as 
well. And we have a very good relationship with the SEC in 
meeting our needs, and I think we see no reason why we would 
want to change that.
    Chairman Ehlers. Mr. Kappenman.
    Mr. Kappenman. I also don't believe that it would be very 
practical or efficient to transfer this sort of function wholly 
to a commercial provider.
    And if I could just speak a few seconds on the nature of 
the partnerships that we see developing in the commercial 
providers of space weather forecasts versus what NOAA does. If 
we look at NOAA's mission, they are to provide public 
information. And we actually see the medical industry as being 
how we are aligning ourselves and forming ourselves. Where NOAA 
is the general practitioner, handles most of the medical 
situations, but where you have a very serious space weather 
health problem from an infrastructure operator standpoint, you 
should be working with a specialist who can take that NOAA 
information and also knows how your infrastructure is impacted 
and work with you very closely on those very serious problems.
    Chairman Ehlers. Are you going to change your name from 
Applied Power to Applied Clinic?
    Captain Krakowski.
    Captain Krakowski. When I consider the evolution of our 
navigation systems to become more dependent on satellites, and 
the FAA is another government agency that we have to work with 
in our navigation and communication issues, it seems like 
keeping it within a federal functionality seems right to us.
    Chairman Ehlers. Okay. Dr. Hedinger.
    Dr. Hedinger. Thank you.
    Yes, at this point in time, I think that the services that 
are provided by NOAA SEC are generally applicable across a very 
broad environment, which is the right place to have a 
government service provide it. It spans the commercial 
industry, the government industry, and very many other types of 
functions. Clearly, there are opportunities for some secondary 
applications that would be in the area of this--that we have 
just described here. But the functions that NOAA SEC perform 
would definitely be----
    Chairman Ehlers. Thank you for your comments. My time is 
expired, but I hope you will also, as individuals, express 
those opinions outside this room with the other Members of 
Congress who are involved in this situation.
    My time is expired. I am pleased to recognize the Ranking 
Member, Mr. Udall.

         SEC Budget Compared to Other Federally Funded Programs

    Mr. Udall. Thank you, Mr. Chairman. If I might, I would 
like to build on your line of questioning and start with the 
three witnesses who serve in the public sector.
    And if I could, I would like to put the SEC's $8 million 
budget into context. As I see it, the--that budget is a very 
small part of the total federal budget for space weather. And 
Dr. Hildner, if I could start with you and move across, how 
does the SEC's budget compare with federal funding for the 
design, development, acquisition, and operation of space and 
ground-based sensors and for the research that has made space 
weather possible?
    Dr. Hildner. I am reluctant to answer about the details of 
the expenditures in other agencies, but I believe that it is in 
the billions--or a billion dollars or so of research and sensor 
development for--that is applicable to space weather.
    Mr. Udall. Colonel Benson.
    Colonel Benson. Could you repeat your question, sir?
    Mr. Udall. What I was trying to get at is we spend $8 
million for the SEC function, but I wanted to put that in the 
context of all of the assets that we deploy as well as the 
research and development that we do in other federal arms.
    Colonel Benson. I can't speak for the total amount in the 
rest of the federal arms, but it is a minute fraction compared 
to the value of the assets that we have on orbit and that we 
spend for R&D.
    Mr. Udall. Dr. Grunsfeld, before you reply, I just want to 
welcome you. It is nice to see you again. Dr. Grunsfeld visited 
Boulder and the Ball Aerospace Company and has done some great 
work in repairing the Hubble Telescope as a space walker. And 
he is also a climber, and he fit in that comment about the--
that small subset of interested people who ascend high 
mountains above 8,000 meters who would be subject to space 
weather events. And we want to take care of those people as 
well. So welcome, and great to see you here.
    Dr. Grunsfeld. Thank you very much. Thank you for that 
recognition.
    The--NASA has, you know, quite a few number of assets. Just 
in space science alone, I think we have about 30 satellites 
that are operational right now, including the Hubble Space 
Telescope, which, I think, was about $1.6 billion. And so if 
you look at the $8 million as a kind of insurance policy, you 
know, it would be an usually small percentage compared to any 
other insurance that anybody would consider. It is, you know, 
certainly less than a percent.
    Mr. Udall. Thank you. And yes, it is great to see you here, 
and thanks for all that you do.

                Private Sector Interaction With the SEC

    If I could extend now a set of questions to those of you 
from the private sector, and your testimony, I think, was very 
compelling. And I think you have answered this in part, but I 
want to give you another chance to amplify on your comments. Is 
your interaction with the SEC a one-way interaction? In other 
words, do you receive these forecasts or do you--are you also 
in a position where you are solicited for advice and input from 
the SEC?
    Mr. Kappenman. Clearly, it is a two-way relationship. We 
depend, of course, very heavily upon the SEC to gather and 
disseminate data at high quality, high cadence that is needed 
for these environments. We do have a very successful and 
healthy interaction on what the important features of the 
environment are, where we can both serve the Nation and the 
important infrastructures better through things that we can do 
better in the space environment fields.
    Captain Krakowski. While we use their products on a daily 
basis, the products themselves are not very useful unless we 
understand how to use them. And I think one of the greatest 
interactions of SEC was them opening their doors to us and 
their arms to have us come out to Boulder and learn all about 
this phenomena before we started to do this kind of flying. So 
it is very interactive and we do appreciate their warmth and 
their ability and willingness to help educate companies like 
ours on these sorts of issues.
    Mr. Udall. Dr. Hedinger.
    Dr. Hedinger. Thank you.
    Yes. I would like to reiterate that this is a very 
interactive relationship and a very customer-friendly 
relationship. The progress that has been made here in the last 
five years of getting real-time online access to data that we 
use on a day-to-day basis. In fact, our satellite control 
center right now is determining how to reconfigure satellites 
to minimize impacts.
    Mr. Udall. Thank you.

               SEC Improvements Within the Current Budget

    If I could turn back to Dr. Hildner. Dr. Hedinger testified 
that Loral Skynet expects to see a series of things over the 
next five years: a more reliable warning system, improvements 
in knowledge of the space environment, improvements in dynamic 
modeling for specific orbit locations, and other changes and 
added products. Do you think NOAA or other partner agencies 
could supply these improvements if the funding level would 
remain at the $5 million proposed point at this time?
    Dr. Hildner. No. I could amplify that answer, if you would 
like.
    Mr. Udall. I--no, I think that is perfect.
    If I might just get one last question in and to Dr. Hildner 
once again. The testimony here, I think, suggests that we ought 
to be investing more in space weather. I am assuming that the 
budget, the Administration's budget of $8 million would 
maintain current capabilities and provide some funding for 
improvements. What opportunities would we be missing if we 
don't invest in additional efforts when it comes to space 
weather forecasting?
    Dr. Hildner. You are absolutely correct that at the 
President's requested level we would be able to maintain our 
operations and make modest improvements. But we stand at a 
confluence of increasing demands, and some of which you have 
heard about today, and expectations from our customers, and at 
the same time, a great increase in opportunity. The DOD, NSF, 
and NASA are spending a great deal of money for research, new 
sensors, and so forth, which SEC, even at the President's 
requested budget, will not be able to incorporate into 
operations. In other words, the Nation's investment in space 
weather services improvements will not be garnered if SEC 
continues on at its current level of effort.
    Mr. Udall. I thank the panel and the Chairman for his 
forbearance in extending a little more time to me. This is a 
very important topic. Thank you again.
    Chairman Ehlers. Thank you.
    We have a few more questions, and so we will start a second 
round. I understand Mr. Gutknecht does not--so I will begin 
with the second round. And I would point out, incidentally, 
before I do that, that again, I did a quick mental calculation. 
If you should receive the President's request, which is $8 
million, that comes to just a bit more than three cents per 
capita in the United States. When you consider that if a 
commercial satellite went out that was carrying a television 
program, everyone would spend eight cents to call their TV--
cable provider to complain, they would spend more than twice as 
much as they are spending to maintain the warning system.

     Sensors Aboard the Aging Advanced Composition Explorer (ACE) 
                               Spacecraft

    My next question is for Dr. Hildner, Grunsfeld, and Colonel 
Benson. One of the most vital sensors for providing advanced 
warning in radiation and magnetic storms is located on, pardon 
me, NASA's Advanced Composition Explorer, sometimes called the 
ACE spacecraft. Yet this spacecraft is currently operating 
beyond its design life and there are no plans to continue 
collecting this type of solar wind data once ACE ceases to 
operate. Are NOAA, NASA, and the Air Force planning for a way 
to continue obtaining this vital data? And we will start with 
NOAA on this one. Dr. Hildner.
    Dr. Hildner. The difficulty with the ACE spacecraft 
approaching its end of life and the possibility of not getting 
those enormously important data has been recognized in NOAA. 
And we are considering requesting the Congress for additional 
funds to obtain those data.
    Chairman Ehlers. Let me just ask, the NPOESS satellites 
will be going up. It is a joint Air Force/NOAA effort. Could 
a--could one of these sensors be added to that satellite?
    Dr. Hildner. NPOESS will have an improvement in the near-
Earth space environment sensors, but because they are in polar 
orbit near Earth, they do not give us that advanced warning 
that the ACE satellite does one percent of the way from the 
Earth toward the sun out in the solar wind.
    Chairman Ehlers. One percent, you said, of the distance?
    Dr. Hildner. The ACE is stationed at----
    Chairman Ehlers. It is about nine million miles?
    Dr. Hildner. It is about----
    Chairman Ehlers. Fifteen kilometers----
    Dr. Hildner. About one million miles. It is 93 million 
miles to the sun, so one percent----
    Chairman Ehlers. Right.
    Dr. Hildner [continuing]. Is about one million miles----
    Chairman Ehlers. Yeah. Right.
    Dr. Hildner [continuing]. Toward the sun from Earth, and 
that is the place where the Earthward forces and the sunward 
forces balance and the spacecraft will sit there.
    Chairman Ehlers. Yeah.
    Colonel Benson.
    Colonel Benson. Sir, we rely on the ACE data for the solar 
wind estimation. The Air Force has just launched, as of two 
weeks ago, a new block of DMSP satellites, Defense 
Meteorological Satellite Program. And in this new block of 
satellites, we have a series of space weather sensors on there. 
But they are in the low-Earth orbit, and they don't have a 
package specifically designed to do what the ACE program does.
    Chairman Ehlers. Dr. Grunsfeld.
    Dr. Grunsfeld. Hopefully the ACE spacecraft will keep 
operating beyond its nominal lifetime margin for a good, 
healthy long time. And the National Academy, in its NRC report, 
did identify the source of these types of data as being 
critically important. And so that is something that the Office 
of Space Science, you know, has in its strategic planning. But 
as yet, I am not specifically aware, for our research 
activities, of any plans to replace that capability.
    Chairman Ehlers. Is this an expensive satellite?
    Dr. Grunsfeld. It is one of our explorer class satellites, 
and, you know, I am not sure what, in this context, 
``expensive'' is. It is not--you know, it is not in the, you 
know, great observatory class. It is one of the smaller 
satellites.
    Chairman Ehlers. Yeah. Okay. I--we will have to pursue that 
in the Committee, and--because I think that is a self-evident 
thing to do.
    Dr. Grunsfeld. And we can provide you with more information 
about some of the experiments in the pipeline and how they 
might relate to this.
    Chairman Ehlers. All right. I would appreciate that, 
because it shouldn't be that expensive if it is a single-
purpose satellite. It takes--of course, it takes a fair amount 
of horsepower to get it up that far, but that is something we 
will pursue.
    I have no other questions at the moment. Mr. Udall, do you 
have----

          Vulnerability to Industry From Space Weather Events

    Mr. Udall. Thank you, Mr. Chairman. I would like to take 
this opportunity to direct a couple of questions at the 
witnesses from the private sector.
    Would you say that your organizations operations have 
become more vulnerable to space weather events over time or is 
it solely a matter of having gained a better understanding of 
the link between space weather events and specific problems you 
encounter during operations? Again, we can start with Mr. 
Kappenman and move across.
    Mr. Kappenman. Yeah. In the prepared testimony, I do cite 
quite a bit of evidence that the power industry has learned 
that indicates that we are, because of various design changes, 
growth of the power grid and so forth, we are unequivocally 
growing more and more vulnerable to space weather. That being 
said, we are also learning much about space weather impacts. 
And we may not know exactly how vulnerable we really are. We 
know right now we are extremely vulnerable.
    Mr. Udall. Um-hum.
    Mr. Kappenman. And we also know that it is not going to be 
easy to become unvulnerable or invulnerable and undo what has 
essentially transpired through billions of dollars of 
investment in infrastructure, 50 years or more of development 
of that infrastructure.
    Mr. Udall. Captain Krakowski.
    Captain Krakowski. Thank you, sir.
    Yeah, we are--five years ago, were it not for the ability 
to have airplanes fly over 16 hours, we really could not even 
entertain dealing with such a risk. But now with the commercial 
opportunities opening up wider between Asia and the United 
States and the ability to fly longer range flights with the new 
technology airplanes coming up, this is somewhat new to us----
    Mr. Udall. Um-hum.
    Captain Krakowski [continuing]. Which is why we are so 
interested in it.
    The other aspect of it is, well, as we contemplate moving 
more toward GPS-type navigation systems and away from land-
based systems, there is an additional concern of what this kind 
of weather--solar weather impact would mean to that very 
critical infrastructure. And I think we are still in the 
learning mode with some of that.
    Mr. Udall. Dr. Hedinger.
    Dr. Hedinger. Thank you, Congressman Udall.
    I think there are really two areas here. One is just the 
volume of services that have grown over the last several years. 
An example is the direct to home market. Now we have 
approximately 20 million households erect a home receiver. Five 
years ago, how many was that? But it has changed dramatically, 
and that continues to grow. But it is just the amount of 
business that is in space, the amount of business that depends 
on space for its revenue, so that is becoming more critical.
    The other thing is the new technologies that are being 
developed. With the--there is a move toward on-board processing 
to be able to provide more efficient communications and more 
economical access services. An example is the new KA band on-
board processing satellites. These are likely to be more 
sensitive to space weather since there are computer chips, et 
cetera, on board the spacecraft.
    Thank you.

      Vulnerability to Federal Agencies From Space Weather Events

    Mr. Udall. Perhaps I could ask the government witnesses to 
comment on this as well, if you would, and again, Dr. Hildner--
and I--if I restate the question. Would you say that 
organizations in the government operations have become more 
vulnerable to space weather events over time or is it solely a 
matter of having gained a better understanding of the link 
between solar weather events and specific problems that we 
encounter during operations?
    Dr. Hildner. I would say it is the former. We have become 
more vulnerable, and partly because we have become more 
technological and those technological systems, as we become 
more dependent upon them, they, in fact, are becoming more 
vulnerable. And so we are becoming more vulnerable.
    Mr. Udall. Colonel Benson.
    Colonel Benson. Sir, I would agree with Dr. Hildner. I 
think we are more vulnerable as we require--rely more and more 
on space-based assets. Those vulnerabilities are there for the 
assets that we have on orbit. Even our Global Positioning 
System has effects from space weather as far as the errors that 
are driven by space weather events. So our dependency on GPS 
has also magnified the impacts of a space weather event on 
navigation systems.
    Mr. Udall. And I--space command based in Colorado, and I 
was sure that General Lord and others would underline what you 
had to say about the effects on our space command.
    Dr. Grunsfeld.
    Dr. Grunsfeld. Well, I think first and foremost, we are 
interested in the safety of our crew. And I am very proud to 
say that, you know, we are coming up on having three years of 
human international crews living in space all of the time, 365/
24/7. And so in that respect, we certainly are more vulnerable. 
In addition, we are kind of a victim of our own success in 
technology in that the capability of the microchips and the 
technology that goes into constructing all of the space assets 
that we have talked about have gotten a lot smaller and more 
compact and using technology that, in a sense, is more 
vulnerable to space radiation.

             Relationship With the International Community

    Mr. Udall. I thank the panel, and I might extend a request 
to the Chairman, I--we--one area we didn't cover was the 
relationship we have with the international community and their 
space weather forecasting capabilities and how we coordinate 
and whether there would be an effective--if the SEC was to be 
put out of business or the funding--the necessary funding 
wasn't in place, but----
    Chairman Ehlers. Dr. Hildner, if you would just like to 
just answer that, comment on that.
    Dr. Hildner. I would be happy to. In the interest of time, 
we had not mentioned our international partnership. There is an 
outfit called the International Space Environment Service. It 
has 12 regional warning centers around the world. NOAA's center 
in Boulder is one of those regional-warning centers. All of 
those centers exchange data actually through Boulder every day. 
And then Boulder synthesizes all of that information and puts 
out the global forecast as the world-warning agency of the 
International Space Environment Service. Of course, that would 
all go away if we were eliminated.

             The Vital Role and Responsibilities of the SEC

    Chairman Ehlers. The gentleman's time is expired. I would 
just like to conclude this hearing by several comments. First 
of all, it is obvious to me from your comments, Mr. Udall, that 
far too much government money is going to Colorado. And 
probably the SEC should move to Michigan where it would be 
closer to the Aurora Borealis. You could at least have the 
pleasure of observing that. More importantly, it is clear from 
today's hearing that the services that NOAA's SEC provides are 
unique and vital to our nation and its citizens every day, much 
more so than people realize, and as we just heard, also 
important to those of other countries.
    Secondly, it is neither within the mandate nor the mission 
of the Air Force or NASA to take on these crucial 
responsibilities. And it is my opinion that a transfer of this 
sort, at this time, would require significant expenditures on 
the part of the Federal Government and certainly above the $8 
million sought by the Administration for the SEC. It would also 
be very disruptive to the entire program.
    So I believe that it is certainly advisable that this 
committee go on record as preserving the SEC precisely where it 
is. There is no reason to change it. ``If it ain't broke, don't 
fix it,'' as the old saying goes, and so let us keep it going. 
And I hope--we will certainly pass this information on to the 
appropriators in the House and Senate. And I hope that all 
other interested parties would express that as well.
    The fact that we are discussing this precisely as a space 
storm is occurring, and I understand that Japan has lost--
temporarily lost one satellite and is about to lose another, 
indicates the importance of the work that is being done here.
    Before I close, I just simply have a little housekeeping. 
I, first of all, want to thank you very, very much for your 
participation. We couldn't have had a better panel, broadly 
representative of the issue in both the governmental sector and 
the industry, and I appreciate your time. And above all, I 
appreciate your wisdom. So thank you for taking the time to be 
here.
    If there is no objection, the record will remain open for 
additional statements from the Members and the answers to any 
follow-up questions the Subcommittee may ask of the panelists. 
And without objection, so ordered. And I would assume you would 
be willing to respond to questions in writing, should they come 
up.
    Thank you again for your service, and it is my pleasure to 
declare the hearing adjourned just in time for another vote. 
The hearing is adjourned.
    [Whereupon, at 12:03 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


    Biographies, Financial Disclosures, and Answers to Post-Hearing 
                               Questions

                      Biography for Ernest Hildner

    Dr. Hildner is the Director of NOAA's Space Environment Center. The 
Center is the Nation's 24-hour-a-day center for alerts, warnings and 
watches related to space weather. Under his direction, SEC also 
conducts research and consults on space weather instrument development 
for NOAA, NASA, and the Aid Force.
    Dr. Hildner is a solar physicist who has worked for the High 
Altitude Observatory, NCAR, and at NASA Marshall Space Flight Center as 
head of its Solar Physics Branch. He was fortunate to be experiment 
scientist for Skylab and the Solar Maximum Mission during the 70's. His 
scientific speciality is coronal and interplanetary physics, in which 
he has published dozens of papers. He co-holds one patent for a 
variable-magnification x-ray telescope.
    In addition to his administrative responsibilities with NOAA, Dr. 
Hildner is a Co-chair of the Committee on Space Weather for the 
National Space Weather Program, is a member of the advisory committees 
for the NOAO National Solar Observatory and NCAR High Altitude 
Observatory, and serves on review panels for NASA and DOD projects.

                   Answers to Post-Hearing Questions

Responses by Ernest Hildner, Director, Space Environment Center, 
        National Oceanic and Atmospheric Administration

Space Environment Center

Q1. In Col. Benson's written testimony it is mentioned twice that the 
complementary nature of the Air Force Space Weather Operations Center 
and the SEC allows each agency to realize significant cost savings. 
What is the dollar amount saved as a result of the Air Force and NOAA 
collaboration on space weather?

A1. The National space weather enterprise, with complementary service 
centers in NOAA and U.S. Air Force Weather, depends on a critical 
shared database with contributions from NOAA and the USAF complementing 
each other. However, the savings to the Nation go far beyond the 
collaborating service centers. NOAH would have to replace and pay for a 
large fraction of the USAF-provided data if USAF no longer provided it. 
Conversely, USAF would have to pay tens of millions of dollars per year 
for the sensors and their data now provided by NOAA, should NOAA no 
longer provide them.
    USAF operates the ground-based Solar Environmental Observing 
Network of observatories around the world. NOAA has no equivalent data 
in the near-term for the data provided by this $20M per year network. 
Additionally, USAF pays the U.S. Geological Survey $150k per year to 
help it operate a ground-based magnetometer network so the data can be 
provided in near real-time to both USAF and NOAA. NOAA's Space 
Environment Center distributes to the public some products created at 
U.S. Air Force Weather Agency's center in Omaha; one of these is the 
immediate, three-hourly estimate of the value of the index 
characterizing global geomagnetic activity. This index is of great 
interest to civilian users; NOAA would have to create the product if 
USAF did not, at an estimated expense of $2M to port the software. 
Finally, USAF Space Command flies sensors on the Defense Meteorological 
Space Program (DMSP) series of spacecraft. The data are archived at 
NOAA's National Geophysical Data Center and used by Space Environment 
Center. The model NOAA plans to use to characterize and predict the 
ionosphere is being developed with USAF funding of about $10M and will 
be driven by data from DMSP. NOAA will save the $10M up-front cost of 
the model and the annual cost of fabricating and flying the instruments 
and getting the data because of USAF investments.
    In all, we estimate that NOAA would have to spend several tens of 
millions of dollars per year to sustain the same level of services if 
USAF dropped from the national collaboration in space weather.

Q2. One of the most vital sensors for providing advanced warning of 
radiation and magnetic storms is located on NASA's Advanced Composition 
Explorer spacecraft. Yet, this spacecraft is currently operating beyond 
its design life and there are no plans to continue collecting this type 
of solar wind data once ACE ceases to operate. Are NOAA, NASA and/or 
the Air Force planning for a way to continue obtaining this vital data? 
If so, please explain the strategy.

A2. Real-time solar wind measurements from upstream of Earth, now 
obtained from NASA's ACE research spacecraft, are among the most vital 
data for providing space weather services. The ability to warn of 
geomagnetic storms approximately an hour in advance is due solely to 
these data. Delayed solar wind measurements, available from other NASA 
spacecraft operating in a ``store and dump'' mode, are of no 
operational benefit, though they have research value. ACE has already 
completed its prime research mission, but has been selected by NASA for 
extended operations, because of new, high-priority scientific goals 
that can be addressed with this valuable national asset. The spacecraft 
has enough propellant on board to maintain its new, looser, non-optimal 
for space weather purposes, orbit around Lagrange Point 1 (L1) until 
late into the next decade.
    ACE has been a unique resource in that it continuously transmits, 
all day--every day, in near real-time, solar wind and energetic 
particle data that can be acquired by relatively small ground-based 
antennas. No other spacecraft can do that; unless the ACE capability 
for space weather is replaced, when ACE dies NOAA, its partners, 
industrial space weather service companies, and end users will all lose 
valuable products and services. Geomagnetic storms are especially 
important to electric power grid operators and radio communicators 
(including airlines).
    NOAA, NASA and the USAF, will continue to consider options for 
providing ACE-like data.

                  Biography for Charles L. Benson, Jr.

    Colonel Charles L. Benson, Jr., is commander of the Air Force 
Weather Agency. He leads over 900 agency members at 20 locations around 
the world providing centralized weather products and services, 
including climatological and space weather support, to USAF, U.S. Army, 
special operations national intelligence community and other DOD 
activities. He executes a worldwide weather support mission, that 
provides decision assistance to combat, reconnaissance, command and 
control, presidential support, treaty verification and airlift missions 
directed by the Joint Chiefs of Staff, theater commanders, and major 
command commanders.
    Colonel Benson has served as a wing weather officer in Korea; 
executive assistant to the Commander, Air Weather Service, Scott AFB, 
IL; and Chief of the Advanced Systems Management Section, Offutt AFB, 
NE. He has commanded a weather detachment in Kansas and served as a 
program element monitor in Headquarters USAF's Directorate of Weather. 
Colonel Benson was assigned to Headquarters USAF's Directorate of 
Operational Requirements as Chief of Force Enhancement Requirements. He 
has served as Director of Weather for Headquarters Air Mobility 
Command's Tanker Airlift Control Center; Chief of Protocol for the 
Commander in Chief, United States Transportation Command; and Deputy 
Commander, 60th Support Group, Travis AFB, California.
    Prior to his arrival at Offutt AFB, Colonel Benson commanded the 
United States Air Force Academy's 34th Support Group.

EDUCATION

1977 Bachelor of Science degree in Meteorology, Texas A&M University
1978 Officer Training School, Maxwell Air Force Base, Ala.
1985 Master's degree in Meteorology, St. Louis University
1986 Air Command and Staff College (Correspondence)
1990 Distinguished Graduate, Naval War College's Naval Command & Staff, 
        Naval War College, Newport, R.I.
1991 Master's degree in National Security & Strategic Studies, Naval 
        War College, Newport, R.I.
1995 Air War College, Maxwell Air Force Base, Ala.

ASSIGNMENTS AND DATES

 1. September 1978-April 1981, wing weather officer, 463rd Tactical 
Airlift Wing, Dyess AFB, Texas
 2. April 1981-June 1982, wing weather officer, 8th Tactical Fighter 
Wing, Kunsan Air Base, Korea
 3. June 1982-January 1984, executive assistant to the commander, Air 
Weather Service, Scott Air Force Base, Illinois
 4. January 1984-June 1985, student, St. Louis University, St. Louis, 
Missouri
 5. June 1985-October 1987, chief, Advanced Systems Management 
Section, Air Force Global Weather Central, Offutt Air Force Base, 
Nebraska
 6. October 1987-August 1990, commander, Detachment 23, 9th Weather 
Squadron, McConnell Air Force Base, Kansas
 7. August 1990-December 1991, student, Naval War College, Newport, 
R.I.
 8. December 1991-November 1992, program element monitor, Deputy Chief 
of Staff for Air and Space Operations, Headquarters U.S. Air Force, 
Washington, D.C.
 9. November 1992-August 1994, chief, Force Enhancement Requirements, 
Directorate of Operational Requirements, Deputy Chief of Staff for Air 
and Space Operations, Headquarters U.S. Air Force, Washington, D.C.
10. August 1994-June 1995, student, Air War College, Maxwell Air Force 
Base, Alabama
11. June 1995-September 1997, director of weather, Tanker Airlift 
Control Center, Headquarters Air Mobility Command, Scott Air Force 
Base, Illinois
12. September 1997-August 1998, chief of protocol, U.S. Transportation 
Command, Scott Air Force Base, Illinois
13. August 1998-April 1999, deputy commander, 60th Support Group, 
Travis Air Force Base, California
14. April 1999-May 2001, commander, 34th Support Group, U.S. Air Force 
Academy, Colorado Springs, Colorado
15. May 2001-August 2002, vice commander, Air Force Weather Agency, 
Offutt Air Force Base, Nebraska
16. August 2002 to Present, commander, Air Force Weather Agency, 
Offutt AFB, Nebraska

AWARDS AND DECORATIONS

Legion of Merit

Meritorious Service Medal with five oak leaf clusters

Air Force Commendation Medal with one oak leaf cluster

Air Force Achievement Medal

EFFECTIVE DATES OF PROMOTION

Second Lieutenant August 15, 1978

First Lieutenant August 15, 1980

Captain August 15, 1982

Major June 1, 1989

Lieutenant Colonel June 1, 1993

Colonel April 1, 1999
                   Answers to Post-Hearing Questions
Responses by Colonel Charles L. Benson, Jr., Commander, Air Force 
        Weather Agency

Questions submitted by Chairman Vernon J. Ehlers

Vital Sensors

Q1. One of the most vital sensors for providing advanced warning of 
radiation and magnetic storms is located on NASA's Advance Composition 
Explorer (ACE) spacecraft. Yet, this spacecraft is currently operating 
beyond its design life and there are no plans to continue collecting 
this type of solar wind data once ACE ceases to operate. Are NOAA, NASA 
and/or the Air Force planning for a way to continue obtaining this 
vital data? If so, please explain the strategy.

A1. Air, Force Weather (AFW) has a requirement for solar wind data, but 
does not field space-based systems. AFW has advocated for solar wind 
data and will continue to do so. We continue to advocate for 
environmental monitoring capabilities and to leverage existing and 
proposed Air Force Space Command, NASA, and NOAA satellites and 
sensors. Once ACE ceases to operate, we will be without the data it 
provides with no other viable alternative system immediately available.

Dollar Amount Saved

Q2. In your written testimony it is mentioned twice that the 
complementary nature of the Air Force Space Weather Operations Center 
and the SEC allows each agency to realize significant cost savings. 
What is the dollars amount saved as a result of the Air Force and NOAA 
collaboration on space weather?

A2. The estimated annual space weather operations cost savings for the 
Air Force Weather Agency (AFWA) is $11.4M. This cost savings is 
comprised of $6.8M from leveraging the research and technology 
transition performed by SEC. Additionally, there would be an up-front 
cost (significantly greater that the annual operation costs of $10M) 
to initially set up all of SEC's operations and research at AWA, if 
SEC's mission was transferred to the Air Force.

                    Biography for John M. Grunsfeld

PERSONAL DATA: Born in Chicago, Illinois. Married to the former Carol 
E. Schiff. They have two children. John enjoys mountaineering, flying, 
sailing, bicycling, and music. His father, Ernest A. Grunsfeld III, 
resides in Highland Park, Illinois. Carol's parents, David and Ruth 
Schiff, reside in Highland Park, Illinois.

EDUCATION: Graduated from Highland Park High School, Highland Park, 
Illinois, in 1976; received a Bachelor of science degree in physics 
from the Massachusetts Institute of Technology in 1980; a Master of 
science degree and a doctor of philosophy degree in physics from the 
University of Chicago in 1984 and 1988, respectively.

ORGANIZATIONS: American Astronomical Society. American Alpine Club. 
Experimental Aircraft Association. Aircraft Owners and Pilot 
Association.

SPECIAL HONORS: W.D. Grainger Fellow in Experimental Physics, 1988-89. 
NASA Graduate Student Research Fellow, 1985-87. NASA Space Flight 
Medals (1995, 1997, 1999, 2002). NASA Exceptional Service Medals (1997, 
1998, 2000). NASA Distinguished Service Medal (2002). Distinguished 
Alumni Award, University of Chicago. Alumni Service Award, University 
of Chicago. Komarov Diploma (1995), Korolov Diploma (1999, 2002).

EXPERIENCE: Dr. Grunsfeld's academic positions include that of Visiting 
Scientist, University of Tokyo/Institute of Space and Astronautical 
Science (1980-81); Graduate Research Assistant, University of Chicago 
(1981-85); NASA Graduate Student Fellow, University of Chicago (1985-
87); W.D. Grainger Postdoctoral Fellow in Experimental Physics, 
University of Chicago (1988-89); and Senior Research Fellow, California 
Institute of Technology (1989-92). Dr. Grunsfeld's research has covered 
x-ray and gamma-ray astronomy, high-energy cosmic ray studies, and 
development of new detectors and instrumentation. Dr. Grunsfeld studies 
binary pulsars and energetic x-ray and gamma ray sources using the NASA 
Compton Gamma Ray Observatory, x-ray astronomy satellites, radio 
telescopes, and optical telescopes including the NASA Hubble Space 
Telescope.

NASA EXPERIENCE: Dr. Grunsfeld was selected by NASA in March 1992, and 
reported to the Johnson Space Center in August 1992. He completed one 
year of training and is qualified for flight selection as a mission 
specialist. Dr. Grunsfeld was initially detailed to the astronaut 
Office Mission Development Branch and was assigned as the lead for 
portable computers for use in space. Following his first flight, he led 
a team of engineers and computer programmers tasked with defining and 
producing the crew displays for command and control of the 
International Space Station (ISS). As part of this activity he directed 
an effort combining the resources of the Mission Control Center (MCC) 
Display Team and the Space Station Training Facility. The result was 
the creation of the Common Display Development Facility (CDDF), 
responsible for the on-board and MCC displays for the ISS, using 
object-oriented programming techniques. Following his second flight, he 
was assigned as Chief of the Computer Support Branch in the Astronaut 
Office supporting Space Shuttle and International Space Station 
Programs and advanced technology development. Following STS-103, he 
served as Chief of the Extra-vehicular Activity Branch in the Astronaut 
Office. Following STS-109 Grunsfeld served as an instructor in the 
Extra-vehicular Activity Branch, and worked on the Orbital Space Plane, 
exploration concepts, and technologies for use beyond low earth orbit 
in the Advanced Programs Branch. He is currently the NASA Chief 
Scientist detailed to NASA Headquarters. A veteran, of four space 
flights, STS-67 (1995), STS-81 (1997), STS-103 (1999) and STS-109 
(2002), Dr. Grunsfeld has logged over 45 days in space, including 5 
space walks totaling 37 hours and 32 minutes.

SPACE FLIGHT EXPERIENCE: STS-67/Astro-2 Endeavour (March 2-18, 1995) 
was launched from Kennedy Space Center, Florida, and returned to land 
at Edwards Air Force Base, California. It was the second flight of the 
Astro observatory, a unique complement of three ultra-violet 
telescopes. During this record-setting 16-day mission, the crew 
conducted observations around the clock to study the far ultra-violet 
spectra of faint astronomical objects and the polarization of ultra-
violet light coming from hot stars and distant galaxies. Mission 
duration was 399 hours and 9 minutes.
    STS-81 Atlantis (January 12-22, 1997) was a 10-day mission, the 5th 
to dock with Russia's Space Station Mir, and the 2nd to exchange U.S. 
astronauts. The mission also carried the Spacehab double module 
providing additional mid-deck locker space for secondary experiments. 
In five days of docked operations more than three tons of food, water; 
experiment equipment and samples were moved back and forth between the 
two spacecraft. Grunsfeld served as the flight engineer on this flight. 
Following 160 orbits of the Earth the STS-81 mission concluded with a 
landing on Kennedy Space Center's Runway 33 ending a 3.9 million mile 
journey. Mission duration was 244 hours, 56 minutes.
    STS-103 Discovery (December 19-27, 1999) was an 8-day mission 
during which the crew successfully installed new gyroscopes and 
scientific instruments and upgraded systems on the Hubble Space 
Telescope (HST). Enhancing HST scientific capabilities required three 
space walks (EVA). Grunsfeld performed two space walks totaling 16 
hours and 23 minutes. The STS-103 mission was accomplished in 120 Earth 
orbits, traveling 3.2 million miles in 191 hours and 11 minutes.
    STS-109 Columbia (March 1-12, 2002). STS-109 was the fourth Hubble 
Space Telescope (HST) servicing mission. The crew of STS-109 
successfully upgraded the Hubble Space Telescope installing a new 
digital camera, a cooling system for the infrared camera, new solar 
arrays and a new power system. HST servicing and upgrades were 
accomplished by four crew members during a total of 5 EVAs in 5 
consecutive days. Grunsfeld served as the Payload Commander on STS-109 
in charge of the space walking activities and the Hubble payload. He 
also performed 3 space walks totaling 21 hours and 9 minutes, including 
the installation of the new Power Control Unit. STS-109 orbited the 
Earth 165 times, and covered 3.9 million miles in over 262 hours.

                   Answers to Post-Hearing Questions

Responses by John M. Grunsfeld, Chief Scientist, National Aeronautics 
        and Space Administration

Question submitted by Chairman Vernon J. Ehlers

Q1. One of the most vital sensors for providing advanced warning of 
radiation and magnetic storms is located on NASA's Advanced Composition 
Explorer spacecraft. Yet, this spacecraft is currently operating beyond 
its design life and there are no plans to continue collecting this type 
of solar wind data once ACE ceases to operate. Are NOAA, NASA and/or 
the Air Force planning for a way to continue obtaining this vital data? 
If so, please explain the strategy.

A1. NASA's Advanced Composition Explorer (ACE) was launched in August 
1997 from the Kennedy Space Center. It carried six high-resolution 
sensors and three monitoring instruments to sample low-energy particles 
of solar origin and high-energy galactic particles with a collecting 
power 10 to 1,000 times greater than past or planned experiments. In 
addition, the ACE payload includes a real-time space weather monitoring 
capability, and NOAA has used this for space weather prediction.
    ACE has already completed its prime research mission, and in the 
2003 Senior Review process, it was selected for extended operations 
because of new, high-priority scientific goals that can be addressed 
with this valuable national asset. The spacecraft has enough propellant 
on board to maintain an orbit at Lagrange Point 1 (L1) until late into 
the next decade.
    ACE has been somewhat of a unique resource because of the type of 
solar wind data it collects; therefore, NASA has devised a plan to 
continue collecting similar solar wind data after ACE ceases to 
operate. NASA is currently moving the Wind spacecraft into L1 to serve 
as a ``hot'' backup to ACE in order to maintain our research capability 
in the area of solar wind turbulence. The Solar and Heliospheric 
Observatory (SOHO) will also provide complementary data. NASA believes 
that these resources will ensure continued research and data collection 
in this discipline in the event that ACE is no longer able to produce 
useful scientific research.

Questions submitted by Democratic Members

Q1. Is the ISS currently operating with a waiver due to the lack of 
functional radiation monitors on board?

A1. No. There are currently several functional radiation monitors on 
board the International Space Station (ISS), including both Russian and 
U.S.-provided hardware. There is a waiver in place for the Tissue 
Equivalent Proportional Counter (TEPC), which is one part of the 
overall ISS on-orbit radiation monitoring system.

Q1a. Is the fact that the Space Environment Center can provide 
predictions one of the justifications used to grant the waiver?

A1a. There is no overall waiver granted for radiation monitoring 
because there is functional equipment currently on orbit. The TEPC 
waiver was presented and approved at the 10 March 2003 ISS Vehicle 
Control Board. During the discussions regarding the waiver, continued 
availability of space weather warnings, alerts, and real-time data on 
solar proton fluxes from the Space Environment Center (SEC) were 
mentioned as an additional rationale for why it was acceptable to 
continue without the TEPC.

Q1b. Is NASA currently depending on the SEC in order to provide 
direction to the ISS crew about radiation protection actions?

A1b. Yes. Real-time data provided by the SEC are the primary 
information used in developing recommendations to the flight control 
team. This team directs the crew to take appropriate actions to 
minimize their radiation exposure.

Q1c. Did the Space and Life Sciences Directorate highlight the 
``potential that ground-tracked radiation and forecasting from 
satellites will be reduced or eliminated in FY 2004 (NOAA)'' as a 
concern in their Stage Ops Readiness Rev. meeting on Sept. 24, 2003, 
while preparing for the launch of the current ISS crew?

A1c. Yes. The Johnson Space Center (JSC) Space and Life Science 
Directorate (SLSD) highlighted the potential risk posed by the loss of 
SEC data in the September 24, 2003 SORR discussions and in the October 
2, 2003 Flight Readiness Review (FRR).

Q1d. When does the waiver expire?

A1d. The waiver for the ISS TEPC expired October 31, 2003 and is in the 
process of being extended to April 2004.

Q2. Is the failure of the TEPC one of the elements that led to the 
recommendation by two managers responsible for monitoring the ISS 
environmental systems not to launch the current crew to ISS?

A2. The lack of a functional on-orbit TEPC was one element of the 
overall degradation of on-orbit real-time environmental monitoring on 
ISS that raised concerns.

Q2a. Was their ultimate decision to agree to go ahead with the launch 
based on plans to launch a replacement TEPC aboard Progress Flight 14? 
When is that launch scheduled to occur?

A2a. Yes. Launching a TEPC on ISS Flight 14P (Progress M-49) was one of 
the specific items cited in the exception to the ISS Flight 7S (Soyuz 
TMA-3) CoFR. At the time of the CoFR, 13P was scheduled for launch in 
November 2003 and 14P was scheduled to launch in January 2004. Since 
that time, the launch of 13P has moved to no earlier than late January 
2004. As a result, NASA has requested that the TEPC be manifested on 
13P. The manifest for 13P is still under review.

Q2b. Was the TEPC replacement originally scheduled to fly aboard 
Progress 12, but removed because it cost too much to certify it to fly 
on a Russian vehicle?

A2b. The original schedule envisioned launching the TEPC in Nov. 2003 
on ISS Flight 13P. However, work on recertifying the TEPC for launch 
was delayed for several months because of funding issues. Because of 
this delay, the JSC Engineering Directorate determined that the 
hardware could not be ready for delivery in time for ISS Flight 13P, so 
TEPC was moved to ISS Flight 14P. When the 14P Progress missions 
slipped, NASA requested that the TEPC be manifested on ISS Flight 13P 
(January 2004). The manifest for ISS Flight 13P is currently under 
review. This TEPC required additional certification to meet Russian 
launch requirements (Progress launch vibration test), as well as some 
additional testing to allow operation in the Russian segment of the ISS 
(i.e., Russian power qualification).

Q2c. Is it important to have the TEPC installed aboard the ISS no 
later than January to calibrate it as the Sun approaches the minimum 
activity levels of its 11-year cycle?

A2c. Ideally, in order to be prepared for the earliest potential 
maximum crew exposure to solar radiation, the TEPC should be on orbit 
by April 2004. This date is driven by the following considerations: 
during the last solar cycle, the time of maximum crew exposure preceded 
the point of actual solar minimum by nine months; SEC's current 
projection of future solar activity levels places solar minimum 
sometime between January 2006 and July 2007. Using January 2006 as the 
earliest possible date for solar minimum, the point of maximum crew 
exposure would be nine months earlier--or April 2005. If the TEPC is on 
orbit by April 2004, NASA will be able to collect data for at least one 
year prior to the point of maximum crew exposure; this will allow us to 
develop a baseline of performance for the TEPC on orbit, as well as to 
track the exposure rise to solar minimum.

                    Biography for John G. Kappenman

Education

    Graduated with High Honors from South Dakota State University in 
1976 with a Bachelor of Science degree in Electrical Engineering. 
Member of Eta Kappa Nu, Tau Beta Pl, and Phi Kappa Phi Honor Societies.

Professional Experience

1998-Present Metatech Corp, Joined firm in Senior Management Position 
as Division Manager of Applied Power Solutions Division. He directs the 
development of products, services, and consulting that are provided to 
clientele world-wide and primarily focusing on Geomagnetic Disturbances 
& Space Weather, Lightning, and substation and power system engineering 
and related specialty products.

1977-1998 Minnesota Power Held a number of professional positions in 
the organization, 1978-1980 Special Studies Engineer, 1981-1994 
Supervisor of Transmission Planning Department, Responsible for 
Development and Conceptual Design in excess of $100 million in 
Transmission Construction Projects. 1994-1998 Manager of Transmission 
Power Engineering Department. Responsible for Substation and Control 
Engineering Functions arid associated Technology Transfer.

1995-1998 University Minnesota-Duluth Dept. of Electrical & Computer 
Engineering--Instructor for Senior Technical Elective Courses in Power 
Systems and Senior Seminar.

Other Professional Activities; Faculty Member of the Electromagnetic 
Transients Program extension courses held at the University of 
Minnesota in 1982 and at the University of Wisconsin in 1984. Faculty 
member for the EMTP courses at the University of Minnesota Extension 
Program since July 1990. He has served as Chairman of the Industry 
Advisory Board for the University of Minnesota Center for Electric 
Energy. He has served on a National Academy of Sciences Panel on the 
National Geomagnetic Initiative. In March 1997, he was invited by the 
Presidents Commission on Critical Infrastructure Protection to brief 
the Commission on the ``The Impact of Space Weather on Power Systems 
and their Operation.'' He is also a member of the Organizing Committee 
for the NATO Advanced Science Institutes Conference on Space Weather 
Hazards being held in June 2000 in Crete. Mr. Kappenman has also served 
as a member of the Science Advisory Panel in July 2000 to the NOAA 
Space Environment Center. He was on the Scientific Organizing Committee 
of the NATO Advanced Research Workshop on Effects of Space Weather on 
Technology Infrastructure (ESPRIT) held in Rhodes in March 2003. He is 
a member of the Editorial Advisory Committee to the AGU International 
Journal of Space Weather. He is one of the founders and current 
Chairperson of the Commercial Space Weather Interest Group.
    He has been an active researcher in power delivery technologies and 
his primary engineering contribution has been his research work on 
magnetic storms and their disruptive effects on electric power systems. 
He is leading a design team to develop forecasting and mitigation 
techniques. He has also been a collaborator with EPRI and Global 
Atmospherics on the development and application of the Fault Analysis 
and Lightning Location System that will allow economic Location-
Centered mitigation of lightning to transmission networks, work for 
which he has been granted a U.S. Patent. He is also one holds a U.S. 
Patent for his design of this device. He has been a principle 
investigator on a number of EPRI research projects on these and other 
subjects.
    Mr. Kappenman is one of the principle investigators under contract 
with the Commission to Assess the Threat to the United States from 
Electromagnetic Pulse (EMP Commission). The EMP Commission was 
established by Congress under the provisions of the Floyd D. Spence 
Defense Authorization Act of 2001, Public Law 106-398, Title XIV. The 
EMP Commission was chartered to conduct a study of the potential 
consequences of a high altitude nuclear detonation on the domestic and 
military infrastructure and to issue a report containing its findings 
and recommendations to the Congress, the Secretary of Defense, and the 
Director, FEMA.

Engineering, Scientific and Professional Societies

    He is a Senior Member of the Institute of Electrical and 
Electronics Engineers and the Power Engineering Society, and has served 
as the Chairman of the Transmission and Distribution Committee (1994-
1996). He is also a member of the following IEEE Working Groups: GIC 
and Power System Effects, Flexible AC Transmission, and Lightning 
Performance of Transmission Lines and Distribution Lines. He is a 
member of the American Geophysics Union. Registered as Professional 
Engineer in the State of Minnesota, License #25100.

Honors and Awards

    He is a recipient of the IEEE Walter Fee Outstanding Young Engineer 
Award. The Westinghouse Nikola Tesla Engineering Award, two IEEE PES 
Prize Paper Awards and twice awarded EPRI Innovator Awards.

Principal Publications

J.G. Kappenman, V. Koschik, F.E. Hammerquist, W.E. Reid, R.G. Rocamora, 
        ``The Existence and Control of Secondary Arc Current Harmonics 
        in Long-Line Single-Phase Reclosing Applications,'' IEEE PAS 
        Transactions, Vol. PAS-99, July/August, 1980, Paper a80 006-7, 
        page 1318.
J.G. Kappenman, ``Planning, Design, and Application of a 500kV Single-
        Phase Reclosing Scheme,'' Paper presented at the 1980 Minnesota 
        Power Systems Conference, October 14-15, St. Paul, MN.
N. Mohan, J.G. Kappenman, V.D. Albertson, ``Harmonics and Switching 
        Transients in the Presence of Geomagnetically-Induced 
        Currents,'' IEEE PAS Transactions, Vol. PAS-100, February 1981, 
        pp. 585-593.
V.D. Albertson, J.G. Kappenman, N. Mohan, G.A. Skarbakka, ``Load-Flow 
        Studies in the Presence of GeomagneticallyInduced Currents,'' 
        IEEE PAS Transactions, Vol. PAS-100, February 1981, pp. 594-
        607.
J.G. Kappenman, V.D. Albertson, N. Mohan, ``Current Transformer and 
        Relay Performance in the Presence of Geomagnetically-Induced 
        Currents,'' IEEE PAS Transactions, Vol. PAS-100, March 1981, 
        pp. 1078-1088.
J.G. Kappenman, V.D. Albertson, N. Mohan, Investigation of 
        Geomagnetically Induced Currents in the Proposed Winnipeg-
        Duluth-Twin Cities 500kV Transmission Line, Electric Power 
        Research Institute Report EL-1949, July 1981.
J.G. Kappenman, G.A. Sweezy, V. Koschik, K.K. Mustaphi, ``Staged Fault 
        Tests with Single Phase Reclosing on the Winnipeg-Twin Cities 
        500kV Interconnection,'' IEEE PAS Transactions, Vol. PAS-101, 
        March 1982, pp. 662-673.
N. Mohan, V.D. Albertson, T.J. Speak, J.G. Kappenman, M.P. Bahrman, 
        ``Effects of Geomadnetically-Induced Currents on HVDC Converter 
        Operations,'' IEEE PAS Transactions, Vol. PAS-101, November 
        1982, pp. 4413-4418.
J.G. Kappenman, F.S. Prabhakara, C.R. French, T.F. Clark, H.M. Pflanz, 
        V.D. Albertson, N. Mohan, Mitigation of Geomagnetically-Induced 
        and DC Stray Currents, Electric Power Research Institute Report 
        EL-3295, December 1983.
Editor, Coordinator, and Co-Author of the IEEE Special Publication 
        90TH0291-5 PWR, ``Effects of Solar-Geomagnetic Disturbances on 
        Power Systems,'' Sponsored by the PES Technical Council, 
        Special Panel Session Report from the IEEE FES Summer Meeting, 
        July 1989, Long Beach, CA.
J.G. Kappenman, V.D. Albertson, ``The Geomagnetic Storm of March 13, 
        1989: Power System Effects,'' Paper presented at the 1989 
        Minnesota Power Systems Conference, October 3-5, 1989, St. 
        Paul, MN.
J.G. Kappenman, ``Field Tests to Measure Large Power Transformer 
        Behavior to GIC Excitation,'' EPRI Conference on 
        Geomagnetically-Induced Currents, EPRI Publication TR-100450, 
        pages 6.1-16, November 8-10, 1989, San Francisco, CA.
J.G. Kappenman, D.L. Carlson, G.A. Sweezy, ``GIC Effects on Relay and 
        CT Performance,'' EPRI Conference on Geomagnetically-Induced 
        Currents, EPRI Publication TR-100450, pages 10.1-16, November 
        8-10, 1989, San Francisco, CA.
V.D. Albertson, J.G. Kappenman, ``Measuring GIC,'' Paper presented at 
        the EPRI Conference on Geomagnetically-Induced Currents, 
        November 8-10, 1989, San Francisco, CA.
J.G. Kappenman, V.D. Albertson, ``Mitigation of GIC,'' Paper presented 
        at the EPRI Conference on Geomagnetically-Induced Currents, 
        November 8-10, 1989, San Francisco, CA.
J.G. Kappenman, G.A. Sweezy, S.R. Norr, ``GIC Mitigation: A Neutral 
        Blocking/Bypass Device Conceptual Design and Performance 
        Evaluation,'' Paper presented at the EPRI Conference on 
        Geomagnetically-Induded Currents, November 8-10, San Francisco, 
        CA.
J.G. Kappenman, S.R. Norr, G.A. Sweezy, D.L. Carlson, V.D. Albertson, 
        J.E. Harder, B.L. Dchmsky, ``GIC Mitigation: A Neutral 
        Blocking/Bypass Device to Prevent the Flow of GIC in Power 
        Systems, IEEE FES Special Publication 90TH0357-4-PWR, Special 
        Panel Session July 17, 1990, pages 45-52.
J.G. Kappenman, V.D. Albertson, ``Bracing for the Geomagnetic Storms,'' 
        feature article for IEEE Spectrum Magazine, pp. 27-33, March 
        1990.
J.G. Kappenman, ``Geomagnetic Disturbances and Power System Effects,'' 
        Solar Terrestrial Predictions Workshop Proceedings, U.S. Dept 
        of Commerce, NOAA, pp. 131-141, May 1992.
J.G. Kappenman, S.R. Norr, ``Application of Phase Shifting Transformers 
        in the Upper Midwest,'' IEEE Special Publication, Current 
        Activity in Flexible AC Transmission Systems, Publication #92TH 
        0465-5PWR, April 1992, pp. 45-52.
J.G. Kappenman, ``Static Phase Shifter Applications and Concepts,'' 
        EPRI FACTS Conference Proceedings, EPRI TR-101784, December 
        1992.
J.G. Kappenman, D.L. Van House, ``Thyristor Controlled Phase Angle 
        Regulator Applications and Concepts for the Minnesota-Ontario 
        Interconnection,'' EPRI FACTS Conference 3, October 1994.
S. Nyati, M. Eitzmann, J. Kappenman, D. VanHouse, N. Mohan, A. Earls, 
        ``Design Issues for a Single Core Transformer Thyristor 
        Controlled Phase-Angle Regulator,'' IEEE Transactions on Power 
        Delivery, October 1995, Vol. 10, Number 4, pp. 2013-2019.
J.G. Kappenman, D.L. VanHouse, ``Utility Fault Diagnostics: Use of the 
        National Lightning Detection Network at Minnesota Power,'' 
        International Lightning Detection Conference, Tucson, Arizona, 
        Feb. 1995.
J.G. Kappenman, ``Emerging Power Delivery Technologies: `Location-
        Centered Lightning Mitigation' and `Transformer Dynamic 
        Rating', A Utility Perspective of the Operational and Economic 
        Benefits,'' EPRI Power Delivery Conference, Washington DC, May 
        1996.
J.G. Kappenman, ``Geomagnetic storms and Their Impact on Power Systems: 
        Lessons Learned from Solar Cycle 22 and the Outlook for Solar 
        Cycle 23,'' IEEE Power Engineering Review, May 1996, pp. 5-8.
J.G. Kappenman, D.L. Van House, ``Location-Centered Mitigation of 
        Lightning-Caused Disturbances,'' IEEE Computer Applications in 
        Power, Vol. 9, July 1996, pp. 36-40.
J.G. Kappenman, L.J. Zanetti, W.A. Radasky, ``Space Weather From a 
        User's Perspective: Geomagnetic Storm Forecasts and the Power 
        Industry,'' EOS Transactions of the American Geophysics Union, 
        Vol. 78, No. 4, January 28, 1997, pp. 37-45.
J.G. Kappenman, L.J. Zanetti, W.A. Radasky, ``Geomagnetic Storms can 
        Threaten Electric Power Grid,'' Earth in Space, American 
        Geophysics Union, Vol. 9, No. 7, pp. 9-11, March 1997.
J.G. Kappenman, W.A. Radasky, J.L. Gilbert, I.A. Erinmez, ``Advanced 
        Geomagnetic Storm Forecasting: A Risk Management Tool for 
        Electric Power Operations,'' IEEE Plasma Society Special Issue 
        on Space Plasmas, December 2000, Vol 28, #6, pp. 2114-2121.
J.G. Kappenman, ``Geomagnetic Storm Forecasting Mitigates Power System 
        Impacts,'' IEEE Power Engineering Review, November 1998, pp. 4-
        7.
J.G. Kappenman, ``Advanced Geomagnetic Storm Forecasting for the 
        Electric Power Industry,'' American Geophysics Union Press Book 
        ``Space Weather'' Geophysical Monograph #125, July 2001.
J.G. Kappenman, Chapter 4.9--`` Geomagnetic Disturbances and Impacts 
        Upon Power System Operations,'' The Electric Power Engineering 
        Handbook, CRC Press/IEEE Press, pp. 4-150-165, published 2001.
I.A. Erinmez, J.G. Kappenman, W.A. Radasky, ``Management of the 
        Geomagnetically Induced Current Risks on the National Grid 
        Company's Electric Power Transmission System,'' Journal of 
        Atmospheric and Solar Terrestrial Physics (JASTP) Special 
        Addition for NATO Space Weather Hazards Conference June, 2000, 
        in press 2001.
L.J. Lanzerotti, L.V. Medford, C.G. MacLennan, J.S. Kraus, J.G. 
        Kappenman, W. Radasky, ``Titans-Atlantic Geopotentials during 
        the July 2000 Solar Event and Geomagnetic Storm,'' for 
        ``BASTILLE FLARE ISSUE'' of Solar Physics, Kluwer Academic 
        Press, release for Fall 2001.
J.G. Kappenman, ``Advanced Geomagnetic Storm Forecasting for the 
        Electric Power Industry,'' American Geophysics Union Press Book 
        ``Space Weather'' Geophysical Monograph #125, July 2001, pages 
        353-358.
J.G. Kappenman, Chapter 13--``An Introduction to Power Grid Impacts and 
        Vulnerabilities from Space Weather,'' NATOASI Book on Space 
        Storms and Space Weather Hazards, edited by I.A. Daglis, Kluwer 
        Academic Publishers, NATO Science Series, Vol. 38, pg 335-361, 
        2001.
I.A. Erinmez, S. Majithia, C. Rogers, T. Yasuhiro, S. Ogawa, H. Swahn, 
        J.G. Kappenman, ``Application of Modelling Techniques to Assess 
        Geomagnetically Induced Current Risks on the NGC Transmission 
        System,'' CIGRE Paper 39-304, Session 2002.
W.A. Radasky, J.G. Kappenman, R. Pfeffer, ``Nuclear and Space Weather 
        Effects on the Electric Power Infrastructure,'' NBC Report, 
        Fall/Winter 2001, pp. 37-42.
J.G. Kappenman, Space Weather and the Vulnerability of Electric Power 
        Grids, in Effects of Space Weather on Technology 
        Infrastructure, edited by I.A. Daglis, Kluwer Acad., Norwell, 
        Mass., in press, 2003.
J.G. Kappenman, ``SSC Events and the Associated GIC Risks to Ground-
        Based Systems at Low and Mid-Latitude Locations,'' AGU 
        International Journal of Space Weather, in press 2003.
J.G. Kappenman, ``Electric Power Grids and Evolving Vulnerability to 
        Space Weather,'' feature article for AGU International Journal 
        of Space Weather, in press 2003.
J.G. Kappenman, ``Opinion: Systemic Failure on a Grand Scale--August 
        14, 2003,'' signed opinion article for AGU International 
        Journal of Space Weather, in press 2003.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                Biography for Henry P. (Hank) Krakowski

    Vice President--Corporate Safety, Security & Quality Assurance 
United Airlines

    Named to this position in November 2001, Captain Krakowski is 
responsible for corporate Safety, Security and Quality Assurance. These 
responsibilities cover all flight, operational, computer and 
maintenance functions, including emergency response. His organization 
is based in Chicago and has both Safety, Security and QA personnel 
worldwide.
    Hank joined United as a pilot in 1978 and has served as Director of 
Flight Crew Planning and most recently as Director--Flight Operations 
Control. He was in charge of Flight Operations at United's Operations 
Control Center on September 11th 2001. In addition to his officer 
duties Hank also flies the Boeing 737 out of O'Hare.
    A native of Evanston, Illinois, Hank holds a Master's degree in 
Business & Management and a Bachelor's degree in mechanical engineering 
from St. Louis University. Hank has served as chairman of 
communications and national spokesman for the Air Line Pilots 
Association.
    Active in numerous aspects of aviation, he is also a rated Flight 
Dispatcher and practicing Aircraft Mechanic. In addition to rebuilding 
two aircraft, Hank has been an airshow pilot with the Chicago based 
Lima Lima aerobatic demonstration flight team. He lives in Deerfield, 
IL.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    Biography for Robert A. Hedinger

    Dr. Robert Hedinger, Executive Vice President at Loral Skynet, 
U.S.A, is responsible for Sales, Marketing and Client Services. He 
joined AT&T Bell Laboratories in 1978 as a Satellite Systems Engineer 
responsible for Satellite System Design, Satellite Transmission 
Planning, and International Technical Regulatory Matters. He led 
marketing and sales for AT&T SKYNET Satellite Services from 1991 to 
1993. He led Business Development efforts for AT&T and subsequently for 
Loral SKYNET from 1993 through 2002. Since then he has been responsible 
for Sales, Marketing, and Client Services. Dr. Hedinger participated in 
ITU activities since 1980. He chaired the U.S. delegation to CCIR Study 
Group 4 for three years and participated as a U.S. delegate to three 
WRCs. He participated as Vice Chairman of U.S. Delegation to WARC 
ORB'88.
    Dr. Hedinger received his Ph.D. in Physics from the University of 
Cincinnati, Cincinnati, Ohio in 1975.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

What Is Space Weather? Why Is It Important?

    The Sun is a variable star. Its magnetic field varies on a time 
scale from seconds to decades. The origins of solar variability are 
still poorly understood, but it causes the Sun to produce vast 
explosions (flares and coronal mass ejections) and streams of ionized 
gas (the solar wind). The space environment, in which the entire Solar 
System exists, is controlled and modulated by these outpourings from 
the Sun. This variation in the space environment is called ``space 
weather.''
    Fortunately, the Earth has a magnetic field and atmosphere that 
partially protects us from the daily changes in geospace conditions. 
However, some of these effects do make their way into the Earth system 
and can damage our spacecraft and endanger the health and safety our 
astronauts. Here on Earth, they can affect technologies vital to our 
civilization such as degrading communications, disrupting electrical 
power transmission, increasing corrosion rates in oil pipelines, 
increasing the radiation doses received by passengers and crew on some 
commercial airliners, and decreasing the accuracy of GPS.
    The future of space exploration beyond the immediate Earth 
environment (i.e., beyond the protection of the Earth's natural 
shields) is intimately linked to the necessity of understanding space 
weather. If we are to send astronauts to Mars or set up a permanent 
base on the Moon, for example, then understanding these phenomena and 
being able to predict them will be vital to ensuring our explorers' 
safety.

Our Needs for Space Weather Data and Forecasts

    Lockheed Martin Space Systems Company has a major stake in space 
weather. All of our space-related programs use space weather data in 
the planning, design, and operation of new orbital systems. Radiation 
dosage, communications quality, navigation and position measurement, 
surveillance, and mission life are concerns related to space weather in 
preparing reliable and successful space projects for the U.S. 
government. One of many possible examples: our Astronautics group 
(Denver, Colorado) uses SEC space weather forecasts to help scheduling 
the launches of Atlas and Titan rockets.
    Our Advanced Technology Center in Palo Alto, California, works on a 
wide variety of space weather programs including building instruments 
for solar monitoring from the NOAA GOES spacecraft and the NASA Living 
With A Star (LWS) and Solar Terrestrial Probe programs. They research 
space weather phenomena originating from the Sun and model their direct 
effects in geospace. They have used the predictions from the NOAA SEC 
since the launch of the Solar Maximum Mission in 1980 to help optimize 
the scientific return from some of their solar missions.

Roles of Government, Academia and Industry in Space Weather

    NSF, in collaboration with NOAA, DOD, NASA, and several other 
agencies, produced a study identifying the urgent need for a 
coordinated approach to space weather. This led to the National Space 
Weather Initiative. A part of this program was designed to improve the 
observations and research of space weather in the science community. 
This effort was spearheaded by NASA and NSF; which defined the 
outstanding theoretical and observational problems that need to be 
addressed. This led to the LWS program at NASA and comprehensive 
modeling projects at NSF.
    Academia is important to the ongoing development of space weather 
because much of the ground-breaking research goes on at universities. 
While much of this research is of purely scientific interest, some of 
it leads directly to models and visualization techniques that are 
applicable to space weather forecasting. The NOAA SEC is responsible 
for being familiar with these advances and how they might best be 
applied to forecasting.
    Because the NASA charter focuses on science rather than operational 
monitoring of phenomena like space weather, the task of gathering long-
term space weather data fell to NOAA, hence the inclusion of space 
weather instruments on NPOESS and GOES-R. NOAA also takes the 
discoveries made by NASA and NSF research that are specifically 
relevant to space weather forecasting and turns them into the 
appropriate data products on which the space weather user community 
depends.
    The SEC has acted as the interface between the space weather 
science and user communities. For example, they have organized a very 
successful series of annual meetings, Space Weather Week, which bring 
these different space weather communities (researchers, modelers, 
commercial suppliers, and users) together to help understand each 
other's capabilities and requirements. Without this vital role of the 
SEC, space weather forecasting would be many years behind where it is 
today.
    Industry provides the capability to build the instruments, 
spacecraft, and ground systems for NASA research programs and uses that 
experience to supply the necessary high-reliability monitoring systems 
for NOAA. The aerospace industry is also one of the many users of 
NOAA's space weather products.
    Other government agencies (e.g., DOD, FAA, and DOE) are major users 
of NOAA space weather forecasts. They help define the observational 
requirements and data products that they want from the SEC. There is a 
marked rise in the number of companies whose business can be affected 
by space weather; these include the increase in commercial usage of 
GPS, cell phones, and the need for power grids to run nearer to 
capacity limits. This upsurge in the need for space weather products 
has resulted in a growing number of small businesses from all over the 
United States that provide space weather products specifically tailored 
to single-end-user needs. These companies rely entirely on the data and 
forecasts from the SEC.

Future Applications of Space Weather

    The continuity and fidelity of the current space weather data and 
forecasting capabilities provided by NOAA SEC is vital. We should also 
consider what is needed in the future. Our investment and reliance on 
space technology are growing, and we need to respond to this by 
increasing our capability to forecast the operational environment of 
these ever more sophisticated and expensive space assets. To keep pace 
with these advances and new priorities, we believe that the SEC needs 
to grow steadily over the next few years.
    Recently there has been increasing scientific interest in the 
potential link between space weather effects and climate change. It has 
been estimated that 30 to 50 percent of the recent climate change could 
be attributable to changes in the Sun. If this link is demonstrated to 
exist, as many scientists think it will, and the mechanisms are 
understood so that the space weather input to our climate can be 
modeled to accurately predict future climate change, then the solar and 
geospace data, processed and archived by NOAA, will be of huge economic 
importance to the Nation's long-term planning of water and land usage. 
Consequently, we cannot afford to lose or disperse the core of space 
weather expertise currently resident at the SEC in Boulder, Colorado.

Conclusions

    The stage of development of space weather at present is very 
similar to that of meteorological forecasting more than 40 years ago. 
The data are sparse and incomplete, and the forecasts are not as 
accurate in the long-term as some of the users would like. The increase 
in data acquisition capability represented by the new NPOESS and GOES-R 
space weather instruments, plus the influx of new data from the current 
GOES Solar X-ray Imager series, will result in a significant increase 
in our capability to forecast space weather effects more accurately 
over a longer period. To take full advantage of this upsurge in space 
weather data and demand for more forecast products, we need a growing 
capability at the NOAA SEC, not a reduced one.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               Prepared Statement of Dr. W. Kent Tobiska
                     President and Chief Scientist
                     Space Environment Technologies
                          1676 Palisades Drive
                    Pacific Palisades, CA 90272-2111

    The shorter-term variable impact of the Sun's photons, solar wind 
particles, and interplanetary magnetic field upon the Earth's 
environment that can adversely affect technological systems is 
colloquially known as space weather. It includes, for example, the 
effects of solar coronal mass ejections, solar flares and irradiances, 
solar and galactic energetic particles, as well as the solar wind, all 
of which affect Earth's magnetospheric particles and fields, 
geomagnetic and electrodynamical conditions, radiation belts, aurorae, 
ionosphere, and the neutral thermosphere and mesosphere.
    The U.S. activity to understand, then mitigate, space weather risks 
is programmatically directed by the interagency National Space Weather 
Program (NSWP) and summarized in its NSWP Implementation Plan [2000]. 
That document describes a goal to improve our understanding of the 
physics underlying space weather and its effects upon terrestrial 
systems. A major step toward achievement of that goal is the ongoing 
development of operational space weather systems which link models and 
data to provide a seamless energy-effect characterization from the Sun 
to the Earth. The NOAA Space Environment Center is the key agency 
providing the raw information necessary for inputs into these systems 
and the continued support by NOAA SEC to space weather users is of 
critical importance in our technology-based society.
    In relation to space weather's effects upon the ionosphere, there 
are challenges to space- and ground-systems that result from electric 
field disturbances, irregularities, and scintillation. Space and ground 
operational systems that are affected by ionospheric space weather 
include telecommunications, Global Positioning System (GPS) navigation, 
and radar surveillance. As an example, solar coronal mass ejections 
produce highly variable and energetic particles embedded in the solar 
wind while large solar flares produce elevated fluxes of ultraviolet 
(UV) and extreme ultraviolet (EUV) photons. Both sources can be a major 
cause of terrestrial ionospheric perturbations at low- and high-
latitudes. They drive the ionosphere to unstable states resulting in 
the emergence of irregularities and rapid total electron content (TEC) 
changes.
    Trans-ionospheric radio communications and GPS navigation systems 
are particularly affected by these irregularities. The ionosphere's 
ability to reflect high frequency (HF) radio signals is affected and 
conditions are created where HF radio propagation is not feasible when 
signal amplitude and phase scintillations are degraded. For GPS 
navigation systems users in perturbed ionospheric regions, the timing 
of GPS signals becomes significantly and adversely degraded, 
translating directly into location inaccuracy and even signal 
unavailability.
    Ionospheric perturbed conditions can be recognized and specified in 
real-time or predicted through linkages of models and data streams such 
as those provided by NOAA SEC. Linked systems must be based upon multi-
spectral observations of the Sun, solar wind measurements by satellites 
between the Earth and Sun, as well as by measurements from radar and 
GPS/TEC networks. Models of the solar wind, solar irradiances, the 
neutral thermosphere, thermospheric winds, joule heating, particle 
precipitation, substorms, the electric field, and the ionosphere 
provide climatological estimates of non-measured present and predicted 
parameters. Data provided by NOAA SEC are continuously used by these 
models.
    Space Environment Technologies, a company that provides advanced 
space weather products and services for government and aerospace 
customers, supports NOAA Space Environment Center in a common effort to 
develop operational ionospheric forecast systems that will detect and 
predict the conditions leading to dynamic ionospheric changes. Such 
systems will provide global-to-local specifications of recent history, 
current epoch, and 72-hour forecast ionospheric and neutral density 
profiles, TEC, plasma drifts, neutral winds, and temperatures. 
Geophysical changes will be captured and/or predicted (modeled) at 
their relevant time scales using data assimilation techniques. Linked 
physics-based and empirical models that will provide thermospheric, 
solar, electric field, particle, and magnetic field parameters will 
enable reliable forecasts and will mitigate risks from space weather to 
our technological systems.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Comments of the Electric Power Research Institute (EPRI)
    EPRI is a non-profit corporation formed by U.S. electric utilities 
in 1972 as the Electric Power Research Institute to manage a national, 
public/private collaborative research program on behalf of EPRI 
members, their customers, and society. Today, EPRI has over 1,000 
members consisting of government-owned utilities (both federal and non-
federal), rural electric cooperative associations, investor-owned 
utilities, Independent and Affiliated Transmissions Companies (ITC and 
ATC), Independent System Operators (ISOs), and Regional Transmission 
Operators (RTOs), foreign (international) utilities, independent power 
producers, and governmental agencies engaged in funding electricity-
related research and development.
    EPRI has gained a worldwide reputation for excellence and 
credibility in scientific research and technology development related 
to electricity. As a tax-exempt scientific organization under Internal 
Revenue Code Section 501 (c) (3), EPRI makes its research results 
available through its technology transfer program, including 
publication of reports, licensing of intellectual property, and 
sponsoring seminars and conferences.

INTRODUCTION

    Moderate and local disturbances in the power grid as a result of 
solar storms were seen from time to time, but was not fully understood 
that the possible damage could be serious until the storm of March 31, 
1989. As a result of this storm, the Province of Quebec suffered a 
complete blackout and major equipment damage occurred in the northern 
United States. Since that event, the industry has been aware of the 
potential harm and has become more careful about noting Space 
Environment Center (SEC) alerts and responding to them.
    The Northeast Blackout of August 14, 2003 was a reminder that the 
power grid is dynamic and that the necessary operational balance must 
be maintained with some care. Solar storms represent another disturbing 
influence which can unsettle the system if we are not careful. The 
alerts of the Space Environment Center provide critical information 
used by many utilities to gauge how to plan their operations during 
times of expected stress.
    How likely is it that we will see a repeat storm of severity equal 
to that of March 13, 1989? We have since experienced a half of a 
sunspot cycle and not seen a comparable storm impact the earth. On the 
other hand there are compelling reasons to expect that our system is 
becoming more susceptible, rather than less, to the same disturbance. 
Several trends combine to this so:

        Deregulation has increased the purchase of power from more 
        remote locations and thereby increased the long distance flows 
        of power over the grid. Longer lines are more vulnerable to 
        disruption from solar storms.

        The relative loading of lines and transformers compared with 
        their ratings have increased as load has grown faster than new 
        installations. Equipment used near its limits of temperature 
        and magnetic flux can be more easily pushed into failure from 
        solar storms.

        The use of microprocessors in electric energy consuming 
        devices and appliances is rising dramatically. As a result, US 
        business and industry is increasingly demanding more reliable, 
        digital quality electrical supply. Microprocessor-based devices 
        are more prone to disturbance and to misinterpretation of noisy 
        signals that are likely to result from the effects of solar 
        storms on the power grid.

    Against the unknown probability of a recurrence (admittedly not a 
high probability) there must be balanced the projected cost of a 
widespread outage. This cost could be very high indeed. In the United 
States, the region of highest risk runs form the Canadian border down 
to the middle of the country. Because the Magnetic North Pole is 
displaced somewhat towards the eastern U.S., the region of highest risk 
does not extend as far south into California as it does into Virginia. 
By coincidence, the recent Mid-West/Northeast Blackout of August 14 and 
15, 2003 can serve as a reasonable model of what might happen from the 
recurrence of a high magnitude solar storm in the eastern U.S.
    We value the alerts issued by the Center to our industry. Many 
utilities curtail elective maintenance operations and take steps to 
distribute their generation more evenly on the basis of these alerts. 
Several utilities have combined under the leadership of EPRI to pool 
readings of solar induced currents in real time so we can better assess 
the current status of any ongoing event.
    We value the studies the Center makes of the solar wind and the 
evidence and data it is accumulating that will one day give us a much 
better understanding of phenomena we only observe today. It would be of 
great value if one day the Center was able to predict further into the 
future and with more certainty what to expect from the solar flows.
    We value the studies of solar phenomena, the drivers of all the 
effects we experience. Understanding here may be further away, but 
could be even more valuable for predicting releases many days into the 
future.
    It is not clear that any other public or private organizations have 
the budget or interest to pursue such long-term matters. The solar 
phenomena influence industries as diverse as communications, oil and 
gas pipelines and the electric power industry. The U.S. military has an 
interest in the matter of solar disturbances, which can disrupt GPD 
systems and indirectly impact them through loss of electric power.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                Prepared Statement of Timothy L. Killeen
                                Director
                National Center for Atmospheric Research

    I wish to thank Chairman Ehlers, Ranking Member Udall, and Members 
of the Subcommittee on Environment, Technology and Standards for 
holding the October 30 Subcommittee hearing, What Is Space Weather and 
Who Should Forecast It? Space Weather is a relatively new, but critical 
area of scientific research and operations that may not be understood 
or appreciated by many in a manner that captures the field's importance 
to the Nation's security and technological preeminence in the world. 
You are doing the country a great service by examining the state of the 
science and recent questions that have been raised by Congress about 
who should forecast space weather and provide warnings about threats 
from solar storms. I write this not only from my position as director 
of the National Center for Atmospheric Research (NCAR), but as 
principal investigator of an instrument on the, (TIMED) satellite. A 
major goal of TIMED is to improve our ability to predict and understand 
Space Weather.
    I would like to address the work and positioning of the Space 
Environment Center (SEC) of the National Oceanic and Atmospheric 
Administration (NOAA), the main topics of the October 30 hearing. I 
have experience working with the scientists of SEC and was quite 
concerned to see the FY 2004 marks and language in both the House and 
Senate NOAA bills regarding the Center. The President's request for SEC 
provided it with a $3 million increase over FY 2003. As I am sure you 
are well aware, the House mark eliminated this increase, keeping the 
account flat. Worse, the Senate zeroed SEC out and included the 
following language in the committee report: The ``Atmospheric'' in NOAA 
does not extend to the astral. Absolutely no funds are provided for 
solar observation. Such activities are rightly the bailiwick of the 
National Aeronautics and Space Administration and the Air Force.
    The atmospheric sciences community is fully aware of the 
requirement in both the House and Senate bills to review NOAA research 
operations. Such a review will, I believe, strengthen those operations 
and provide long-term benefits to the country. However, the language of 
the Senate bill in particular seems to criticize research activities 
within NOAA across the board and single out SEC as an inappropriate 
NOAA function. This approach seems to me likely to be of significant 
harm to the Nation's scientific endeavors.
    SEC has made many extraordinary basic and applied research 
contributions that have been described in detail by SEC Director 
Hildner in his testimony. These include the real-time monitoring and 
forecasting of solar events such as radiation storms that can damage 
satellites and electrical grids. The Center provides forecasts and 
real-time data that enable the prediction of solar effects on the 
Earth's magnetosphere, ionosphere, and upper atmosphere. These effects 
include enhancements of the radiation belts, ionospheric interference 
with communication and navigation systems, and changes in the orbits of 
satellites. SEC is the undisputed world leader in space weather 
forecasting, and its services are of significant value to commercial, 
military, and research endeavors conducted in near-Earth space.
    In cooperation with the U.S. Air Force, SEC operates the Space 
Weather Operations Center, which serves as the national early warning 
center for space disturbances that can affect people and equipment 
working in the space environment. Research satellites such as the 
Hubble Space Telescope as well as communications and surveillance 
satellites are protected by the Center's activities, as are astronauts 
on the Space Station. Additional SEC activities include the prediction 
of solar influences on the Earth's magnetosphere, ionosphere and 
thermosphere. SEC predicts energetic particle fluxes in the Earth's 
ring current of geomagnetically trapped ions and electrons, ionospheric 
disturbances and their effect on radio communication, and thermospheric 
densities that affect satellite drag. The skill and knowledge to be 
able to provide these assessments are not easy to come by, taking years 
of experience to develop. Also taking much skill and experience to 
develop are effective ways in which to provide end users with 
information needed for operational purposes. SEC does an excellent job 
on both fronts.
    The geophysical indices SEC provides are used by a wide number of 
scientific researchers, students, postdoctoral students, and the 
general public. They are employed in models of the upper atmosphere, 
ionosphere, and magnetosphere, and are important for operational 
studies. Disrupting SEC at this time would have a negative impact on 
studies involved with NSF-sponsored programs such as Coupling, 
Energetics and Dynamics of Atmospheric Regions (CEDAR), Geospace 
Environment Modeling (GEM), and Solar, Heliospheric, and INterplanetary 
Environment (SHINE), as well as satellite studies of NASA and the DOD.
    Space weather basic and applied research at SEC provides critical 
support to the operational forecasting and data services. SEC maintains 
active collaborations with the National Center for Atmospheric 
Research, the University of Colorado, Boston University, and many other 
institutions engaged in the extensive and challenging endeavor of 
obtaining a full and detailed physical understanding of the processes 
that drive solar activity, solar particle and electromagnetic 
radiation, changes in the solar wind and magnetic field, and the 
response of the magnetosphere-ionosphere-thermosphere system to those 
changes. In particular, SEC is a national leader in developing 
numerical models of the solar wind and the ionosphere, and data 
assimilation techniques applied to the upper atmosphere. Research at 
SEC is of very high quality and, I believe, is an irreplaceable 
component of current multi-institutional projects to create the next 
generation of coupled Sun-to-Earth numerical modeling systems for space 
weather forecasting.
    As stated above, language in the Senate budget for FY04 implies 
that SEC functions should be transferred to NASA or to the Department 
of Defense (DOD). I have close working knowledge of the programs of 
NASA and believe that it is an agency that is not equipped to provide 
support for continuous (``247'') data and forecast services, having 
other priorities more critical to its core mission. Therefore, I do not 
believe that NASA would provide an appropriate home for SEC operational 
activities in the near-term. DOD could conceivably manage the 
operational arm, but would not be an appropriate home for the research 
activities conducted at SEC. In addition, DOD's primary responsibility 
is military defense of the Nation. In times of war or other military 
emergency, it is conceivable that DOD operations would be classified 
and would pertain only to military matters. In this situation, response 
to civilian concerns relating to solar geomagnetic and radiation storms 
would likely be of lower priority.
    I am sure that you are aware of the recently released National 
Research Council (NRC) decadal study on research strategy in solar and 
space physics titled, The Sun to the Earth--and Beyond. In this 
document, the eminent members of eight Blue Ribbon panels, committees, 
and boards strongly endorse SEC and recommend throughout that NOAA, 
NASA, DOD, and the National Science Foundation collaborate to lead the 
military and civilian effort to continue and to expand solar and space 
research, research applications, the acquisition of real-time data, and 
technology development.
    A recommendation on page 14 of the NRC report states that ``NOAA 
should assume responsibility for the continuance of space-based 
measurement such as solar wind data. . .'' This is a recommendation by 
numerous experts in the field. Absolutely nowhere in this document is 
there a recommendation that NOAA extricate itself from solar and space 
weather work because it is inappropriate to its mission. To the 
contrary, recommendations throughout elucidate the critical role that 
NOAA plays among the four involved agencies.
    Though constrained by limited budgets SEC has done excellent work 
within NOAA and I believe it makes sense for it to continue to reside 
there. NOAA's mission reads in part, ``To understand and predict 
changes in the Earth's environment. . .to meet our nation's economic, 
social, and environmental needs.'' The Sun makes life on Earth possible 
and causes tremendous environmental changes. To better understand the 
Sun's behavior is to better understand Earth's environment. To 
understand the threats of solar geomagnetic and radiation storms and 
warn of their possible impacts contributes to meeting our nation's 
economic, social, and environmental needs. In my opinion, SEC's work is 
an integral part of the NOAA mission.
    I understand that NOAA leadership is considering the transfer of 
SEC (should it survive the FY 2004 Appropriations process) from the 
Office of Oceanic and Atmospheric Research (OAR) to the National 
Weather Service (NWS). Transfer of SEC to NWS could strengthen its 
operational mandate, and provide a programmatic environment appropriate 
to its national mission. I would have some concern, though, that the 
critical, basic research side of the Center could become undervalued 
within the overwhelmingly operational environment of NWS. The two sides 
of SEC are symbiotic and not readily separated without seriously 
compromising the forecasting side. As has been stated before, 
operations are only as strong as the research and research applications 
behind them. To diminish one is to weaken or cause stagnation in the 
other. I would like to urge the Committee to seek assurances from NOAA 
leadership that, if SEC is transferred from OAR to NWS, the research 
side of the laboratory will receive continued support within NWS, or 
will be maintained elsewhere within NOAH with a close working 
relationship to the operational side.
    In closing, I would like to note that NOAA/SEC is the undisputed 
world leader in space weather forecasting. SEC has an effective balance 
of research and operational staff in the area of solar-terrestrial 
physics and an ideal scientific culture for the purpose of forecasting. 
To create such a balance and culture at any other U.S. institution 
would be difficult, time-consuming, and expensive.
    SEC could, in principle, be transferred to another agency, but that 
would require unnecessary expenditures, disruptions, and a short-term 
(if not long-term) downgrading in the quality of forecasting. Space 
weather forecasting is of immense importance to this technologically 
advanced nation; it should be carried out at NOAA, the culture of which 
supports forecasting with a strong scientific basis.
    Mr. Chairman, in your leadership role with the Committee, and as a 
fellow physicist, I hope you will appreciate the value to the country 
of protecting SEC's research and operational role within NOAA, the 
importance of which was illustrated well during the very recent solar 
storms that erupted in the Earth's direction. I thank you and Mr. Udall 
for the opportunity to submit this written testimony and I appreciate 
your attention to this important matter.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Prepared Statement of Bruce Mahone

                   Space Weather Funding in Jeopardy

    As a result of a Washington funding dispute, the Space Environment 
Center (SEC) in Boulder, Colorado, might have to close its doors in the 
coming months.
    Funding for the Center has been reduced by the U.S. House of 
Representatives and cut entirely by the Senate. This could have a 
devastating impact on the U.S. airline industry, U.S. astronauts, the 
U.S. power distribution grid, worldwide navigation of all types, and 
U.S. military exercises.
    The SEC is jointly operated by the Commerce Department's National 
Oceanographic and Atmospheric Administration (NOAA) and the U.S. Air 
Force.
    Although other government entities collect data on space weather, 
no other facility serves as a focal point for aggregating and 
disseminating the full range of space weather information currently 
available. And no other office serves such a broad range of customers 
with its data--NASA, FAA, NOAA, DOD, and the private sector.
    If the type of data provided by SEC were no longer available 
nationwide, some or all of the following effects could be expected:

Harmful radiation to airline passengers. Commercial airlines and high-
altitude business jets flying polar routes during intense solar flares 
are subject to radiation doses as injurious to humans as the low-level 
radiation from a nuclear blast. This is the equivalent of 100 chest x-
rays and would lead to increased cancer rates among crew and 
passengers. Without space weather information, aircraft operators do 
not know when to change direction to slower, yet safer non-polar 
routes.

Deadly radiation to astronauts. Astronauts venturing outside the Space 
Shuttle or International Space Station during intense solar activity 
are subject to dangerously high levels of radiation.

Loss of electrical power grids. For economic reasons, many portions of 
our nation's power grid regularly operate at peak capacity. If faced 
with a voltage spike induced by a magnetic storm, many nodes on the 
grid cannot handle the surge and would fail. When alerted that a 
magnetic storm is coming, however, grid operators can reduce the amount 
of electricity flowing through the grid, allowing ``space'' for the 
coming voltage spike and thus avoid system failure.

Critical navigational errors. Solar events and magnetic storms can 
interrupt or degrade navigation signals from Long Range Navigation 
(LORAN) systems and Global. Positioning Systems (GPS). This can lead to 
navigation system failures or, even worse, false position readings. 
Navigators notified of such intense space weather can switch to backup 
navigation systems, thus avoiding misdirected vehicles and potential 
crashes.

Military effects. Electromagnetic signals caused by solar emissions 
influence high frequency communications, satellite ultra-high frequency 
communications, and GPS navigation signals. They also increase 
interference or false returns to sunward and/or poleward looking 
radars. Those who track satellites and other objects in orbit can 
potentially lose their targets because of these changes in the 
atmosphere caused by space weather.

    Some in Congress are concerned that NOAA should stick to its core 
mission of tracking weather within Earth's atmosphere and not concern 
itself with weather patterns in space. Space weather, however, does 
ultimately enter Earth's atmosphere and (as noted above) affects 
systems on the ground.
    Others are concerned that SEC funding comes from a portion of 
NOAA's budget designated for scientific research rather than for 
operational forecasting. This is not, however, inconsistent with SEC's 
work. Forecasting space weather and using the forecasts in real time is 
still in its infancy. It is a field that has proved very helpful in 
numerous ways, but one that is still in need of extensive research.
    The view of the aerospace industry is that the Space Environment 
Center is not ``broken'' so there is no reason to ``fix'' it by moving 
its function to NASA, DOD, or another agency. And curtailing the 
services provided by SEC is not an option, particularly considering the 
hazardous threat environment in which we find ourselves. Keeping our 
nation safe, secure, and economically viable requires every bit of 
critical information available. And a major component of that 
information is space weather.
    AIA is taking an active role with its Space Council and legislative 
staff to ensure that SEC funding is restored. The amount of funding the 
office requires (roughly $5-8 million per year) is very modest compared 
to the benefits received from the products it offers for the good of 
our nation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
